<html>
<title> - NOMINATIONS OF JOHN BRYSON AND TERRY GARCIA TO THE U.S. DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 112-248]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-248

                       NOMINATIONS OF JOHN BRYSON
                        AND TERRY GARCIA TO THE
                      U.S. DEPARTMENT OF COMMERCE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 21, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-819 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
   Brian M. Hendricks, Republican Staff Director and General Counsel
            Todd Bertoson, Republican Deputy Staff Director
                Rebecca Seidel, Republican Chief Counsel














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 21, 2011....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     2
Statement of Senator Lautenberg..................................     4
Statement of Senator Boxer.......................................     6
    Prepared statement...........................................     8
    Editorial dated June 21, 2011 from the Los Angeles Times 
      entitled ``Commerce Department nominee deserves the job''..     8
Statement of Senator Kerry.......................................     9
    Letter dated June 16, 2011 to Hon. John D. Rockefeller IV 
      from Members of Congress John F. Tierney and Barney Frank..     9
    Prepared statement...........................................    13
Statement of Senator Isakson.....................................    15
Statement of Senator Toomey......................................    16
Statement of Senator Blunt.......................................    16
Statement of Senator Klobuchar...................................    17
Statement of Senator DeMint......................................    19
Statement of Senator Snowe.......................................    20
Statement of Senator Begich......................................    21
Statement of Senator Pryor.......................................    22
Statement of Senator Warner......................................    22
Statement of Senator Boozman.....................................    23
Statement of Senator Thune.......................................    23
Statement of Senator Rubio.......................................    24

                               Witnesses

Hon. Dianne Feinstein, U.S. Senator from California..............     5
John Bryson, Secretary of Commerce-Designate, Department of 
  Commerce.......................................................    25
    Prepared statement...........................................    27
    Biographical information.....................................    30
Terry Garcia, Deputy Secretary of Commerce-Designate, Department 
  of Commerce....................................................    39
    Prepared statement...........................................    41
    Biographical information.....................................    43

                                Appendix

Response to written questions submitted to John Bryson by:
    Hon. John D. Rockefeller IV..................................    67
    Hon. Daniel K. Inouye........................................    68
    Hon. John F. Kerry...........................................    69
    Hon. Maria Cantwell..........................................    70
    Hon. Frank R. Lautenberg.....................................    72
    Hon. Mark Pryor..............................................    73
    Hon. Claire McCaskill........................................    75
    Hon. Tom Udall...............................................    76
    Hon. Mark Warner.............................................    79
    Hon. Mark Begich.............................................    81
    Hon. Olympia J. Snowe........................................    82
    Hon. Jim DeMint..............................................    86
    Hon. Roger F. Wicker.........................................    88
    Hon. Johnny Isakson..........................................    90
    Hon. Patrick J. Toomey.......................................    90
    Hon. Marco Rubio.............................................    92
    Hon. Kelly Ayotte............................................    95
Response to written questions submitted to Terry Garcia by:
    Hon. John D. Rockefeller IV..................................    97
    Hon. Maria Cantwell..........................................    98
    Hon. Tom Udall...............................................    98
    Hon. Olympia J. Snowe........................................    98
    Hon. Roger F. Wicker.........................................   100
    Hon. Marco Rubio.............................................   100

 
                       NOMINATIONS OF JOHN BRYSON
                        AND TERRY GARCIA TO THE
                      U.S. DEPARTMENT OF COMMERCE

                              ----------                              


                         TUESDAY, JUNE 21, 2011

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:38 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. I would like to call this nominations hearing 
to order.
    Senator Feinstein, I realize that you and Senator Boxer 
want to introduce, but there may be others who want to give 
opening statements.
    So we have two distinguished people this afternoon before 
us, and the first is John Bryson of California. Mr. Bryson is 
nominated to be the next Secretary of Commerce. Our second 
nominee, Terry Garcia, is of Florida. He is nominated to be 
Deputy Secretary of the Department of Commerce. That sounds 
like number one and number two.
    Much of the conversation today is going to focus on Mr. 
Bryson, who has a varied and very impressive resume, and a 
background running an extremely large utility company in 
California for a very long time. That background, to me, is 
more important than ever.
    But on the other hand, some have raised concerns about Mr. 
Bryson's experience as a founding member of an environmental 
organization that has, at times, used very aggressive tactics, 
including suing Mr. Bryson and his company, and then also 
having policies that don't necessarily comport with some views 
held by others on the Committee.
    Others have raised concerns about his support for a 2009 
proposal to cap emissions, which was a position widely held in 
the utility industry. That's an important sense, that it was 
widely held in the utility industry. But it was a bill that I 
opposed.
    That said, I need to tell you that I had a very productive 
and positive meeting with Mr. Bryson last week when he visited 
my office, and I have great respect for his desire to serve our 
country. But along with that, I have enormous faith in his 
creative ability through his executive experience to find ways 
to stimulate manufacturing--which this Committee is dedicating 
itself to for the rest of the year and next--and that he has 
the kind of ability to create jobs in America. It's an issue 
which we all talk about and not much happens about it.
    The nominations of Mr. Bryson and Mr. Garcia come at an 
incredible crossroads for the country and for the Commerce 
Department. High unemployment, a slow recovery, the Commerce 
Secretary and Deputy Secretary play an enormous role in 
supporting jobs and our economy. If confirmed, they would face 
a very steep challenge.
    I have long fought for a stronger manufacturing sector in 
this country. Manufacturing has been hit hard over the last 
decade--losing, as everybody knows, nearly one-third of its 
workforce--and the Government's response has been piecemeal to 
tepid.
    This needs to change. The Secretary of Commerce and Deputy 
Secretary can have a lot to do with that.
    If in the next decade, things are as bad for manufacturing 
jobs as the previous decade, we will have little left in that 
sector to save. Time is running out on us quickly. This, in 
turn, has grave national security implications and could 
cripple our ability to out-innovate and out-compete other 
countries.
    This Committee held two hearings on this issue this year. 
Next week, I'm holding a full Committee field hearing in West 
Virginia on exporting products made in America. I'm also going 
to introduce a slew of bills in the next number of days, which 
are on point, I believe.
    For the foreseeable future, I intend to use this Committee 
to find ways to make manufacturing a spark in our job-creating 
agenda.
    Finally, Commerce is responsible for much more than 
promoting American business. For example, almost two-thirds of 
our department's budget is dedicated to NOAA, the National 
Oceanic and Atmospheric Administration. And I want to hear 
about Mr. Bryson's views and Mr. Garcia's views on the 
Administration's reorganization proposal. They are not 
necessarily leaving NOAA alone, I think to a great disadvantage 
of our country. NOAA's weather satellites, I want to talk about 
that, and the Department's cybersecurity efforts.
    In any event, I look forward to hearing from both our 
nominees today.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Mr. Chairman, we have before us today 
the two most senior positions with the Department of Commerce, 
which is tasked with promoting business, creating jobs, and 
spurring economic growth. While this has always been important, 
it is most essential now, with an unemployment rate at 9.1 
percent.
    The Administration has talked a great deal about job 
creation and the need for regulatory reform. But respectfully, 
the record has not matched the rhetoric. Since taking office, 
President Obama has grown the size of the federal regulatory 
workforce by more than 16 percent, by some estimates.
    There are now more than 275,000 federal employees whose 
entire focus is adding to the ever-expanding regulatory burden 
of America's job creators. So while there has been talk about 
streamlining regulation, we see the Federal Register come on 
schedule every day with even more proposed rules for innovators 
and job creators to negotiate.
    Mr. Chairman, this much is certain: We are not going to tax 
or regulate our way out of the economic downturn. So I will 
want to know about Mr. Bryson's business experience in a highly 
regulated market, and, as I have mentioned to him, his comments 
that seem to favor expanded regulation of the energy sector.
    This economy is in need of a jumpstart, and I believe 
having a Cabinet official committed to economic expansion, 
trade promotion, and other policies that strengthen America's 
competitiveness is an essential part of that.
    So I will look forward to hearing Mr. Bryson tell the 
Committee some of his priorities in this area.
    I do have concerns with some of the statements he has made 
about cap-and-trade legislation and the use of regulation as an 
instrument to reduce what he apparently believes is an 
overproduction of energy, to thereby reduce greenhouse gas 
emissions. Given the state of our economy and the anemic job 
growth we have seen, I believe the question of whether Mr. 
Bryson will promote regulatory reform to eliminate the excess, 
as President Obama has promised, will be part of what I would 
like to ask of him.
    I also will be asking the nominees their thoughts on tax 
reform. The United States currently has the second highest 
corporate tax rate in the world behind Japan, which has said 
that it will lower its rate, ultimately leaving the United 
States with the dubious distinction of having the highest tax 
rate in the world.
    So I would be interested in making sure that we have a 
voice in the Cabinet that will encourage the President to lower 
the tax and regulatory burdens that would jumpstart job 
creation and restore America's global competitiveness. I think 
the Secretary of Commerce is a bully pulpit, the ability to be 
a cheerleader for trade and commerce and promoting job 
creation. And I hope that is what Mr. Bryson will also be able 
to embrace.
    So with that, Mr. Chairman, I thank you for having this 
hearing and look forward to hearing from the witnesses and 
moving forward. Thank you.
    The Chairman. Thank you, Senator Hutchison.
    It is the Chair's wish that any member who wishes to make a 
statement of about 3 minutes--and I apologize, Senator 
Feinstein, to you--is free to do so.
    Senator Lautenberg. Mr. Chairman, are we doing that in 
arrival order?
    The Chairman. You know what, I don't have--oh, yes, I do 
have arrivals, which happens to be a Senator Lautenberg.
    [Laughter.]
    Senator Lautenberg. I didn't mean to interfere.
    The Chairman. Did you camp out the night before?
    [Laughter.]
    Senator Lautenberg. I was here.
    The Chairman. OK.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks very much, Mr. Chairman.
    And we have a distinguished colleague at the desk, and I 
don't want to take too much time. But I've got to say, we are 
so lucky to have someone with the qualifications that John 
Bryson and Terry Garcia bring to these positions.
    I met with Mr. Bryson last week and we have things in 
common. In addition to being very proud fathers, we're both 
former CEOs while we care about the environment and the well-
being of our children.
    So in order to try and meet the short time deadline, I 
introduce a letter from the Business Roundtable that was sent 
June 21. And they write, John Engler, who's the President, I 
believe, of the organization--anyway, he says here that John 
Bryson's extensive experience in the private sector has well-
equipped him to take on the many issues the department must 
address to support the U.S. economy and job creation, issues 
like technology, innovation, intellectual property, and trade. 
And they remind us that the Business Roundtable is an 
association of chief executive officers of leading U.S. 
companies with nearly $6 trillion in annual revenues and more 
than 13 million employees.
    It's hard to find something better than that, and also the 
fact that he's cared about the environment is deserving of 
credibility and support.
    So, Mr. Chairman, I thank you for doing this, and as I look 
at Mr. Bryson's background--18 years chairman and CEO of Edison 
International, delivers power to nearly 14 million 
Californians, holds the distinction of being our country's top 
buyer of renewable energy.
    Friends, we're lucky to get someone like this who wants to 
sit in here and do the job that they have to do, sacrifice lots 
of things in the outside world. And we ought to just move on 
this thing and stop the obstructionism that so often invades a 
review of a person's qualifications, without looking at the 
qualification.
    And with that, Mr. Chairman, I proudly beat the 3-minute 
deadline.
    The Chairman. You did, and I hope in your next go-round, 
you'll make your views more clear.
    [Laughter.]
    The Chairman. With the permission of the Committee, I'm 
going to ask that Senator Feinstein be able to go ahead and 
introduce John Bryson, and then we will return to our----
    Senator Boxer. The understanding was I would also. I would 
have been sitting down there but for the fact that----
    The Chairman. Go sit. Do you want to do it from here or 
there?
    Senator Boxer. Here.
    The Chairman. That's fine.
    Senator Boxer. Yes, but I would like to follow my friend.
    The Chairman. And that will happen.
    Senator Feinstein?

              STATEMENT OF HON. DIANNE FEINSTEIN, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman.
    I appreciate this because, as you well know, I chair 
Intelligence and we're meeting now. And I see members of the 
Intelligence Committee here, so I know they're not playing 
hooky, but it's good to be here.
    I have the distinct pleasure today to introduce to the 
Committee John Bryson, a former chairman, CEO, and president of 
Edison International, and most importantly to Senator Boxer and 
myself, a Californian.
    On May 31, John was nominated by President Obama to serve 
as the 37th Secretary of Commerce.
    I believe that he is enormously well-suited for this 
important role, particularly at a time when our economy remains 
fragile and job creation isn't occurring fast enough. John's 
experience running a multibillion dollar company, a very large 
utility, his success as a strong advocate for business, and his 
readiness to advance a jobs agenda make him a strong and 
positive fit for Commerce Secretary.
    I first got to know John when he was CEO of Edison 
International. That's the parent company of Southern California 
Edison, which provides power to 14 million Californians and 
nearly 300,000 businesses.
    As the Committee will recall, in 2000 and 2001, California 
was gripped by an energy crisis that resulted in rolling 
blackouts that left millions of Californians in the dark. 
During that difficult time, John's company was under siege. I 
watched closely as he successfully fended off financial 
disaster, even as other California utilities were not so 
fortunate.
    I met and spoke with John Bryson often during that energy 
crisis and remember well his intelligence and pragmatism as 
utilities, state officials, and Washington worked their way 
through the crisis. In my observation, he worked hard for the 
people of California, his shareholders, and the many businesses 
that relied on a stable power grid.
    I believe John will carry the same thoughtful, sensible 
leadership style with him to the Commerce Department.
    And during his years at Edison International, John's 
leadership of this very large utility was strong and effective. 
I want to give you an example.
    My colleague Senator Boxer knows that I had worked on a 
utilities cap-and-trade bill. Well, Edison International, 
headquartered in Southern California, at this time owned a 
portfolio that was 40 percent coal. As a result, he did not 
join in support for this legislation. As a result of this also, 
he had diversified the investment portfolio of that great 
utility.
    Now, why do I tell you this? I tell you this to demonstrate 
his fidelity to the cause that he is entrusted to serve. And I 
have respect for that. I could say I was little miffed with him 
at the time. That's fair to say. But nonetheless, I respected 
it, because he had such a heavy presence at the time, not in 
California, but in other states, in coal.
    And I think he's going to carry that same style of 
leadership to the Commerce Department. Simply put, he 
understands what businesses need to succeed, and I think will 
bring that approach to the department, if confirmed.
    In addition, he has served as a director, chairman, or 
adviser for a wide array of companies, schools, and nonprofits, 
including many institutions with deep roots in California, such 
as a director of the Walt Disney Company, BrightSource Energy, 
Boeing, and assets manager KKR, the California Business 
Roundtable, the Public Policy Institute of California, and 
USC's Keck School of Medicine. It includes the Council for 
Foreign Relations, Stanford University, California Institute of 
Technology, and the California Endowment.
    I'm also proud to note that he and I share the same alma 
mater, Stanford, were John earned his undergraduate degree. 
Later he attended Yale Law School before returning to 
California.
    John's experience paints a picture of a leader who focuses 
on the practical and the achievable. And I think this is really 
his great selling point.
    So I believe, if confirmed, he will support measures that 
really meet these criteria. At this time in our troubled 
economic history, our number one priority as a government must 
be to grow this economy. It must be to get people back to work.
    In my view, John's combination of pragmatism, experience in 
the boardroom, and understanding of the public sector will make 
him an outstanding Secretary of Commerce. I expect he will be a 
powerful voice inside the Administration and a partner with the 
business community to grow our economy and open international 
markets for American manufacturers. I count on him to do just 
that.
    I'm delighted that he is here today with his wife, Louise, 
who sits directly behind me.
    And I very much thank you for the courtesy, Senator 
Rockefeller, and also for that of your committee. Thank you 
very much.
    The Chairman. Thank you, Senator Feinstein, for what was a 
very eloquent introduction.
    I call now on Senator Boxer, so that she can make her 
remarks.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you so very much.
    I want to thank Senator Feinstein. I know she needs to 
leave, and we wish her well in all of her hard work. I often 
say at home, I'm chairman of a committee, and Senator Feinstein 
is, but the difference is, I can talk about my work and she 
really can't say that much about hers, because the Intelligence 
Committee is kind of secretive, so we wish you well.
    Senator Feinstein. Thank you.
    Senator Boxer. I want to say how pleased I am to add my 
voice of welcome to the Brysons, both of them.
    And, Louise, why don't you raise your hand, so everyone 
sees who you are. We're just thrilled you're here, and they 
have four daughters.
    And I want to say to my colleagues on both sides of the 
aisle, I think that our country is really better served when 
the people pay attention to the work we do. I hope they pay 
attention to this nomination and the way this particular 
nominee is treated. I could speak personally that Senator 
Lautenberg is right when he says, thank you, John, for 
accepting this challenge. And I hope you'll be treated with 
respect. I hope you'll get a swift confirmation.
    And I'll tell you why. You bring a wealth of experience in 
both the private sector and the public sector to this very 
important job. You get it. You understand what it means to meet 
a payroll. You understand what it means to create jobs. You 
understand what it means when people are hurting. And people 
are hurting, and we all know that. And again, we're so 
fortunate to have you here.
    What I'm going to do is, Mr. Chairman, in the interest of 
time, is to ask you to put my statement in the record.
    And I would like to conclude with a quote from the Los 
Angeles Times, June 21, a wonderful editorial, and I'll close 
with that within my time. The headline says, ``Commerce 
Department nominee deserves the job,'' and the subhead is, 
``Within a rational political universe, John Bryson's 
credentials would bring him confirmation by acclamation.''
    And here's what they say, in part, ``A long-time chairman 
and chief executive of Southern California Edison and Edison 
International, he is a pillar of the region's business 
community, admired by the Chamber of Commerce and his fellow 
executives. He also was a founder of the Natural Resources 
Defense Council, where his work earned him respect and 
appreciation from California's environmental movement. He's 
been president of the California Public Utilities Commission 
and he even served as a director of Boeing, dipping his toe 
into the nation's military-industrial complex. He is thus the 
rare nominee.''
    And that's why I say--my editorial--I hope everybody 
follows this in politics, whether you're a Republican, a 
Democrat, or an independent, because John is the rare nominee 
to present himself to Congress with endorsements from the 
Chamber, military suppliers, and the nation's leading 
environmental organizations.
    If ever there was a time for someone who can bring us all 
together, this is that moment in history.
    Tom Donohue of the Chamber said, Mr. Bryson's ``extensive 
knowledge of the private sector and years of experience 
successfully running a major company'' makes him qualified. The 
Business Roundtable, Senator Lautenberg read a quote, let me 
read another one. The Business Roundtable called Mr. Bryson, 
quote, ``A proven, well-respected executive who will bring his 
private sector experience to the Commerce Department's broad 
portfolio that includes technology, trade, intellectual 
property, and exports, which will be crucial to expanding the 
economy and creating jobs.''
    I noted in your opening statement, John, that you talked 
about your work with colleagues in founding the NRDC, and it 
was before Richard Nixon signed the Clean Air Act and the Clean 
Water Act and the rivers were on fire at that time. And I want 
to thank you for that, because I find myself quoting Richard 
Nixon quite a lot on the floor of the U.S. Senate these days, 
as there are moves to repeal this or that part of our landmark 
laws.
    So, in sum, this is a man who really should be a unifying 
force. And I'm just thrilled with the nomination, and I thank 
you for the honor of being able to speak today.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Thank you, Chairman Rockefeller and Ranking Member Hutchison.
    I am pleased to introduce John Bryson of California, President 
Obama's nominee to be Secretary of Commerce.
    Mr. Bryson brings a wealth of experience in both the private sector 
and the public sector to the very important job of Commerce Secretary.
    In the 1970s and 1980s he served as the Chairman of the California 
Water Resources Board and as the Chairman of California Public 
Utilities Commission. There he helped California navigate droughts, oil 
shortages, and other crises during a critical period in our state's 
history.
    And for more than 20 years Mr. Bryson has utilized his talents in 
the private sector, first as Chairman and CEO of Southern California 
Edison, and later as Chairman and CEO of Edison International.
    Mr. Bryson has also served on the boards of many companies, both 
large and small, and will bring to the job of Commerce Secretary a 
unique expertise on what it takes for businesses to grow and expand.
    As Mr. Bryson has said and will say again today, his top priority 
is job creation.
    As Commerce Secretary he'll be working closely with the President 
to meet the goal of doubling the Nation's exports by 2015 and creating 
hundreds of thousands of new jobs here in the United States.
    He'll be working with the private sector to drive innovation and 
economic growth. And he'll be working to make the United States a 
leader in the clean energy economy.
    At Edison International, Mr. Bryson helped California become a hub 
for clean energy development and clean energy jobs by making 
investments in solar and wind technology.
    He understands new clean energy technologies will create millions 
of jobs here at home and that the Nation that rises to this challenge 
will lead the world.
    These varied experiences will serve Mr. Bryson well as he takes on 
a role in the Administration that will require him to work with 
President Obama and the private sector to invigorate our economy and 
create jobs.
    Mr. Bryson's nomination has been applauded by all sides of the 
political spectrum, from environmentalists to business interests.
    Tom Donohue of the Chamber of Commerce praised Mr. Bryson's 
``extensive knowledge of the private sector and years of experience 
successfully running a major company.''
    The Business Roundtable called Mr. Bryson a ``a proven, well-
respected executive who will bring his private sector experience to the 
Commerce Department's broad portfolio that includes technology, trade, 
intellectual property and exports, which will be crucial to expanding 
the economy and creating jobs.''
    The Natural Resources Defense Council, which Mr. Bryson helped 
found in the 1970s, called him ``a visionary leader in promoting a 
clean environment and a strong economy. He has compiled an exemplary 
record in public service and in business that underscores the strong 
linkage between economic and environmental progress.''
    I would also like to ask unanimous consent to place into the record 
an editorial from today's Los Angeles Times titled ``Commerce 
Department nominee deserves the job.''
    Mr. Bryson's unique background will serve him well as he works with 
President Obama to create jobs.
    I applaud the President for choosing such a well-qualified, 
experienced individual to be Commerce Secretary and I look forward to 
his confirmation.
                                 ______
                                 

              Editorial--Los Angeles Times, June 21, 2011

            ``Commerce Department nominee deserves the job''

 Within a rational political universe, John Bryson's credentials would 
                 bring him confirmation by acclamation.

    John Bryson's nomination to be President Obama's next secretary of 
Commerce has been met with the predictable combination of delusion and 
obstructionism that characterizes the modern confirmation process. Some 
Senate Republicans vow to hold him hostage to the passage of several 
long-sought free-trade agreements; others insist they will reject him 
based on his presumed politics, which they wish were more like theirs. 
None has advanced an argument worthy of defeating this nomination, and 
though sensible people will withhold a final judgment until after 
Bryson is questioned, his credentials are encouraging, as are the 
endorsements of those who know him.
    Bryson is a familiar figure in Los Angeles. A longtime chairman and 
chief executive of Southern California Edison and Edison International, 
he is a pillar of the region's business community, admired by the 
Chamber of Commerce and his fellow executives. He also was a founder of 
the Natural Resources Defense Council, where his work earned him 
respect and appreciation from California's environmental movement. He's 
been president of the California Public Utilities Commission and even 
served as a director of Boeing, dipping his toe into the Nation's 
military-industrial complex. He is thus the rare nominee to present 
himself to Congress with endorsements from the Chamber, military 
suppliers and the Nation's leading environmental organizations.
    Within a rational political universe, that would entitle Bryson to 
confirmation by acclamation. But zealots are suspicious. His critics 
question his support for regulation to address climate change and see 
his NRDC leadership (more than three decades ago) as evidence that he's 
a ``job killer'' and an ``environmental extremist'' rather than a job 
promoter as the Commerce secretary traditionally is. Never mind that 
Bryson's record is one of both serious business development and 
responsible environmental stewardship.
    Then there's the issue of the free-trade agreements. Yes, Obama has 
moved too slowly to forward the South Korea, Colombia and Panama trade 
pacts that will create jobs and expand the reach of American business. 
And yes, Obama's labor allies are principally to blame for obstructing 
those pacts. But those objections are irrelevant to Bryson's nomination 
and shouldn't be used as an excuse to hold it up.
    Many Republicans undoubtedly would prefer a nominee who championed 
drilling as the answer to America's energy needs or who countenanced 
their anti-scientific challenge to global warming. They have their 
chance: Elect Sarah Palin. In the meantime, Obama deserves a Cabinet 
secretary of impeccable credentials and broad support. Bryson has a 
chance to prove that he's all of that at the hearings that begin 
Tuesday. Republicans owe him the opportunity.

    The Chairman. Thank you, Senator Boxer, very much for your 
excellent words, and your statement is entered into the record.
    Senator Boxer. Thank you.
    The Chairman. We now return to the regular order and 
Senator Kerry.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thank you very much, Mr. Chairman. Mr. 
Chairman, I ask unanimous consent that a full opening text be 
placed in the record as if read in full.
    The Chairman. It'll happen.
    Senator Kerry. And I ask that a letter to you, Mr. 
Chairman, from Congressman Tierney and Congressman Frank, 
regarding Massachusetts fisheries, be made part of the record.
    The Chairman. That will also happen.
    [The information referred to follows:]

                              Congress of the United States
                                      Washington, DC, June 16, 2011
Senator John D. Rockefeller IV,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller:

    As you may know, we have the privilege of representing coastal 
communities in Massachusetts, including Gloucester and New Bedford, 
among other cities and towns, which fishermen call home. Ensuring that 
our fishermen can continue to sustain their livelihood and provide for 
their families has been and continues to be a top priority of ours in 
Congress.
    Unfortunately, the fishing community continues to endure numerous 
challenges and economic hardships. For years, we, along with many of 
our colleagues, have attempted to work with the Department of Commerce 
in support of our fishermen, but our efforts have been met with 
repeated opposition and resistance.
    We are aware that, as part of the Senate's confirmation process, 
Mr. John Bryson, the President's nominee to be the Secretary of 
Commerce, will soon appear before the Committee on Commerce, Science, 
and Transportation (``the Committee''). At Mr. Bryson's hearing, we 
believe he must commit to bringing a fresh perspective and renewed 
sense of fairness to issues impacting the fishing community.
    Specifically, there are several important areas warranting Mr. 
Bryson's on-the-record opinion that we wanted to respectfully bring to 
your attention:
Authority to Raise Catch Limits
    On October 14, 2010, Commerce Secretary Locke sent a letter in 
which he wrote that he was ``prepared to issue an emergency regulation 
to revise catch limits whenever there is both sufficient economic and 
sound scientific data to support such an emergency regulation.'' \1\
---------------------------------------------------------------------------
    \1\ Letter from U.S. Department of Commerce to Representative John 
Tierney. October 14, 2010.
---------------------------------------------------------------------------
    Subsequently, Massachusetts Governor Deval Patrick and the 
Massachusetts Division of Marine Fisheries, in coordination with the 
Massachusetts School of Marine Science and Technology through the 
Massachusetts Marine Fisheries Institute, issued ``A Report on Economic 
and Scientific Conditions in the Massachusetts Multispecies 
Groundfishery'' on November 5, 2010.\2\
---------------------------------------------------------------------------
    \2\ Massachusetts Marine Fisheries Institute: A Report on Economic 
and Scientific Conditions in the Massachusetts Multispecies 
Groundfishery. November 5, 2010.
---------------------------------------------------------------------------
    This report seemed to make clear that an economic emergency existed 
and required immediate action. The report demonstrated that there was 
scientific justification to ``raise catch limits by at least 30 percent 
for most species, and significantly more for some, while still 
remaining within conservation bounds.'' Further, the analysis found 
``approximately $19 million of foregone economic opportunities in 
Massachusetts due to catch limits that were set at the lowest end of 
allowable ranges.''
    We joined with some of our Massachusetts colleagues in the U.S. 
House of Representatives and the U.S. Senate in supporting Governor 
Patrick's request that the Secretary use his authority to act swiftly 
to issue emergency regulations revising catch limits to higher levels 
that remain consistent with conservation requirements.\3\
---------------------------------------------------------------------------
    \3\ Letter to Secretary of Commerce from Senators Kerry and Brown 
and Representative Frank, Tierney and Delahunt. November 18, 2010.
---------------------------------------------------------------------------
     On January 7, 2011, the Secretary responded with a denial of this 
emergency request. We continue to be disappointed in this decision and 
believe the Secretary was provided sufficient scientific and economic 
data to support an increase in catch limits.
    It is imperative for Mr. Bryson to clearly articulate the 
circumstances under which he would issue emergency regulations. 
Additionally, Mr. Bryson should state his interpretation of Magnuson-
Stevens Fisheries and Conservation Management Act as it relates to how 
much economic data should factor into the implementation of the catch 
share program.
Economic Assessments
    The above-mentioned report also provided data which showed the 
consolidation of the small boat fishing fleets. According to the data 
available at the time of the report, of the 385 Massachusetts 
groundfish boats that had joined sectors, 56 percent had not yet been 
active in the fishery in 2010. This compares to 46 percent inactive at 
the same time the previous year. Additionally, the report states, ``a 
comparison of 2010 Annual Catch Entitlements (ACE) to actual landings 
in recent years shows as much as two thirds of fishing permits were 
allocated 50 percent-60 percent less than their 2007-2009 average 
annual harvest. This reduction in allocation represents lost revenue of 
$21 million for this portion of permit holders.'' \4\
---------------------------------------------------------------------------
    \4\ Massachusetts Marine Fisheries Institute: A Report on Economic 
and Scientific Conditions in the Massachusetts Multispecies 
Groundfishery. November 5, 2010.
---------------------------------------------------------------------------
    A Congressional request was made as a result of the data in the 
report, and the subsequent decision by the Secretary in January not to 
raise catch limits, for an Economic Development Assessment Team 
(heretofore referred to as ``the Team'') to be sent to areas up and 
down the coast to assess and evaluate all options to provide economic 
assistance to the fishing communities negatively impacted by the 
implementation of Amendment 16.\5\
---------------------------------------------------------------------------
    \5\ Letter from Representatives Tierney, Markey, Frank and Keating 
to Secretary Gary Locke. March 17, 2011.
---------------------------------------------------------------------------
    As a result, the Secretary deployed the Team to Gloucester on May 
2-4, 2011 and New Bedford on May 4-6, 2011. To date, there has not been 
any recommendation or analysis completed on the information and data 
collected at these meetings.
    Given the importance of addressing the economic impact of the catch 
share system, it is critical for Mr. Bryson to commit to completing an 
analysis, with directive action, of the Team's findings and agree to 
making such information available to Congress and the public.
    Along these lines, Mr. Bryson should affirm that he will continue 
to provide financial assistance to negatively affected fishing 
communities. Specifically, we believe Mr. Bryson should outline 
specific action he plans to initiate to provide fishermen relief from 
the burden of onerous regulation, similar to that which Secretary Locke 
provided in the two-year delay of the requirement for the fishing 
industry to cover the costs of dockside monitoring.
Asset Forfeiture Fund
    As you may be aware, the Department of Commerce Inspector General 
(IG) has issued several reports in the past 18 months that have 
highlighted common abuses and misuses of power, as well as rampant 
mismanagement throughout the agency, specifically in the Office of Law 
Enforcement (OLE) in the Northeast region. Specifically, the IG found 
``weak internal controls'' over NOAA's Asset Forfeiture Fund (AFF).
    Due to the lack of information available to the 1G during the 
initial investigation, the agency conducted a follow-up report 
specifically on the AFF, issued on July 1, 2010 entitled, ``Review of 
NOAA Fisheries Enforcement Asset Forfeiture Fund.'' The findings showed 
that ``NOAA has administered the AFF in a manner that is neither 
transparent nor conducive to accountability, thus rendering it 
susceptible to both error and abuse.'' \6\
---------------------------------------------------------------------------
    \6\ Memorandum from U.S. Department of Commerce Office of Inspector 
General to Dr. Jane Lubchenco: Review of NOAA Fisheries Enforcement 
Asset Forfeiture Fund. July 1, 2010.
---------------------------------------------------------------------------
    While NOAA has taken some corrective action to address the findings 
of the report as it relates to the AFF, one important thing remains 
unclear: how NOAA has used the funds since the report was released. In 
August of 2010, NOAA confirmed a balance of 58.4 million in the AFF in 
March of 2011, NOAA initiated an audit to be completed this month.
    NOAA has stated that ``ensuring that the monies in the AFF are 
properly accounted and used is essential to carrying out our duties as 
responsible managers of Federal dollars.'' \7\
---------------------------------------------------------------------------
    \7\ Memorandum from Dr. Jane Lubchenco: Corrective Actions to 
Restore the Financial Integrity of the National Marine Fisheries 
Service (NMFS) Enforcement Asset Forfeiture Fund.
    July 8, 2010.
---------------------------------------------------------------------------
    Mr. Bryson should commit to continuing to audit the AFF to ensure 
the monies collected through fines issued by OLE officials are used 
appropriately and inform Congress and the public on the results of the 
audit.
    Further, under current NOAA policy, there is authority to use 
monies from the AFF for the following purposes, among others: rewards 
of not less than 20 percent of the penalty collected or $20,000, 
whichever is the lesser amount, for information related to enforcement 
actions; expenditures directly related to specific investigations and 
enforcement proceedings; and reimbursement to other Federal or State 
agencies for enforcement related services provided pursuant to an 
agreement entered into with NOAA.\8\
---------------------------------------------------------------------------
    \8\ National Oceanic and Atmospheric Administration Policy on 
Prohibited and Approved Uses of the Asset Forfeiture Fund. March 16, 
2011.
---------------------------------------------------------------------------
    Mr. Bryson should indicate if he agrees or disagrees that allowing 
the use of AFF monies for this purpose could be a conflict of interest 
between OLE officials and the fishing industry that the OLE regulates. 
Mr. Bryson should make clear whether he believes the current NOAA AFF 
policy appropriately addresses the errors and abuses cited in the 
aforementioned July IG report.
    Finally, for the first time, NOAA included the AFF in its annual 
budget submission for Fiscal Year 2012. Presumably, this will be a 
practice that will continue in the years ahead. However, Mr. Bryson 
should confirm that this kind of disclosure related to the AFF will be 
included in future budgets.
Improving Relationships with Fishermen
    As the initial IG report made clear, there is a ``highly-charged 
regulatory climate and dysfunctional relationship between NOAA and the 
fishing industry--particularly in the Northeast Region.'' \9\
---------------------------------------------------------------------------
    \9\ U.S. Department of Commerce Office of Inspector General: 
National Oceanic and Atmospheric Administration Review of NOAA A 
Fisheries Enforcement Programs and Operations. Final Report No. DIG 
19887. January 2010.
---------------------------------------------------------------------------
    One of the IG's recommendations included in this report was for 
NOAA to consider ``reestablishing the position of ombudsman to serve as 
an interface with the regulated industry; such a position was created 
in May 1999, but has remained vacant for several years and it is 
unclear within NOAA whether the position still exists.''
    NOAA has not yet reestablished this position. The agency did, 
however, establish an e-hotline for enforcement related complaints in 
September 2010 and named former commercial fisherman, Don Frei, to the 
newly created position of Compliance Assistance Liaison to continue 
outreach to the industry in the Northeast in April 2011.
    Mr. Bryson should indicate if he agrees or disagrees with the IG 
that NOAA needs an ombudsman to ensure that NOAA leadership regularly 
addresses and provides input to enforcement priorities and strategies 
with regional management, including formal reporting protocols. 
Similarly, Mr. Bryson should make clear his intentions on whether the 
e-hotline and Compliance Assistance Liaison position will continue. Mr. 
Bryson should be willing to commit to increasing personnel dedicated to 
directly addressing fishermen's concerns, if that is deemed necessary.
Conclusion
    If he is confirmed, Mr. Bryson will be the Secretary of Commerce at 
a critically important time for the fishing industry. As we trust the 
foregoing evidences, there is sufficient interest in these issues and a 
commitment to ensuring fishermen and their families are treated with 
fairness. Congress must expect the same of the Secretary of Commerce.
    We appreciate the challenges with appropriately scrutinizing 
Presidential nominations, and we hope you will consider the above-
mentioned items as a respectful contribution to the Committee's 
constitutional process.
    Thank you for your attention and please do not hesitate to contact 
us should you wish to discuss the aforementioned issues further.
            Sincerely,
                                           John F. Tierney,
                                                Member of Congress.
                                              Barney Frank,
                                                Member of Congress.

    Senator Kerry. Thank you, Mr. Chairman.
    Mr. Chairman, let me follow quickly on the words that were 
really well-articulated by Senator Feinstein and Senator Boxer. 
And I say this partly to my colleagues on the other side of the 
aisle. I hope they will really take note of the extraordinary 
qualifications that this nominee brings to the table. One 
colleague mentioned the fact that he had been the CEO of a 
major regulated company. I would respectfully submit that I 
think my colleagues are going to find that this is a bold and 
creative capitalist who has served on more boards of 
directorships of major companies of diverse nature then all of 
the members of this committee put together. And I think that he 
brings a rare level of business expertise at a time when we 
obviously all know we have to create jobs and we have to change 
the dynamic in this country.
    I think my colleagues are going to find that both nominees 
have a strong sense of how to do that. And the Commerce 
Department is going to be a critical player with respect to 
transportation, infrastructure, research, and the information 
economy, a lot of the technology issues that we need to deal 
with. I think we've got a terrific spokesperson who is coming 
to us at a point in life where this is the last thing this 
person needs to do but is doing it because the President has 
asked him to and because he understands the challenge and he 
appreciates the challenge.
    I think we're fortunate to get somebody to be willing to go 
through this unbelievably convoluted and demanding ethics 
process that requires you to sell stock no matter what level it 
may be of loss, and to put yourself through an incredible sort 
of hiatus, simply to serve.
    And I think my colleagues are going to find that nominee 
Bryson comes to the table as a bold advocate of America's 
interests and of the free-market system. And I look forward to 
his proving that to you in the course of this testimony.
    I just would say quickly that every Secretary, and I 
mentioned this to him when he came to visit with me, has always 
been surprised to find that they have a navy and they have 
interests on the ocean as significant as the Commerce 
Department has.
    And I just want to say to the Secretary, this is a tricky 
time in the regulation of our fishing industry and an 
opportunity for the Department of Commerce, NOAA, and our 
fishing communities to come together again. And I think that's 
going to be a real challenge of leadership for a new Secretary.
    Federal regulations have forced a lot of the fishermen out 
of the business, pushed many more to the brink. And many of our 
Massachusetts fishermen are doing all they can just to keep a 
roof over their head and feed their families, and they're very 
frustrated that the Department of Commerce has made a series of 
decisions that seem--I'm saying ``seem''--to make it more 
difficult.
    So I look forward to working with the Secretary-Designate, 
and I hope he will be rapidly put in place. The country needs a 
Commerce Secretary as rapidly as possible to address these many 
concerns about our economy, including relations with China, 
intellectual property, trade, and other issues.
    And so, Mr. Chairman, I am strongly, obviously, supportive 
of this nomination. I hope my colleagues will discover what a 
lot of us feel very strongly about.
    [The prepared statement of Senator Kerry follows:]

               Prepared Statement of Hon. John F. Kerry, 
                    U.S. Senator from Massachusetts
    Secretary Designate Bryson, thank you for your testimony and for 
your willingness to serve our Nation. If you are confirmed as the next 
Secretary, you will be taking the helm of the Department at a critical 
and difficult moment--where the decisions we make--or fail to make--on 
new energy sources, on infrastructure, technology, and research, will 
play an enormous role in our leadership role in the global economy.
    You would serve as Secretary at a particularly vital time for the 
Information Economy. As you know, today, there is no privacy law for 
general commerce. Data collectors alone are setting the rules.
    But due to the good work of your predecessor, the Department of 
Commerce is in the process of becoming a leading voice in the 
Administration and the Nation on privacy issues. To date, the agency 
has taken a balanced and thoughtful approach to the challenge. In its 
December report is sought to meet both the need for baseline standards 
of protection for individuals as well as flexibility for firms in ways 
to meet those baseline standards and I hope you will continue to make 
this a priority.
    We have tried to complement that work here in the Senate. In S. 
799, the Commercial Privacy Bill of Rights, Senator McCain and I, along 
with Senator Klobuchar propose rules based on fair information practice 
principles for all collectors of information. Those basic principles 
include the idea that regardless of the technology or method used to 
track Americans, they should know when they are being tracked, why, and 
how long that information will be used. They should also know with whom 
that information will be shared and be able to reject or accept those 
practices. And they need legal protections if that respect is not 
granted to them or if those terms are violated.
    The Commercial Privacy Bill of Rights would allow for flexibility 
for industry in complying with these principles by establishing 
voluntary safe harbor programs to allow companies to design their own 
privacy programs free from prescriptive regulation if their programs 
reach equal levels of protection.
    The Department of Commerce also plays an important role in our 
trade policy. And as you know, I am an outspoken supporter of ways to 
increase access to foreign markets for our exporters. I also appreciate 
the effort and time the Administration has taken to get our partners to 
modify their laws and regulations on labor and other issues to ensure 
that the pending trade agreements result in fair competition.
    But it is important that we put trade and increased competition 
into its proper context. These agreements will not in and of themselves 
lead to greater prosperity. They will just give us a better chance to 
compete. We still need to invest in the building blocks of 
competitiveness--the skills of our workers, the infrastructure of the 
country, and our ability to bring. retain, and reward the best 
brightest in the world.
    I am deeply concerned about rising inequality at home and in the 
world. And as we move forward with more open markets and competition, 
we have to recognize that the wealth created has to result in improved 
lives for everyone, not just those at the very top.
    I also want to highlight an issue at the Department which has never 
been more relevant or difficult for Massachusetts than these last 
years. It is a difficult situation which Secretary Locke inherited, and 
which you also would be inheriting if confirmed. Federal regulations to 
limit fishing have forced some fishermen out of business and pushed 
many more to the brink. Too many Massachusetts fishermen are doing all 
they can every day to keep a roof over their head and to feed their 
families. They are extremely frustrated about Federal decisions that 
seem to make it more difficult for them to take care of their families.
    I am extremely concerned about the rapid consolidation of the fleet 
under the new management system. I have worked with our fishermen to 
make the case that there must be more flexibility for our fishermen 
when implementing Federal fishing regulations.
    Charges by our fishermen of overzealous and intimidating tactics by 
the Department of Commerce personnel have been confirmed both by the 
Inspector General and by the Special Master. This has led to NOAA 
personnel being reassigned and 11 fishermen and businesses having their 
fines rescinded by Secretary Locke. There continues to be a justified 
distrust of the Federal Government by the fishermen--this relationship 
must be repaired and trust must be restored.
    In March, I met with Secretary Locke and Administrator Lubchenco to 
ask them to take action on a number of important issues facing our 
fishermen. As a result of my meeting with Secretary Locke and 
Administrator Lubchenco and prior efforts on the enforcement issue, the 
Department of Commerce and NOAA has taken the critical first steps to 
help resolve the outstanding issues facing our fishermen.
    First, the Department of Commerce opened up an additional appeal 
window to allow fishermen and businesses who wish to come forward to 
submit a complaint to the Special Master set up after the Inspector 
General investigation. Commerce Secretary Locke asked Economic 
Development Administration (EDA) to visited fishing communities in New 
England and is now working in partnership with other Federal agencies 
to identify new and existing resources to help support local 
communities and economic development in the region. NOAA made changes 
to ensure our fishermen will never again have to deal with intimidation 
from Federal regulators. NOAA made important personnel changes and 
instituted a new penalty policy that will ensure that New England 
fishermen are not subject to unfair fines that are higher than other 
regions. NOAA also conducted an audit of the Asset Forfeiture Fund and 
eliminated a significant portion of the Fund's historical uses, such as 
the purchase of vehicles and vessels and the payment of travel expenses 
not related to investigations.
    While this is a good start, there is still much more work to be 
done.
    I continue to believe we must provide additional flexibility within 
the catch levels for choke stocks. I recently sent a letter with the 
Massachusetts Congressional delegation asking to an increase in the 
percentage of unmet quota that can be rolled over into the next fishing 
season. This request remains outstanding and it is critical that this 
request is addressed as quickly as possible.
    We continue to await the full analysis of the economic and social 
data from the first fishing year 2011. I spoke with Administrator 
Lubchenco last week about the need to release this information as 
quickly as possible last. I want to work with you to ensure we have the 
necessary targeted, sector-level economic and social data so we can 
fully understand the changes happening in our fishery and make 
appropriate adjustments to the regulations to reduce the damage they 
have caused our fishermen and, at the same time, continue to build a 
sustainable fishery in the future.
    Finally, over the past generation, we have been unable to reach 
agreement between the fishing industry and NOAA scientists on the stock 
levels for Massachusetts fisheries. I would like us to begin an 
important dialog to see if we can find a process to have our fishermen 
and NOAA scientists work together to obtain an accurate assessment of 
our fish stocks that everyone can agree upon. I know this will not be 
easily done, but further cooperation and collaboration on the science 
will go a long way to help bridge this gap. I have continually pushed 
for additional funding for cooperative research and the need to better 
incorporate this data when setting catch limits. It is critical that we 
continue to fund these initiatives and find ways to increase fishermen 
participation in stock assessments.
    We need to work together not only to make sure our fishermen 
survive these difficult times--we need to make sure there are future 
generations of fishermen who will be a vital part of our economic 
future: We can only reach this goal by developing a sustainable fishery 
that will be healthy and profitable for generations to come.
    This is an opportunity to repair a relationship between the 
Department of Commerce, NOAA, and our fishing communities that has been 
very badly strained in these last years. The success of the fishery and 
its long and storied history can be ensured with your cooperation and 
flexibility.
    I would particularly like to hear your thoughts on how we might do 
that going forward.

    The Chairman. Thank you, Senator Kerry, very much for your 
statement. Clear and thoughtful.
    Senator Isakson?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Mr. Chairman.
    And I had the privilege of meeting with Mr. Bryson. We 
share a mutual friend, David Radcliffe, who told me yesterday 
at breakfast to tell you hello again, so I want to be sure and 
send that along.
    And I hear the admonition loud and clear, but I'm tempted 
to make one other admonition to all of us. It's a two-way 
street. These nominees deserve civility, a thorough 
examination, but expedited treatment. But American business 
deserves the same thing. And this gentleman was on the Board of 
Directors of the Boeing Company, which right now is in the 
middle of a major controversy brought about by the NLRB when 
it's about to open a plant that's going to hire 1,000 
Americans.
    So I think it's fair to ask civility on both sides of the 
issue of jobs, civility on the part of the regulators to not 
continually be on the backs of employers at a time we don't 
need it, and civility on our part to expedite the movement of 
America to more trade, more commerce, and more prosperity. So 
I'll agree to the first part, Senator, if you'll agree to the 
second part.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Isakson. It sounds like a 
fair deal.
    Senator Udall is not here.
    Senator Toomey?

             STATEMENT OF HON. PATRICK J. TOOMEY, 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Toomey. Thank you, Mr. Chairman. And thank you for 
conducting this hearing today.
    Mr. Bryson and Mr. Garcia, I want to thank you for your 
willingness to serve in these important posts. I, too, had a 
chance to meet with Mr. Bryson recently, and I enjoyed our 
conversation very much.
    Let me just suggest, Mr. Chairman, that central to the 
mission of the Commerce Department, it seems to me, is the 
vitally important job of encouraging economic growth and job 
creation. In my view, there are a number of ways that a 
Commerce Secretary can help advance that cause. Two of them, 
which I'd like to touch on briefly, are first to be a champion 
of the free enterprise system and to recognize that for it to 
really flourish and thrive, and create the kind of jobs that 
our economy is capable of creating, that system needs to be 
sensibly but lightly regulated in a fashion in which the costs 
of the regulations don't outweigh the benefits of those 
regulations.
    And the second thing that I would certainly hope to see in 
a Commerce Secretary would be a champion of trade. I think the 
United States could and should be the world's leading voice for 
expanding trade opportunities, expanding the opportunities for 
terrific American companies in the service and manufacturing 
sectors to export our products all around the world.
    So those are two opportunities that, it seems to me, fall 
squarely in the lap of the Secretary of Commerce. I will say, I 
think this Administration and this Congress in recent years has 
not done very well on either front. I think we have had 
excessive regulations, too many, too onerous. And I look 
forward to hearing the nominee's thoughts on some of those 
regulations.
    And I think that we've seen a reluctance to pursue a pro-
trade agenda, one that would help encourage economic growth and 
job creation. And so I look forward to hearing the nominee's 
thoughts on how we can re-engage, re-accelerate the process of 
America leading in a global expansion of trade.
    So again, I want to thank you for holding this hearing, Mr. 
Chairman. And I thank the candidates for their willingness to 
serve, and I look forward to their comments.
    The Chairman. Thank you, Senator Toomey.
    Senator Blunt?

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you. Thank you, Mr. Chairman.
    And I'd like to echo Senator Toomey's comments about trade 
and look forward to hearing Mr. Bryson's observations about 
what we do to trade. I had a chance to see the U.S. Trade 
Representative, Ron Kirk the other night, and I'm hopeful, as 
he is, that we'll see the current trade agreements come to the 
Congress, and we'll see an active effort to be sure that we 
open trade opportunities to Americans.
    Mr. Bryson, Mr. Chairman, as we all know, has a long 
history in the energy sector. He ran an energy company. He 
chaired the California Public Service Commission.
    And certainly, more American energy is the fastest path to 
more American jobs. There's no question that the energy sector 
can be--knowledge of that sector can be a huge plus in a job 
that needs to focus on private sector job creation.
    In 2009, Mr. Bryson gave a speech to the United Nations, 
where he said that the way California uses energy is, the word 
he used was a model, for the rest of the nation to follow. I am 
concerned about that.
    California's electricity rates rose 35 percent between 1970 
and 2005. By comparison, the rest of the nation's utility rates 
increased by 4 percent during that same period of time. And in 
just the first 4 months of this year, California experienced 
the fastest rate of companies relocating outside the state. In 
fact, there were 69 different companies that moved out of 
California. One of the reasons, I think, were bad energy 
policies.
    I want to bring this up in the context that of the thing 
that I think can be the most important in creating jobs, and, 
certainly, Mr. Bryson knows a lot about. I think he has seen a 
model that I wouldn't want to see as the model for the country.
    I just really don't see why things that create massive 
increases in energy prices do anything to help grow jobs in our 
country. If there is one surefire way to create jobs in the 
country, and, again, something that the Department of Commerce 
should be helping to do every day, it's more American energy, 
meaning more American jobs.
    This is the job in our government that needs to be the most 
focused on how we create private sector jobs and how we create 
an atmosphere where the private sector is willing to take the 
risk that is necessary to create opportunity for others. And if 
there's not a cheerleader for that in the Department of 
Commerce, in the Secretary's role, there's probably not a 
cheerleader for that very much needed focus in the Federal 
Government.
    And I look forward to a chance to listen to the testimony 
and ask some questions, Mr. Chairman.
    The Chairman. Thank you, Senator Blunt.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    It was good to meet with you, Mr. Bryson, and I'm impressed 
by your background. What we talked about in my office, I would 
emphasize again.
    I think that we're going to lose a real opportunity in this 
country if we don't pursue a competitive agenda for America. I 
think the Commerce Secretary is in a unique position to do 
that. Some of it is under your agency, but some of it simply 
should come with the need to have someone that brings agencies 
together and focuses on moving our country forward 
competitively.
    And the things we talked about, workforce readiness so that 
we have people actually getting degrees and getting trained in 
jobs where we need them. Obviously, that's working with the 
Department of Education, but when they can't find a welder in 
southern Minnesota to work at agriculture equipment places that 
are trying to find highly paid employees, we've got a problem.
    Small and medium-sized businesses with exports, helping 
them to have the kind of resources that they need, which can be 
very small investment for the big gain they get.
    Working with the State Department so that our large 
businesses are better able to get contracts and get assistance 
from our agencies and other countries, in order to follow 
through on the President's pledge to double exports.
    The rules and regulations, which some of my colleagues have 
referenced--we no longer are competing in a vacuum in this 
country. Our businesses are competing against companies in 
other countries that have different rules and regulations. And 
I think the Commerce Secretary can be a force to push for 
changes in that area.
    And then one specific area that the Commerce Department has 
direct jurisdiction over, where I think it's not just the low-
hanging fruit but the fruit rolling around on the ground, and 
that is tourism. We talked about the fact that we have lost 16 
percent of the international tourism business in this country. 
It's not about the economy, as the leading Republican on our 
committee, Senator Blunt, knows. This is about the delays we 
are seeing in our embassies across the world, India, China. 
India takes 93 days average to get a visa from Shanghai to come 
to America, and it takes only 10 days to go to Great Britain. 
That is a big problem. Every one of these foreign tourists 
spends an average of $5,000 when they come to this country.
    And we have been pushing this. Every point we've lost is 
165,000 jobs. So if we want to meet the President's goal and do 
something about jobs in this country, I'd start right on day 
one saying let's work to change this visa policy, not to change 
the security, just to get the consulate officers out there that 
generate $1 million in fees a person. I don't think their 
salaries are that high.
    So those are things that we can do that make fiscal sense 
for this country. And a lot of this isn't about passing bills. 
It's just about trying as hard as we can to make this country 
competitive with what we have.
    So I want to thank you. I know you've achieved a lot in 
your past jobs. And I know it's a lot that I've laid out here, 
but I truly believe that's where we need to go as a country 
with the Commerce Secretary. Thank you.
    The Chairman. Thank you, Senator.
    Senator Heller is not here.
    Senator Snowe?
    Senator Snowe. Senator DeMint, did you----
    The Chairman. Look, I don't want to make a big deal about 
this, but I have Senator Snowe and then Senator DeMint. Can you 
two make peace or do you want to yield each other?
    Senator Snowe. No, I wanted him to go.
    The Chairman. Oh, you want him to go.
    Senator DeMint?

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Senator. Thank you, Mr. 
Chairman. I'll try to be brief.
    Thank you, Mr. Bryson, for coming by my office. I 
appreciate your willingness to serve, and I really have no 
question about your credentials. My question is about the 
environment you'll be working in, and whether or not you'll 
have the courage to speak up against some of the most anti- 
business policies I think we've ever seen in our country. And 
this is not political rhetoric.
    As Senator Isakson already mentioned, the National Labor 
Relations Board, the Acting General Counsel, who has been 
appointed by Obama to be the General Counsel, has accused you 
as well as Bill Daley, Chief of Staff for the President, of 
breaking the law. Somehow, we have to resolve this duplicity.
    They're forcing a major American company to spend millions 
of dollars and put thousands of jobs on hold for what is an 
unprecedented violation of a company's ability to locate an 
expansion facility anywhere they want. The President is not 
speaking up. My question is, will you?
    I was on a $600 million oil drilling rig in the Gulf. It's 
brand new. It's been sitting there 6 months. Thousands of jobs 
are on hold. It costs $600,000 a day to have it wait. But it's 
just because they can't get a permit. And that may not be under 
Commerce, but we need a commerce advocate in our country.
    As Senator Toomey has said, there's a lot of rhetoric about 
free trade, but when the agreements are supposed to be sent 
over, they're not sent over, and one excuse after another.
    Thousands of jobs, probably billions of dollars of 
investment, are being sidetracked in the telecommunications 
business, because the FCC is violating Congressional direction 
and court orders to move ahead and regulate the Internet in a 
way that makes investors hesitant.
    With the EPA, it's just amazing, hearing from the companies 
that come through my office, whether they're in manufacturing 
or utilities or mining, the absurd regulations and gray areas 
that are being created.
    Of course, banks are afraid to make loans, because of the 
regulators hanging over their shoulders.
    I can keep going all day. I would not be Commerce Secretary 
in an Administration that has taken all these positions. I 
appreciate you being willing to do it. But we've got a lot of 
challenges.
    And you said that the American people expect us to do more 
with less. The Commerce Department has been doing less with 
more. They've increased their budget. Last year, they increased 
it over the year before, this year over last year.
    So you've got a lot of challenges, and we need good 
commerce in America. One thing the Constitution says is that 
the Federal Government should facilitate interstate commerce. 
The last thing we're doing right now at the Federal level is 
encouraging commerce.
    So, I appreciate your willingness to serve and be here 
today. You've got great credentials. I'm not sure about the 
people you'll be working with.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator DeMint.
    Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Obviously, these are two important positions, and I, too, 
had the opportunity and the pleasure yesterday to meet with the 
nominee, Mr. Bryson, as Secretary of Commerce. And of course, I 
know Mr. Garcia from his days as Assistant Secretary of 
Commerce for Oceans and Atmosphere, as well as deputy 
administrator to NOAA.
    There's no doubt Mr. Bryson has a very extensive background 
in the corporate arena, as CEO of Edison International. And I 
do believe that he has an appreciation for the paramount value 
of job creation in the private sector, and that it's absolutely 
a prerequisite to our economic well-being, and central to 
revitalizing the economic conditions of this country.
    I also want to echo what Senator Kerry said with respect to 
Mr. Garcia, because I think it's important for the fisheries 
industry to make sure that we're not imposing burdensome 
regulations on an industry that is struggling to survive. We 
have to design regulations that are important to the fishing 
communities and to the fishermen as well as to rebuilding the 
species. These are not mutually exclusive endeavors.
    Mr. Chairman, if I look at the mission of the Commerce 
Department, which of course is to create jobs, to have 
sustainable development, and to improve the standard of living 
for Americans, the problem at this point in time, is the 
mission of the Commerce Department is juxtaposed with the 
reality of our overall economy. The Commerce Department in the 
Secretary has to be a loud megaphone, has to be a dynamic 
thinker, has to be speaking for the people of this country and 
on behalf of the private sector on how we're going to 
rejuvenate the economic conditions of this country.
    We hear a lot of talk about job creation. We've been 
hearing it endlessly. And yet, we have no job creation. I mean, 
I think the statistics describing America's economy today are 
pretty grim and particularly for the 22 to 25 million people 
unemployed. It's one of the deepest and longest recessions 
we've had, certainly since World War II, the longest since 
1982, which was at that time the longest.
    But then we saw the job growth last month, a paltry 54,000 
jobs. And then we look at the condition of the housing market; 
there's a slump. We see the unemployed being unemployed for 
longer periods of time. The total number of employed is down to 
58 percent, the lowest level in 30 years. So we talk about 
jobs, but nothing is happening.
    And two and a half years ago, when I was considering your 
predecessor, talking about the issues of the Commerce 
Department, there are so many disparate organizations within 
that department. They need to be coordinated and centralized. I 
mentioned to you, Mr. Bryson, we need to have a maximum focus 
on job creation and job potential. And we have to do that. And 
that's not happening within the Commerce Department with the 
billions of dollars, with the thousands of employees, and we 
haven't been able to use that department to be singularly 
focused through the one prism of job creation, which we 
desperately need now.
    So I hope, Mr. Bryson, that you will give voice and bring 
your initiatives as a key member of the President's economic 
team at a time that I've never seen worse than this economy 
that were experiencing here today, and more than anything else, 
worse for the people in this country who are struggling and the 
businesses who are struggling to survive, because of the 
onerous and punitive regulations, which, frankly, I think many 
of the agencies have engaged in a regulatory rampage. That has 
to cease and desist as well.
    But the bottom line is, we need to have a Commerce 
Department being that singular weapon on behalf of the private 
sector to create the kind of jobs and to have the fair and 
level playing field in the trade arena as well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Snowe, very much.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Mr. Bryson, Mr. Garcia, do you still want 
this job after--[Laughter.]
    Senator Begich. Let me just say, I really didn't have 
opening comments, so I'll just be very brief and just say that, 
one, I'm looking forward to working with both of you, but 
especially from Alaska's perspective, as we're very proud of 
our fisheries. They're sustainable, they're growing, they're a 
huge export opportunity for this country through wise 
management and cooperation and work with the Commerce 
Department over the years. Even though we've had our friction 
at times with NOAA and the Commerce Department, we have created 
an incredible opportunity in a sense of fisheries, from our 
perspective in Alaska, which now manages 60 percent of the live 
catch of this country.
    And so we think we have examples and expertise that can be 
shared around the country on how to maximize the fishery 
opportunities that are not as great in certain parts of the 
country.
    Also, Alaska is a net exporter, $4.2 billion in commodities 
last year, up almost 30 percent. I think in a lot of ways--I'll 
brag--that we're doing it right. We understand commerce. We're 
international. In a lot of ways, we get forgotten over far 
north. People think we're down by California, and we have to 
remind them, no, we're not. But at the same time, we survive on 
our own, in a lot of ways, in the sense of our export 
opportunities. We trade with China, Japan, Asia, Europe; you 
name it, we do it.
    And a lot of the work you do and you will do as dealing 
with fisheries, tourism, export, international trade, that's a 
lot of Alaska. And so we're anxious to work with you.
    And, you know, I try not to be a doom-and-gloomer, to be 
very frank with you. Two years ago, this economy was a 
disaster--a disaster. And not overnight. It was a decade of 
neglect by many people throughout Congress and throughout this 
country. We're better today than we were 2 years ago, but it's 
still a fragile economy. I think that's the stress point that 
everyone has here, that jobs are the most important piece of 
the equation.
    So how you take it to the next level is going to be 
critical, because we have created jobs. They may not be as 
robust as we would like, but we're at the great recession, 
which is the equivalent, if we missed a couple notches in 2009, 
it would've been the Great Depression. But a couple things we 
did in this Congress helped save us and keep us on an even 
keel.
    But now we have to take it to the next level, and I think 
that's what we're looking for and looking toward you to do, as 
well as others of the President's economic Cabinet, because 
with your work, it's going to help to determine a long-term 
future.
    But I'm not a doom-and-gloomer. I just gave you statistics 
from a state that understands what it's like to not just work 
within our borders but globally and understands that there is 
business beyond our borders, and sometimes you have to just 
bite the bullet and get moving. So that's what we're looking 
for.
    And I think your business experience is going to be 
critical, and I think you have a bureaucratic system over 
there. You have to change part of the culture to understand 
that it isn't just ``no.'' It is, what do we do to make 
something better or move it forward. That's what I think you're 
going to be able to add.
    And, Mr. Garcia, same thing. The work you did on the oil 
spill commission, as you know, we've had some conversations. 
And I think the opportunity is enormous in Alaska. And NOAA 
plays a role in making sure that we move forward in oil and gas 
exploration in the Arctic and what can be done there in the 
most environmentally sound way, but recognize that it's a 
critical piece of our commerce in the future.
    So one, I hope after this hearing you still want to do the 
jobs. Two, get in there with a very positive attitude, because 
where we are today and where we were 2 years ago is day and 
night. But we have a lot of opportunity ahead of us, and you're 
going to be part of that equation. So thank you very much.
    The Chairman. Thank you, Senator Begich.
    We now come back to Senator Pryor. You escaped, but you 
returned.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman. Thank you for this 
hearing.
    And I want to thank you for your public service and your 
willingness to serve, and I look forward to hearing from the 
witness. Thank you.
    The Chairman. That was it. All right. And it's exactly as 
you fulsomely stated.
    We then turn to Senator Warner.

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. I'll try to you 
Senator Pryor's statement as an example.
    We didn't get a chance to visit before, Mr. Bryson. I 
appreciate you reaching out to me.
    I'm somewhere between Senator Snowe and Senator Begich, 
glass half-empty, half-full. But man, oh man, we do have a slew 
of challenges. And, you know, I agree with a lot of my 
Republican colleagues.
    We've got to push this trade agenda; 95 percent of all the 
customers are abroad. We've got to have that voice to get back 
the $2.5 trillion just sitting on balance sheets, to give them 
the confidence to get reinvested in our country.
    I personally believe the single biggest job creation 
entity, bigger than anything the Commerce Department or, 
candidly, anything we will do here, would be putting a long-
term debt and deficit plan in place. It would probably do more 
to get that money off the sidelines than anything else.
    And I want to thank you and Mr. Garcia both for being 
willing to serve. I've got to tell you, I've done a lot of work 
with the Chamber and the BRT. They don't give endorsements 
lightly. And for an Administration that has been criticized, 
not always appropriately, of not having enough people with 
senior business experience at the top level, my hope is that 
you will get this job and be that advocate for the private 
sector, be that advocate for the business community, recognize 
that we've got to read a balance sheet and get our nation's 
balance sheet back in order, and get this job engine that has 
improved kicked into high gear.
    So I look forward to supporting your nomination.
    The Chairman. Thank you, Senator Warner.
    And now Senator Boozman.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Mr. Chairman, I will follow in the 
footsteps of my senior Senator from Arkansas and go ahead and 
yield back my time, in the interests of getting the rest of the 
hearing going.
    I look forward to the testimony of the witnesses. Thank 
you.
    The Chairman. Extraordinary eloquence, Senator. We 
appreciate that.
    [Laughter.]
    The Chairman. Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman and Senator 
Hutchison, for holding today's hearing to consider these two 
nominations.
    It's been nearly a year since Treasury Secretary Tim 
Geithner published an op-ed in the New York Times entitled, 
``Welcome to the Recovery,'' an op-ed that in retrospect seems 
to have been a flawed prediction, to put it mildly. The economy 
should be roaring back by now, but instead it's still 
struggling, and the unemployment rate is 9.1 percent as of June 
3.
    Virtually every economic indicator out there has weakened 
over the past few months. And has already been noted by some of 
my colleagues, excessive corporate taxes and needless 
regulations are preventing the creation of jobs and severely 
limiting economic growth in the country.
    With all of these problems, it is important--critically 
important, actually--that we have a Secretary of Commerce who 
has a strong record of accomplishment in creating jobs in the 
private sector, someone who knows the challenges and how to 
overcome the barriers the private sector faces in creating 
jobs.
    And there are aspects of Mr. Bryson's record that I think 
are very impressive in some circles. There are some concerns I 
have, including his support for the job-killing cap-and-trade 
proposal. And so, you know, I'm anxious to hear from him about 
the steps that he thinks we need to be taking to get the 
country back on track and get the economy back on track.
    But I will just simply echo what my colleagues have said, 
Mr. Chairman, and reiterate, the Commerce Secretary has got to 
be a strong advocate for trade and open markets for America's 
farmers and manufacturers. And I signed a letter, along with I 
think most of my Republican colleagues, to Majority Leader Reid 
back in March, stating that we would withhold support for 
trade-related nominees, including Commerce Secretary, until the 
Administration submits the pending free trade agreements to 
Congress for their consideration.
    It's been over 3 months since that letter was sent, and the 
Administration has still not committed to a specific timetable 
for implementing those agreements. And I believe I speak for a 
good number of those in our caucus when I say that it's going 
to be difficult for Republicans to support Mr. Bryson's 
nomination until the Administration submits those free trade 
agreements. They are vital, vital to farmers and ranchers in my 
state, and vital to our economic recovery.
    And just to put a fine point on that, in 2008, the market 
share that we had in Colombia of corn, wheat, and soybeans was 
81 percent. Today, our market share of corn, wheat, and 
soybeans in Colombia is 27 percent. That's how much market 
share we have lost. The vacuum has been filled by other 
countries who continue to sign bilateral trade agreements with 
these three countries.
    And so I can't emphasize that enough, Mr. Chairman. And I 
appreciate both Mr. Bryson and Mr. Garcia being here today and 
look forward to hearing their testimony and the steps they 
intend to get the economy back on track.
    Thank you.
    The Chairman. Thank you, Senator Thune.
    I want to call on Senator Rubio, but I understand that 
you'll pass.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Yes, let's hear from the nominees.
    The Chairman. That's a statement, it's in the record. Thank 
you.
    And now we will come to that moment.
    Mr. Bryson and Mr. Garcia, if you would come forward and 
have a seat. You'll get water, which will be replenished.
    And we look forward to your testimony, which is obviously 
very important. And we will start with you, Mr. Bryson, when 
you are ready.

  STATEMENT OF JOHN BRYSON, SECRETARY OF COMMERCE-DESIGNATE, 
                     DEPARTMENT OF COMMERCE

    Mr. Bryson. Chairman Rockefeller, it is a great honor to 
come before this committee. Please let me know if you can't 
hear me.
    So it is an honor to come before the Committee today, and I 
want to extend my personal thanks to you, Senator Rockefeller, 
and also to the distinguished Ranking Member Hutchison, for the 
time and attention you've given to this nomination.
    I've got these pages here, and I'm going to try to drop 
some of them, because time's short, and I want to give you the 
time. Your time is more important than mine, so I'm going to 
skip some of these things.
    I'm going to start with this. It was a pleasure to talk 
with all of you that I was able to talk with. And I want to 
underscore that my conversations with the Republicans were very 
thoughtful conversations--I appreciate that greatly--as well as 
my conversations with the Democratic members.
    You've all talked about jobs, and I'm going to freelance 
here, but the reason President Obama reached out to me was my 
business experience and his absolute clarity about what he 
wants from me as the Secretary of Commerce, and that is taking 
what I can bring, drawing on this experience to enhance and be 
a rooter for and a great assister of American business, and 
with it, the jobs that follow from that.
    The private sector is where the jobs will be developed, 
need to be developed. We have to address that.
    I wanted to introduce my wife, Louise. I'm going to simply 
say, I got lucky. I got lucky.
    The Chairman. We welcome her.
    Mr. Bryson. Way back there. She's had a very full business 
career of her own, as well as raised with me--but she's been 
the star--our four wonderful daughters.
    But I was going to say a little about my parents. It's only 
because when you get a little older, as I am, you look back and 
you say who made the biggest difference in shaping your life, 
and it was my parents. And I won't even go through that. But if 
you looked at what was there, they had hard lives, and they 
came to have such values--a model for me.
    My dad, for example, was the first ever in his family ever 
to conceive of going to college, and he was forced to do it. 
And because he grew up in Appalachia, so he didn't have those 
opportunities.
    The Chairman. Actually, Mr. Bryson, we are having a little 
trouble hearing you.
    Mr. Bryson. Oh, I'm sorry. If I----
    The Chairman. There you go.
    Mr. Bryson. Is that better?
    The Chairman. Yes.
    Mr. Bryson. I'll try to lean forward and do that.
    In any event, so let's just say that with the influence of 
my parents, strong work ethic was an enormous value, and then, 
ultimately, getting a good education was an enormous value. And 
that's what I grew up with, and that's what I tried to live to. 
So I did go through, you know, it was unexpected, but a series 
of steps that took me out of Oregon, and ultimately to Stanford 
University and to Yale Law School.
    And some of you know that there, at the end of that time, a 
few of us gathered together and wanted to see if there was 
anything we could to with the skills we were developing, and we 
founded the Natural Resources Defense Council, and there've 
been many comments about that.
    You know, a lot has happened in the 40 years since that 
took place. I practiced law. I headed two state independent 
agencies, the California Water Resources Board, the California 
Utilities Commission, both at times of extreme crisis, the two 
driest consecutive water years in California history, for 
example. So I had the opportunity to address those things.
    But in 1984, I joined Southern California Edison. And 
Southern California Edison later became Edison International in 
the years that I was leading it, a great utility, a great 
utility in California. But we were able to then take 
initiatives that, among other things, increased jobs by 
creating an independent power company and moving around the 
United States. And then we took opportunities.
    And some of you raised the question about private markets. 
And the private markets were the opportunity for us because we 
were able to do this independent power in a number of countries 
around the world, where we were either the first to do any 
privatization of any kind for state-owned systems or go 
parallel with one or maybe two others in the early steps to 
privatization in, for example, the United Kingdom. But we were 
the first in Australia; we were the first in New Zealand and 
some other places.
    And I had the great good fortune of serving for nearly 18 
years as the CEO of Edison International and Southern 
California Edison. And I measured--I should say ``we,'' because 
it was very much us working together--but we measured every day 
our success by the quality with which we served our customers 
and the values we were able to provide to our shareholders.
    And again, in Southern California Edison, Senator Feinstein 
referred to this, we had what was an extraordinary crisis in 
this energy crisis in California in 2001, 2002. And that was 
certainly the single toughest challenge I've ever addressed. 
And we stood together as a company, and we kept the lights on 
under impossible circumstances for at least 2 years. And in the 
end, I think we were proud, across the employed, with what we 
were able to do without going into bankruptcy, as others did.
    I think you know that I've served on quite a number of 
boards. I won't even touch on that. Let me just say, I also am 
proud of being now with both Disney and Boeing--Boeing, the 
longest serving director; Disney, among the longest-serving 
directors. And I've learned so much from that.
    Now what I'm facing is a challenge--the one so many of you 
described and so well--that is tougher--tougher--than any I've 
challenged--that I've faced in the past. But I feel like I've 
learned something from input in tough spots previously.
    We all know the U.S. is in recovery, but it's too slow, too 
exclusive, too uncertain, not creating enough jobs. It's just 
terrible.
    I think that with my business background, and what the 
President has said to me, I get to draw on this background. I 
can reach out not just to the base of the Commerce Department, 
of which I'm proud to have the opportunity, but reach and have 
some particular voice in Cabinet meetings and working with 
other departments and agencies.
    I want to say something more. A number of you touched on 
regulations, so I thought of having been a job creator in my 
business, but I want to say I learned a lot about regulation. 
And businesses in our country are too often stifled by 
absolutely unnecessary, cumbersome regulation and unnecessary 
regulatory costs and delays. And if confirmed, I will be a 
voice in the Administration for simplifying regulation and 
eliminating those where the costs of the regulation exceed the 
benefits.
    And I'm going to touch only barely on the Commerce 
Department, because you know, so many of you, so much about the 
Commerce Department. Jobs, how are we going to do it? It's hard 
work. I mean, you can't just generalize. You have to get out, 
and you have to get out into segments and parts of the economy 
and parts of the country, manufacturing, services, very 
broadly.
    I count the export opportunity incredibly important. The 
Commerce Department leads there. As Secretary, I would lead 
that. We've got to continue to go to this at least doubling, at 
least doubling, of the exports we do in the country by this 
year 2015 target that the President set out.
    We've also got to do more. We also need to pledge to hold 
our trading partners accountable, so that they're living up to 
their commitments. And at the same time, we have to work 
abroad, as well as in the U.S., so we need to take initiatives 
to bring investors to invest in the U.S. and expand jobs here 
and work with the U.S. companies to stay here, not to leave our 
country the way so many have.
    There's no magic in doing this. I think it's mainly hard 
work in reaching out and talking to people and creating a sense 
of an open climate and a condition in which they can invest and 
make a business a success.
    So I'm going to stop there and just say I'm proud of the 
fact that I'm not a stranger to handling very difficult 
conditions. I'm really truly excited to work with American 
businesses large and small, to work with this committee, and to 
work with the American people in rebuilding our economy to 
create jobs. And if I'm given the privilege of becoming 
America's next Commerce Secretary, that will be my relentless 
focus.
    Thank you very much.
    [The prepared statement and biographical information of Mr. 
Bryson follow:]

  Prepared Statement of John Bryson, Secretary of Commerce-Designate, 
                         Department of Commerce
    Chairman Rockefeller, Ranking Member Hutchison, and members of this 
Committee, it is a profound honor to come before you today as the 
President's nominee to serve as Secretary of the Department of 
Commerce. The American people would feel better about our government if 
they got to see the bi-partisan way you lead this Committee. If granted 
the privilege of serving, it is an example I intend to emulate.
    I know we all share the same hopes for our nation--stronger job 
growth fueled by businesses that are more innovative at home and more 
competitive abroad. It is my firm belief that the Commerce Department 
can help realize those hopes.
    Let me also offer my sincere gratitude to President Obama for his 
confidence in me. I know I have big shoes to fill. Secretary Locke's 
work to help more U.S. companies sell their goods abroad and his effort 
to get Commerce's many bureaus to function as one team have made a 
difference for our country.
    I'd like to introduce the members of this Committee to my wife, 
Louise, who joins me today. Not only a wonderful mother to our four 
daughters and a wonderful wife, Louise enjoyed her own substantial 
business career.
    I would also briefly mention our four daughters, who could not be 
here today: Jane, Julia, Ruth, and Kathleen.
    We are part of a family, like so many others, that is the living 
embodiment of the American Dream. My father was born near Bryson City, 
in Appalachian North Carolina, but as a boy, the family moved west to 
become homesteaders in far eastern Montana. After proving up the nearly 
impenetrable land, however, the Montana drought of the 1920s forced 
another move, this time to northwestern Washington State. There my 
dad's father worked briefly as a logger, only to injure himself after 
just a short time on the job.
    The family barely survived the injury to its breadwinner, but my 
dad, following high school, had the great good fortune of being given 
the opportunity to be the first in our family to attend college. He was 
sent off to the University of Washington by a man he worked for, with 
jobs already set up to allow him to pay his way.
    After school and a stint in the FBI during World War II, he joined 
my maternal grandfather in the Oregon lumber industry, and then, 
realizing his fondest dream, was able to buy a farm where my parents 
lived for 40 years.
    Trying in some small way to emulate his work ethic helped me get to 
where I am today.
    But my mom's example of service has been an abiding influence too. 
She taught as a volunteer in Portland's inner city schools, and even 
though she was many miles from the movement's epicenter, gave to civil 
rights groups fighting for justice in their communities.
    When I graduated law school 42 years ago, my trajectory was clear: 
first, a federal clerkship, then on to a law firm and billable hours.
    Perhaps it wasn't surprising that I joined with friends instead to 
found the Natural Resources Defense Council.
    This was before President Nixon signed the Clean Air and Clean 
Water Acts, a time when Americans could turn on their TVs to see an 
iconic river on fire. Families in many cities were struggling with 
dirty water and unclean air. We believe our effort to found the NRDC 
was a way for us help make our country a little healthier. For me, it 
was also a chance to follow the example my mother had set.
    I'm proud of helping found the NRDC. But a lot has happened in the 
nearly four decades since I practiced law. I headed two independent 
state agencies: California's Water Resources Control Board and its 
utilities commission. I became a member in a major law firm and then 
moved into business.
    And in 1990, after 6 years principally as its CFO, I was made the 
Chairman and CEO of one of the country's largest utilities--Southern 
California Edison and its parent company, Edison International--
sometimes being opposed--and even sued--by the very group I had helped 
found two decades earlier.
    For nearly 18 years at Edison, I measured every day by our success 
in serving our customers and shareholders.
    And it was my experience there that ultimately led to invitations 
to serve on the boards of other businesses, including Disney and 
Boeing, where I am the longest-serving board member.
    At Edison and in my public sector leadership roles, I confronted 
crisis. On the water board, it was an unprecedented drought. At the 
utilities commission, the energy crunch of 1979 and 1980. And at 
Edison, it was the California energy crisis of 2002.
    At each stop, I learned from the remarkable people with whom I've 
worked.
    They taught me the value of teamwork and the imperatives of 
innovation, creative thinking and relentless hard work in weathering 
crises.
    If confirmed, I will take these lessons with me to the Commerce 
Department, and I hope to instill in the organization a commitment to 
not only work as one team across the agency's varied bureaus but with 
other Federal agencies, too. Where there's overlapping 
responsibilities, working better together will help us advance the 
President's goals and the Congress' objectives.
    The American people expect their government to do more with less, 
keeping its shoulder to the wheel of a recovery too many are still 
waiting to feel in their own lives.
    Doing that means creating more jobs. And that's what President 
Obama has asked me to focus on.
    In my decades of experience in business, I have created jobs. And I 
understand what it means to meet payroll.
    Importantly, I also know what it means to be regulated from a 
business perspective. If confirmed, I'm committed to helping simplify 
regulations that are difficult to understand, eliminate regulations 
that are ineffective and speed up regulatory decisions so American 
businesses can have the certainty they need.
    It's a cause, like corporate tax reform, that will make America 
more competitive. It's a cause I know the President cares about. So 
when I come to him with what I'm hearing from the U.S. business 
community, I know I'll have an eager audience.
    The perspective I've gained in the private sector is a big reason 
President Obama asked me to serve and brings value to the voice I will 
have within the Cabinet.
    It will also help me reach out to America's business community. 
They're on the economic front lines every day and, if confirmed, the 
President expects me to be able to tell him about the challenges 
they're facing so that this Administration does everything it 
reasonably can to make it easier for them to create jobs and grow.
    If confirmed, it will be an honor to lead an agency that does so 
much to further that goal.
    Commerce can help Americans and American businesses out-innovate 
the world by fostering entrepreneurship, innovation and scientific 
discovery; expand exports by promoting American products and enforcing 
our trade laws; predict climate patterns to give businesses more 
certainty; ensure the health of our oceans which are the lifeblood of 
so many communities, and; foster economic development through 
innovative strategies.
    The sheer breadth of what Commerce does is staggering-from NTIA's 
effort to connect more Americans to high-speed Internet to NIST's role 
developing standards for the Smart Grid, and from EDA's focus on 
promoting innovation clusters to the work the Bureau of Industry and 
Security does keeping sensitive technology out of the hands of those 
who would seek to do America harm.
    It's an agency that works every day to make America more 
competitive.
    At Commerce, I believe that starts with the Department's leadership 
role in the President's National Export Initiative.
    President Obama has set a goal of doubling U.S. exports by the end 
of 2014 to tap into the 95 percent of consumers who live outside our 
borders. Today, just 1 percent of American companies export, and, of 
those that do, nearly 60 percent export to just one market.
    If confirmed, I pledge to build on the work begun by Secretary 
Locke to help more small and medium-sized businesses break into new 
markets--and hold our trading partners accountable so they're giving 
American companies' products the same access in their markets as we 
give theirs. Our success will mean more jobs and more business 
investment.
    At the Patent and Trademark Office, significant progress has been 
made over the last 2 years. The unacceptably high patent backlog has 
been reduced by 10 percent, even as patent applications have risen by 5 
percent. But there's still more to do.
    If America is to take advantage of the extraordinary talent of its 
people, we have to remove the obstacles in front of its entrepreneurs 
and innovators--whether in a Federal lab or a neighborhood garage. The 
better able we are to speed ideas from the drawing board to the market, 
the more likely it is that America will be home to the well-paying jobs 
of the future.
    Finally, improving the employment picture will also mean focusing 
on the vital work NOAA does in America's coastal communities and its 
world-class science and services, which support the very foundation of 
commerce.
    I know I've touched on just a portion of what the Commerce 
Department does. I have much to learn about, and, should the Senate 
confirm my nomination, I pledge that, as Secretary, I will seek your 
advice and pursue a collaborative relationship that takes full 
advantage of your collective expertise.
    The American people expect us to work together, especially during a 
time when so much is at stake and so much is uncertain.
    I'm no stranger to handling difficult challenges in difficult 
times. I have the scars from the lessons learned to prove it.
    I am truly excited for the opportunity to work with the employees 
of the Commerce Department, American businesses large and small, this 
Committee, and the American people in rebuilding our economy. If 
granted the privilege of becoming America's next Commerce Secretary, it 
will be my relentless and abiding charge. I will not rest while there's 
a lever left to throw.
    Mr. Chairman, I thank you again for the opportunity to address your 
committee. I look forward to your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): John Edgar 
Bryson.
    2. Position to which nominated: Secretary of Commerce.
    3. Date of Nomination: June 16, 2011.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 2244 Walnut Grove Avenue, Rosemead, CA 91770.

    5. Date and Place of Birth: July 24, 1943; New York, NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Louise Henry Bryson--Retired from Lifetime Entertainment 
        Services. She previously served as Chair of KCET, the Los 
        Angeles public television station, and currently serves on the 
        Board of KPCC, a public radio station in the greater Los 
        Angeles region. She is a Board member for a number of Capital 
        Group investment funds. The Capital Group is an investment 
        management firm headquartered in Los Angeles. Children: Julia 
        Easton Bryson--35; Jane Templeton Bryson--31; Ruth Randall 
        Bryson--28; Kathleen Louise Bryson--22.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Yale Law School--J.D., 1966-1969.

        Freie Universitaet Berlin--1965-1966.

        Stanford University--B.A., 1961-1965.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Retired Chairman and Chief Executive Officer (consulting), 
        Edison International, Rosemead, CaliforniaAug--2008 to present.

        Chairman and Chief Executive Officer, Edison International, 
        Rosemead, California--Apr. 2008-July 2008.

        Chairman, President and Chief Executive Officer, Edison 
        International, Rosemead, California--Jan 2000-Apr. 2008.

        Chairman of the Board, Southern California, Edison Rosemead, 
        California--Jan. 2003-Jun. 2007.

        Chairman and Chief Executive Officer, Edison International and 
        Southern California Edison, Rosemead, California--Oct. 1990-
        Jan. 2000.

        Executive Vice President & Chief Financial Officer, Southern 
        California Edison, Rosemead, California--Jan. 1985-Oct. 1990.

        Senior Vice President, Law and Finance, Southern California 
        Edison, Rosemead, California--Feb. 1984-Dec. 1984.

        Partner, Law Firm of Morrison & Foerster, San Francisco, 
        California--Dec. 1982-Jan. 1984.

        President, California Public Utilities Commission, San 
        Francisco, California--Jan. 1979-Dec. 1982.

        Chairman, California State Water Resources Control Board, 
        Sacramento, California--Apr. 1976-Jan. 1979.

        Visiting Faculty, Stanford Law School, Stanford, California--
        Jan. 1977-June 1979.

        Attorney, Davies, Biggs, Strayer, Stoel & Boley, Portland, 
        Oregon--Mar. 1975-Apr. 1976.

        Co-Founder and Attorney, Natural Resources Defense Council, New 
        York, NY--1970; Washington, D.C.--1970-1972; Palo Alto, CA--
        1972-1974--Sep. 1970-Dec. 1974.

        Law Clerk, Judge Stanley A. Weigel, U.S. District Court, San 
        Francisco, California--1969-1970.

        Law Clerk, Wilmer Cutler and Pickering, Washington, D.C.--
        Summer 1968.

        Intern, Agency for International Development Department of 
        State, Washington, D.C.--Summer 1967.

        Intern, Office of Congressman Edith Green Subcommittee on 
        Higher Education, U.S. House of Representatives, Washington, 
        D.C.--Summer 1965.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    Member, California Commission for Jobs & Economic Growth National 
Petroleum Council, 2004-2008.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.

        Advisory Board, Deutsche Bank Americas, 2008 to present.

        Advisory Board, Ostendo Technologies, Inc., 2009 to present.

        Board of Directors, The Boeing Company, 1995 to present.

        Board of Directors, The Walt Disney Co., 2000 to present.

        Board of Directors, The California Endowment, 2003 to present.

        Board of Directors, W. M. Keck Foundation, 1996 to present.

        Board of Directors, Council on Foreign Relations, 1992-2002; 
        Member, 1985 to present.

        Board of Directors, Public Policy Institute of California, 2008 
        to present; Board Chair, 2011 to present.

        Board of Directors, Coda Automotive, Inc., 2008 to present.

        Board of Directors and Chairman of the Board, BrightSource 
        Energy, 2010-2011.

        Board of Trustees, California Institute of Technology 
        (Caltech), 2005 to present; Chairman, Audit and Risk Management 
        Committee, 2010-2011.

        Board of Overseers, Keck School of Medicine of the University 
        of Southern California, 1999 to present; Chairman of the Board, 
        2010 to present.

        Board of Overseers, The Huntington, 1991 to present.

        Member, Pacific Council on International Policy, 1994 to 
        present; Co-Chair, 2003 to present; Founding Co-Chair, 1994.

        Senior Advisor, Kohlberg Kravis Roberts & Co. (KKR), 2008 to 
        present.

        Senior Advisor, Global Solar Center, 2009 to present.

        Board of Directors, Electric Power Research Institute (EPRI), 
        2007-2008; Advisory Board, Palo Alto, CA, 1980-1982.

        Board of Directors, Western Asset Income Fund, 1986-2006 
        (Formerly Pacific American Income Shares, Inc.)

        Board of Directors, Edison Electric Institute, 1991-2002; 
        Executive Committee, 1993-2008; Electric Transportation Task 
        Force--Chair, 2007-2008; Chairman, 1998-1999; First Vice 
        Chairman, 1997-1998; Second Vice Chairman, 1996-1997.

        Board of Directors, Electric Drive Transportation Association 
        (EDTA), 2008-2010; Co-Chair, 2009-2010.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, Council on Foreign Relations, 1985 to present.

        Member, The Brookings Institution, 1994 to present.

        Member, Pacific Council on International Policy, 1994 to 
        present.

        Member, National Commission on Energy Policy (NCEP), April 
        2007-December 2010.

        Member, Atlantik-Briicke Int'l Advisory Council, March 2008 to 
        present.

        Member, American Academy of Arts & Sciences, April 2011 to 
        present.

        Member, U.N. Secretary-General's Advisory Group on Energy and 
        Climate Change (AGECC), 2009-2010.

        Member, United States Business Roundtable, 1994-2002.

        Member, The Business Council, 1993-2001.

        Member, California Business Roundtable, 1992-2008.

        Member, California Commission for Jobs and Economic Growth, 
        2004-2008.

        Member, E7 (an organization of eight largest electric utilities 
        in G7 countries; Edison International represented the U.S.), 
        1992-2001.

        Member, Town Hall of California, 1992-2008.

        Member, National Transportation Policy Project (NTPP), November 
        2007-2009.

        Member, Sunset Club, 1989-2011--(men's club that meets 
        periodically).

        Member, Los Angeles Country Club, 1991 to present.

        Member, The Valley Club of Montecito, 2005 to present.

        Member, California Club, 1990 to present

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Yes, I was appointed to the California Public Utilities Commission 
and the California State Water Resources Control Board. No outstanding 
debt exists as a result of these appointments.
    14. Itemize all political contributions to any individual campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        10/2010--Brown for Governor 2010--$2,000

        10/2010--Friends of Jane Harman--$2,000

        9/2010--John Spratt for Congress--$500

        7/2010--Brown for Governor 2010--$1,000

        5/2010--Hector de la Torre for Insurance Commissioner--$1,000

        11/2009--Hector de la Torre for Insurance Commissioner--$500

        8/2009--Feinstein for Senate--$2,400

        6/2009--Jerry Brown 2010--$2,000

        6/2009--Re-elect Mayor Foster 2010--$500

        6/2008--Jerry Brown 2010--$2,000

        4/2008--Baucus for Senate--$2,300

        6/2007--Friends of Jane Harman--$1,000

        6/2007--Citizens for Arlen Specter--$1,000

        6/2007--Friends of Jane Harman--$1,000 (Louise Bryson)

        5/2007--Friends of Bob Foster--$650

        5/2007--Feinstein for Senate--$1,000

        4/2007--Powerpac of the Edison Electric Institute--$2,000

        4/2006--A Lot of People Support Jeff Bingaman--$2,000

        2/2006--Westly for Governor 2006--$2,500

        9/2005--Friends of Bob Foster--$600

        9/2005--Friends of Bob Foster--$600 (Louise Bryson)

        8/2005--Friends of Dick Lugar--$2,000

        5/2005--Feinstein for Senate--$1,000

        12/2004--Brown for Attorney General--$5,000

        9/2004--Mike Machado for State Senate--$500

        6/2004--Hagel for Senate--$1,000

        6/2004--Bob Hertzberg for a Great L.A.--$1,000

        2/2004--Feinstein for Senate--$1,000

        4/2003--Feinstein for Senate--$2,000

        9/2002--Steve Westly for Controller--$1,000

        12/2001--Bill Leonard for Board of Equalization--$500

        10/2000--Feinstein 2000--$1,000 (Louise Bryson)

    NOTE: In addition, I made monthly contributions to the Edison 
InternationalPAC in amounts less than the threshold, approximately 
$416.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        American Academy of Arts and Sciences (elected in 4/2011) Yale 
        Law School--Award of Merit (2010).

        Stanford University Exchange Scholarship--1 year as a student 
        at the Freie University of Berlin (1965-66).

        College scholarship from Brown Shoe Company (aka Buster Brown 
        Shoes); ten students from around the U.S. selected (1961).

        Recognition as among the outstanding graduates of Cleveland 
        High School in Portland, OR (2010).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others.
    Also list any speeches that you have given on topics relevant to 
the position for which you have been nominated. Do not attach copies of 
these publications unless otherwise instructed.
    I have given numerous speeches. There are some in which I did not 
retain copies nor do I have records of the dates or places. Below are 
those I am aware of:

        Climate One. ``Least Cost Paths to Climate Reduction''. San 
        Francisco, CA. March 26, 2010.

        International Energy Conference. ``Integrated Solutions''. New 
        York, NY. September 1, 2009.

        California Institute of Technology. Talk on Movement Toward 
        Carbon-Free Energy. Pasadena, CA. May 27, 2009.

        University of California-Berkeley Energy Symposium. Talk on 
        Reducing Carbon Emissions. Berkeley, California. March 2010.

        CERA Week Conference. ``California Energy Market: The 
        Misleading Calm, Before the Storm''. February 12, 2004.

        Stanford University. Talk on How California Sees the World. 
        Palo Alto, CA. January 12, 2007.

        American Bar Association. Personal Reflections on Surviving 
        California's Energy Crisis. Los Angeles, CA. November 4, 2005.

        Pacific Pension Institute Winter Roundtable. Laguna Beach, CA. 
        February 25, 2011.

        Australia-U.S. Dialogue on Sustainable Cities. Hollywood, CA. 
        January 19, 2011.

        Effectiveness of Energy-Saving Policy Workshop. Beijing, China. 
        May 7, 2010.

        Sustainability Conference at Pomona College. Pomona, CA. 
        January 28, 2009.

        Electric Drive Transportation Association Conference. 
        Washington, D.C. December 4, 2008.

        Woods/Precourt Affiliate Conference at Stanford University. 
        Palo Alto, CA. September 12, 2008.

        Lehman Bros. Council on Climate Change/Science/Technology/
        Solutions Panel. New York, NY. December 7, 2007.

        National Association of Regulatory Utility Commissioners CEO 
        Roundtable on Energy Efficiency. Anaheim, CA. November 14, 
        2007.

        Morgan Stanley Global Electricity & Energy Conference. New 
        York, NY. March 16, 2006.

        Commencement Remarks for UCLA Anderson School of Management. 
        Los Angeles, CA. June 6, 2006.

    Additionally, I have given many speeches on Southern California 
Edison and Edison International and its work. At the company's annual 
meetings each year from 1991 to 2008, I provided the shareholders a 
summary update on the company-its challenges, achievements, its 
outstanding employees, and some thoughts about future prospects. In 
addition, I provided a written letter to shareholders in each of the 
company's Annual Reports during the years I was the Chairman and CEO. I 
have also authored a limited number of editorials which I have done my 
best to identify through a review of my personal files and searches of 
publicly available electronic data bases. I have located the following:

        ``California must prepare for climate change,'' Sacramento Bee, 
        November 21, 2010, Opinion, Pg. El, written with William K. 
        Reilly.

        ``From the sandbox to the laboratory,'' San Gabriel Valley 
        Tribune, Opinion, July 20, 2009.

        ``California Missed a Big Opportunity,'' Wall Street Journal, 
        April 11, 2001, Page 19.

        ``The state needs to act now to prevent blackouts later.'' Los 
        Angeles Times, December 20, 2000, Opinion, Page 9.

        ``Keeping our eyes on the ball,'' Utility Business, March 2000, 
        Pg. 16.

        ``Let us now praise what government does well,'' The Record 
        (Bergen County, NJ), December 3, 1997, Opinion, Pg. L09, 
        written with John Adams.

        ``Skepticism about government is healthy, cynicism is not,'' 
        Plain Dealer (Cleveland, Ohio), December 2, 1997, Opinion, Pg. 
        9B, written with John Adams.

        ``Perspective on government; Give credit for what works--a lot; 
        Environment and energy sectors find agreement on the success of 
        clean water and clean air legislation,'' Los Angeles Times, 
        November 26, 1997, Opinion, Page 7, written with John Adams.

        ``Perspectives on schools; Wiring our children for success; now 
        last in computers per pupil, California must outfit its youth 
        to compete in tomorrow's electronic world,'' Los Angeles Times, 
        January 22, 1997, Opinion, Page 9, written with Wendy Lazarus.

        ``Electric technologies and electric transportation,'' Public 
        Utilities Fortnightly, May 15, 1992, Vol. 129 No. 10, Pg. 76.

        ``Survival strategies for the `90s,'' Public Utilities 
        Fortnightly, September 1, 1991, Vol. 128 No. 5, Pg. 11.

        ``Change is in the wind--and the sun, energy, conservation and 
        new technologies will burgeon,'' Los Angeles Times, May 19, 
        1991, Opinion, Page 5.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Testimony before the House Committee on Energy and Commerce 
subcommittee on Energy and Air Quality on Facilitating the Transition 
to a Smart Electric Grid, May 3, 2007.
    Testimony before the Senate Committee on Energy and Natural 
Resources on Interim Limitations on the Cost of Electric Energy, March 
15, 2007.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    These remain difficult times for the American people, even as the 
economy has improved over the last 2 years. More than 2 million new 
jobs have been created since early 2010, but far too many Americans 
continue to be unable to find work.
    I believe what Americans expect from their leaders is for them to 
wake up every morning with a sense of urgency about this crisis. 
They're depending on this Administration and this Congress to figure 
out what to do about the uncertainty and fear that so many hard-working 
Americans and their families are experiencing.
    That's why I'm passionate about this opportunity. The Commerce 
Department is a catalyst for job creation and economic growth, and if 
given the privilege of serving as Secretary, that will be my highest 
priority.
    As the Chairman and Chief Executive Officer of Southern California 
Edison and its parent company, Edison International, I had the 
opportunity to lead, for nearly 18 years, a large electricity company 
that created and added jobs and supplied millions of people with 
electric power. I guided Edison through the California electricity 
crisis, a time of great uncertainty and diminished resources. That 
experience may have relevance now during a time when government is 
similarly being asked to do more with less.
    If confirmed, I would hope to bring to the role of Secretary of 
Commerce my experiences from earlier stages of my career, when I was 
asked to take the lead roles at California independent state agencies. 
At the California State Water Resources Control Board and then at the 
California Public Utilities Commission, I faced first an historic 
drought and the oil price spikes and shortages of 1979-81. With the 
outstanding employees of those agencies, we found paths, and where 
needed, made changes, to work those crises through to sound 
resolutions.
    It is vital to constantly maintain deep engagement with America's 
business community--the large businesses and small businesses, the long 
term businesses and the start-up entrepreneurs--as our economy pushes 
forward to turn the corner. I've been fortunate to serve on the boards 
of some of America's most successful companies, such as Disney and 
Boeing, as well as smaller, more entrepreneurial companies. I 
understand the concerns of businesses large and small, from diverse 
sectors of the economy, and hope to reach out to America's business 
leaders based on that understanding and mutual respect. They're on the 
economic front lines every day, and what American businesses are 
experiencing on the ground can serve as an early warning about bumps in 
the road toward our economic recovery. If confirmed, I will work hard 
to help relay their proposals for enhancing their businesses and 
building their work forces to the President.
    The ideas that will continue to fuel this recovery will come from 
the private sector, and if confirmed as Commerce Secretary, it will be 
my job to communicate what I hear to President Obama, his key advisors 
and the members of this Committee, and to be an advocate for business 
in White House policy discussions.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, it would be my responsibility to ensure that the 
Commerce Department is well-managed. Continuous improvement was a key 
value and goal in my work at Edison. While I would have much to learn 
about the management, depth, performance levels and accounting controls 
at the Department, if confirmed, I would have an intense focus on 
further improvement--both within the agency and in how we work with 
other departments.
    Prior to becoming Edison's CEO, I served as its Chief Financial 
Officer. Most recently, until just last week, I served as the Chairman 
of the Audit and Risk Management Committee at the California Institute 
of Technology. In these roles, I was responsible ensuring that these 
large, complex organizations were adhering to strict accounting 
standards and internal controls. If confirmed, I would hope to draw 
upon these experiences to ensure sounds management practices at the 
Department of Commerce.
    One important lesson I've taken with me is that while one cannot 
hope to be able to anticipate all of the challenges that lie ahead, if 
you build a culture focused on continuous improvement, you will 
approach those challenges from a position of strength. If confirmed, I 
would focus on continuing improvement in both capable management and in 
excellent accounting at Commerce.
    At Edison, we came together throughout the company to get better at 
what we did and we strengthened our commitments to the values of 
integrity, excellence, respect, continuous improvement and teamwork. If 
confirmed, I would seek to build on what Secretary Locke has advanced 
at Commerce and would want to ensure that those values are built 
consistently there.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The top challenge facing the Department is the top challenge facing 
the American people: There are too many people out of work and not 
enough jobs. As Commerce Secretary, it will be my top priority to do 
everything I can to help change that. It's the charge President Obama 
has given me. It's what the American people expect.
    To that end, President Obama set a goal of doubling U.S. exports by 
2015. Meeting that goal will mean millions of jobs for Americans. The 
good news is that we're on track, but there's still much more to do. 
Only 1 percent of U.S. businesses export and of those that do, nearly 
60 percent export to just one market. I will use every lever at my 
disposal to improve those numbers and push the agency to think 
creatively about ways we can approach persistent challenges, and about 
new partnerships we can forge with the private sector to amplify our 
efforts.
    As for the second major challenge facing the Department--the severe 
weather experienced by many parts of the country this spring is an 
urgent reminder of why it's critical we make sure NOAA's satellite 
program, especially the polar satellites, is fully funded and meeting 
internal deadlines to ensure continuity of service. What's at stake is 
the continued reliability of U.S. weather and climate forecasting. 
While important changes to NOAA's polar satellite program have been 
made over the last 2 years--changes that will improve management, 
control costs and increase the likelihood of a successful launch--there 
remains a risk that without consistent, high-quality oversight, there 
will be a significant gap in weather forecasting and information. We 
can't allow that to happen.
    Finally, the U.S. Patent and Trademark Office's patent backlog must 
be reduced. Significant progress has been made over the last 2 years. 
It is my understanding that the backlog has been reduced by 10 percent 
even as patent applications have risen by 5 percent. But more must be 
done. If America is to take advantage of the extraordinary talent of 
its people, it has to remove the obstacles in front of its 
entrepreneurs and the people working in its labs so that they can more 
efficiently translate their ideas into the products that improve our 
competitiveness and create jobs.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I will receive deferred compensation from Edison International 
Inc., The Boeing Company, Walt Disney Company, and Wells Fargo. I also 
participate in a 401(k) plan through Edison International, and, 
pursuant to prior agreement with the company, receive estate and 
executive financial planning (for a five-year period beginning August 
2008), retiree medical (for me and my spouse for life), and life 
insurance.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As part of my official duties with Edison International, I took a 
consistent interest in the legislation that could bear on the company 
and its customers. Each year, the company took positions on a number of 
pieces of potential legislation, most but not all of that at the State 
level. Where the legislation was minor in its impact, I was not 
involved in formulating the company's position. When, as in the 
California Power Crisis of 2002, the effects on the company and our 
customers were major, I was involved with others on signing off on 
positions we should take. In the most important legislative issues, I 
met from time to time with legislators to explain our views. I never 
became a lobbyist at either the Federal or the state level. In general, 
most of the interaction with legislators and with legislative staff was 
carried out by our public affairs staff and by others retained as 
lobbyists by the company.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    A complaint was made against me to the California State Personnel 
Board regarding a hiring issue during my time with the Public Utilities 
Commission. It was found to have no merit.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offence? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    In various civil cases brought by plaintiffs against Southern 
California Edison and other corporations, I was named as a defendant 
along with others, including Directors and other senior officers, in 
initial filings. To my best recollection, in most of those cases, my 
name was later dropped. In a very few, I was deposed. I recall no civil 
cases that resulted in a negative judgment or verdict. I am aware of no 
litigation brought against me personally.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
do protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        Resume of John E. Bryson
Employment
    Retired Chairman and Chief Executive Officer, Edison International, 
Rosemead, California, August 2008-Present

    Chairman and Chief Executive Officer, Edison International, 
Rosemead, California, April 2008-July 2008

    Chairman, President and Chief Executive Officer, Edison 
International, Rosemead, California, January 2000-April 2008

    Chairman of the Board, Southern California Edison, Rosemead, 
California, Jan. 2003-June 2007

    Chairman and Chief Executive Officer, Edison International and 
Southern California Edison, Rosemead, California, Oct. 1990-Jan. 2000

    Executive Vice President and Chief Financial Officer, Southern 
California Edison, Rosemead, California, Jan. 1985-Oct. 1990

    Senior Vice President, Law and Finance, Southern California Edison, 
Rosemead, California, Feb. 1984-Dec. 1984

    Partner, Law Firm of Morrison & Foerster, San Francisco, 
California, Dec. 1982-Jan. 1984

    President, California Public Utilities Commission, Jan 1979-Dec. 
1982
        The CPUC regulates electric, gas, water and telephone utilities 
        and trucking, rail, rapid transit and inter-city bus services 
        in California.

    Chairman, California State Water Resources Control Board, Apr. 
1976-Jan. 1979
        The Board administers California's water pollution control and 
        water rights programs.

    Visiting Faculty, Stanford Law School, Stanford, California, Jan. 
1977-June 1979

    Attorney, Davies, Biggs, Strayer, Stoel & Boley, Portland, Oregon, 
March 1975-April 1976

    Co-Founder and Attorney, Natural Resources Defense Council, Sept. 
1970-December 1974
        NRDC is a national environmental action group with offices in 
        New York, Washington, D.C., Palo Alto and San Francisco, CA, 
        and Beijing, China.

    Law Clerk, Judge Stanley A. Weigel, U.S. District Court, San 
Francisco, California, 1969-1970
Education
    Yale Law School--J.D., 1966-1969
        Board of Editors, Yale Law Journal
        Assistant in Instruction (1968-1969)

    Freie Universitaet Berlin, 1965-1966
        Recipient of Stanford Exchange Scholarship

    Stanford University--B.A., 1961-1965
        Graduation with Great Distinction
        Phi Beta Kappa
        President, Sophomore Class
        Recipient of Woodrow Wilson Fellowship for Graduate Study
Current Associations
    Advisory Board, Deutsche Bank Americas, October 2008-Present
    Advisory Board, Ostendo Technologies, Inc., October 2009-Present
    Board of Directors, The Boeing Company, 1995-Present
    Board of Directors, The Walt Disney Co., 2000-Present
    Board of Directors, The California Endowment, 2003-Present
    Board of Directors, W. M. Keck Foundation, 1996-Present
    Board of Directors, Council on Foreign Relations, 1992-2002; 
Member, 1985-Present
    Board of Directors, Public Policy Institute of California, 2008-
Present; Board Chair, 2011-Present
    Board of Directors, Coda Automotive, Inc., 2008-Present
    Board of Directors & Chairman of the Board, BrightSource Energy, 
2010-2011
    Board of Trustees, California Institute of Technology (Caltech), 
2005-Present
    Board of Overseers, Keck School of Medicine of the University of 
Southern California, 1999-Present; Chairman of the Board, 2010-Present
    Board of Overseers, The Huntington, 1991-Present
    Member, The Brookings Institution, 1994-Present
    Member, Pacific Council on International Policy, 1994-Present; Co-
Chair, 2003-Present; Founding Co-Chair, 1994
    Member, National Commission on Energy Policy (NCEP), April 2007-
December 2010
    Member, Atlantik-Brucke Int'l Advisory Council, March 2008-Present
    Senior Advisor, Kohlberg Kravis Roberts & Co. (KKR), August 2008-
Present
    Senior Advisor, Global Solar Center, 2009-Present
    Member, American Academy of Arts & Sciences, April 2011-Present
Selected Past Associations
    Board of Directors, Electric Power Research Institute (EPRI), 2007-
2008; Advisory Board, Palo Alto, CA, 1980-1982
    Board of Directors, Western Asset Income Fund, 1986-2006; (formerly 
Pacific American Income Shares, Inc.)
    Board of Directors, Edison Electric Institute, 1991-2002; Executive 
Committee, 1993-2008; Chairman, 1998-1999; First Vice Chairman, 1997-
1998; Second Vice Chairman, 1996-1997; Electric Transportation Task 
Force--Chair--2007-2008
    Board of Directors, Electric Drive Transportation Association 
(EDTA), 2008-2010; Co-Chair, 2009-2010
    Board of Directors, Times Mirror Company, 1991-2000
    Board of Directors, H. F. Ahmanson & Co., 1997-1998
    Board of Directors, Executive Service Corps of Southern California, 
1991-1996
    Board of Directors, First Interstate Bancorp, 1991-1996
    Board of Directors, Association of Edison Illuminating Companies, 
1993-1996
    Board of Directors, World Resources Institute, Washington, D.C., 
1982-1994
    Board of Directors, Los Angeles Sports Council, 1991-1994
    Board of Directors, Children NOW, 1992-1994
    Board of Directors, Rebuild LA, 1992-1994
    Board of Directors, The Planetary Society, 1992-1994
    Board of Directors, The Nature Conservancy, 1991-1993
    Board of Directors, Los Angeles County Museum of Art, 1991-1992
    Board of Directors, L.A. 84 Foundation, 1993-Present; (formerly 
Amateur Athletic Foundation of Los Angeles)
    Board of Trustees, Research to Prevent Blindness, 2002-2004
    Board of Trustees, Stanford University, 1991-2001
    Board of Trustees, The United States-Indonesia Society, 1994-2000
    Board of Trustees, Polytechnic School, 1990-1996
    Board of Trustees, California Environment Trust, 1986-1994
    Board of Trustees, Claremont Graduate School and University, 
Center, 1986-1992
    Board of Governors, The Music Center of Los Angeles County, 1990-
1992
    Executive Committee, National Association of Regulatory Utility 
Commissioners, 1980-1982
    Advisory Board, UCLA School of Public Policy & Social Research, 
1999-2003
    Advisory Committee, President's Advisory Committee for Trade Policy 
and Negotiations, 1994-2001
    Advisory Council, California Environmental Technology Partnership, 
1992-___
    Chairman, Los Angeles/Pasadena Bid Committee, World Cup Soccer, 
1994, 1991-1993
    Member, U.N. Secretary-General's Advisory Group on Energy and 
Climate Change (AGECC), 2009-2010
    Member, United States Business Roundtable, 1994-2002
    Member, The Business Council, 1993-2001
    Member, California Business Roundtable, 1992-2008; Chairman, 1996-
1998; Vice Chairman, 1993-1995
    Member, California Commission for Jobs and Economic Growth, 2004-
2008
    Member, Governor's Council of Economic Policy Advisors, 1993-1999
    Member, E7 (an organization of eight largest electric utilities in 
G7 countries; Edison International represented the U.S.), 1992-2001
    Member, Claremont University Center and Graduate School Board of 
Visitors, 1997-1998
    Member, California Council on Science and Technology, 1992-1995
    Member, The Conference Board, 1992-1994
    Member, National Commission on the Environment, 1991-1992
    Member, MALDEF, 1991-1992
    Member, Presidio Council, 1991-1992
    Member, California Water Rights Law Review Commission, 1997-1979
    Member, California Pollution Control Financing Authority, 1976-1979
    Member, Town Hall of California, 1992-2008
    Member, National Transportation Policy Project (NTPP), November 
2007-2009
Personal
    Birthday: July 24, 1943, New York, New York
    Family: Married to Louise Henry Bryson, four daughters
    Residence: San Marino, California

    The Chairman. Thank you, Mr. Bryson.
    And before we go to questions, obviously we want to hear 
from Mr. Garcia.

    STATEMENT OF TERRY GARCIA, DEPUTY SECRETARY OF COMMERCE-
               DESIGNATE, DEPARTMENT OF COMMERCE

    Mr. Garcia. Thank you, Mr. Chairman, Ranking Member 
Hutchison, and members of the Committee.
    It's an honor before me appear again before this committee 
in a confirmation hearing, this time as President Obama's 
nominee to be the Deputy Secretary of the Department of 
Commerce. I'm grateful for the opportunity to serve.
    I also want to thank the members and staff of this 
committee, who met with me over the last several weeks, and, if 
confirmed, I look forward to working with all the members of 
the Committee.
    As my record demonstrates, I'm deeply committed to public 
service. I'm fortunate to have had the opportunity to serve our 
nation on several occasions over the last two decades.
    Growing up in Jacksonville, Florida, my parents taught me 
the relevance and importance of public service. My dad served 
in the Navy, and for more than 35 years worked for the Postal 
Service. My mother was a civilian employee of the Navy and the 
Coast Guard for more than 30 years.
    With me today, I'd like to introduce my wife, Mary, who has 
graciously consented to the pay cut I'm going to take, if 
confirmed.
    [Laughter.]
    Mr. Garcia. And my two sons, Jake and Alex, and my mother, 
Marcelle Garcia.
    Senator Hutchison. Would you raise your hands, please, so 
we can see you? Thank you.
    Mr. Garcia. Among other duties, the Deputy Secretary is the 
chief operating officer of the department. The Deputy Secretary 
also acts as the Secretary's principal adviser and surrogate in 
a department that has one of the broadest mandates of any 
Federal agency.
    My varied public and private sector background, my 
managerial experience, and my familiarity with significant 
activities of the Department, affirmatively qualify me to carry 
out the duties and responsibilities of Deputy Secretary.
    My experience has prepared me well and provided significant 
perspective for the management and policy challenges inherent 
in this position.
    For the last 11 years, I have been Executive Vice President 
at National Geographic, a diversified media organization with 
worldwide operations and a clearly defined scientific and 
educational mission. My colleagues there and I have been 
required to navigate through a complex, rapidly changing, and 
highly competitive environment.
    As Executive Vice President, I'm a member of the executive 
management committee and have broad management responsibilities 
and discretion, which require me to interact with all divisions 
of the company and oversee global programs that are essential 
to maintaining our competitive advantage. I've acquired 
extensive experience and relationships with national and 
international organizations, and government institutions and 
leaders. I've represented the organization negotiating business 
arrangements at the highest levels of government and business 
in more than 55 countries.
    Before joining National Geographic, I was Assistant 
Secretary of Commerce for Oceans and Atmosphere, and 3 years 
prior to that, general counsel of NOAA. In those roles, I 
participated in all major policy decisions of the largest 
agency in Commerce and acquired a sound understanding of its 
programs and budgets.
    Throughout those years, my actions were dictated by my firm 
belief that the government's environmental stewardship 
responsibilities can and must be harmonized with the private 
sector's legitimate need for certainty and sustainable economic 
growth.
    Prior to entering government, I spent 15 years in the 
private sector representing corporate, banking, and other 
business interests as a partner in two major national law 
firms. I represented financial institutions in all aspects of 
their operations, including regulatory matters, and audit and 
financial management.
    From this practice, I understand first-hand the impact of 
regulation, the burden it can place on businesses, and the need 
for a balanced approach in developing regulatory policy.
    Most recently, as a commissioner on the National Commission 
on the BP Deepwater Horizon Oil Spill, I, along with my fellow 
commissioners, dealt with issues of utmost importance to the 
economy and our energy future. Our work was characterized by 
bipartisan collaboration and a firm dedication to uncovering 
the truth. I'm also pleased to tell you that we did something 
that very few Presidential commissions can lay claim to: our 
report was on time, unanimous, and under-budget.
    If confirmed, I will have an unwavering commitment to the 
core mission of the Department of Commerce. That mission--to 
ensure and enhance economic opportunity for all Americans by 
helping create jobs and promoting innovation and long-term 
competitiveness of American companies--has never been more 
urgent, relevant, or central to our collective well-being. This 
includes working to double U.S. exports by 2015; ensuring that 
U.S. companies can compete on a level playing field around the 
world, and that our trade partners comply with the full terms 
of our trade agreements; supporting continued efforts to 
improve the Patent and Trademark Office's operations and 
services; and promoting wise stewardship of our natural 
resources.
    Additionally, if confirmed, I will work to ensure 
implementation and maintenance of effective internal controls 
and procedures at the department. Effective management and 
accounting controls are critical to the success of any 
enterprise, but especially an organization as diverse and 
complex as the Department of Commerce.
    I intend to work closely with the department's inspector 
general and will ensure that his office can effectively carry 
out its mission.
    Mr. Chairman and members of the Committee, if confirmed as 
Deputy Secretary, I will work with you in a collaborative and 
constructive manner to develop practical solutions to our 
nation's economic and environmental problems.
    Thank you again for this opportunity to appear before you 
and for your consideration of my nomination. I look forward to 
responding to any questions.
    [The prepared statement and biographical information of Mr. 
Garcia follow:]

                  Prepared Statement of Terry Garcia, 
     Deputy Secretary of Commerce-Designate, Department of Commerce
    Thank you, Chairman Rockefeller, Ranking Member Hutchison, and 
members of the Committee. It is an honor for me to appear again in a 
confirmation hearing before this distinguished Committee, this time as 
President Obama's nominee to be Deputy Secretary of the U.S. Department 
of Commerce. I am grateful to the President for the opportunity to 
serve. If I am confirmed, I will look forward to confronting and 
addressing the challenges that will ensue. I thank the Members of this 
Committee and the members of your staff who were gracious enough to 
meet with me over the last several weeks and I anticipate meeting with 
the remaining Members of this Committee.
    As my record demonstrates, I am deeply committed to public service. 
I am fortunate to have had the opportunity to serve our Nation on 
several occasions over the last two decades. I hope to add to that 
record. Growing up in Jacksonville, Florida, my parents taught me the 
relevance and importance of public service. My dad served in the Navy 
and for more than 35 years worked for the Postal Service. My mother was 
a civilian employee of the Navy and the Coast Guard for 30 years. With 
me today are my wife, Mary, my two sons, Jake and Alex and my mother, 
Marcelle Garcia.
    Among other duties, the Deputy Secretary is the Chief Operating 
Officer of the Department of Commerce, overseeing more than 36,000 
employees and a FY 2011 budget of $ 7.9 billion. The Deputy Secretary 
also acts as the Secretary's principal advisor and surrogate in a 
Department that has one of the broadest mandates of any Federal agency.
    My varied private and public sector background, my substantial 
managerial experience and my particular familiarity with significant 
activities of the Department of Commerce affirmatively qualify me, I 
believe, to carry out the duties and responsibilities of the Office of 
the Deputy Secretary. My experience as Executive Vice President at 
National Geographic Society (NGS), as Assistant Secretary of Commerce 
for Oceans and Atmosphere and NOAA General Counsel, and as a partner in 
two major national law firms have prepared me well and provided 
significant perspective for the management and policy challenges 
inherent in this position.
    For the last 11 years, I have been Executive Vice President at 
National Geographic, a diversified media organization with world-wide 
operations and clearly defined and essential scientific and educational 
missions. My colleagues there and I have been required to navigate 
through a complex, rapidly changing and highly competitive environment. 
As is the case with most major media companies, in recent years we have 
been impacted by the introduction of swiftly evolving technologies 
which have proved disruptive to National Geographic's core publishing 
and television businesses. As Executive Vice President, I have broad 
management responsibilities and discretion which require me to interact 
with all divisions within National Geographic and to oversee global 
programs that are critical to maintaining the organization's 
competitive advantage and distinction in the market. In that capacity, 
I have acquired extensive experience and relationships with national 
and international organizations, government institutions and leaders. I 
have traveled to over 55 countries, representing National Geographic 
and negotiating business arrangements at the highest levels with 
government and business interests. I am a member of the National 
Geographic executive management committee and have participated in all 
its major business and policy decisions over the last 11 years.
    Prior to joining National Geographic, I was the Assistant Secretary 
of Commerce for Oceans and Atmosphere and Deputy Administrator of NOAA 
from 1997-1999. From 1994 to 1997, I served as NOAA's General Counsel. 
In these two roles I participated in all major policy decisions of the 
largest agency in the Department of Commerce and acquired a sound 
understanding of its programs and budgets. Throughout those years my 
actions were dictated by my firm belief that the government's 
environmental stewardship responsibilities can and must be harmonized 
with the private sector's legitimate need for certainty and sustainable 
economic growth.
    Prior to entering government service, I spent 15 years in the 
private sector representing corporate, banking and other business 
interests as a partner in two major national law firms. I represented 
financial institutions in all aspects of their operations, including 
Federal and state regulatory and legislative issues, corporate and 
securities matters, audit and financial management, mergers and 
acquisitions, bank operations, and enforcement and administrative 
proceedings. In addition, at the law firm of Hughes Hubbard & Reed in 
Los Angeles, I established the firm's west coast banking practice and 
was Chairman of the West Coast Financial Services Group. I understand 
first-hand the impact of regulation and the burden it can place on 
businesses and the need for a balanced approach by the Federal 
Government in developing regulatory policy.
    In addition, I have acquired valuable experience and insight as a 
result of my service as a trustee, director or advisor to a diverse 
group of domestic and international academic and nonprofit 
organizations. Most recently as a Commissioner on the National 
Commission on the BP Deepwater Horizon Oil Spill and Offshore Drilling, 
I along with my fellow commissioners dealt with issues of utmost 
importance to our nation's economy, environment and energy future. I am 
proud to say that we effectively carried out the President's directive 
to investigate the root causes of the Deepwater Horizon explosion and 
make recommendations on how to prevent and mitigate a similar incident 
in the future. Our work was characterized by bipartisan collaboration 
and a firm dedication to uncovering the truth. I am also pleased to 
tell you we did something few Presidential commissions could claim-our 
report was on time, unanimous and under-budget.
    If confirmed, I will have an unwavering commitment to the core 
mission of the Department of Commerce. That mission--to ensure and 
enhance economic opportunity for all Americans by helping create jobs 
and promoting innovation and long-term competitiveness of American 
companies large and small--has never been more urgent, relevant or 
central to this nation's collective well-being. This includes: working 
to double U.S. exports by 2015 as part of the President's National 
Export Initiative; ensuring that U.S. companies can compete on a level 
playing field around the world and that our trading partners comply 
with the full terms of our trade agreements; supporting continued 
efforts to improve the Patent and Trademark Office's operations and 
delivery of services; and promoting the wise stewardship of our natural 
resources. If confirmed, I will work tirelessly in support of that 
mission.
    Effective management and accounting controls and procedures are 
critical to the success of any enterprise. This is particularly true 
for an organization as large, diverse and complex as the Department of 
Commerce. If confirmed, I will: communicate through words and actions, 
the critical importance of effective internal controls and procedures; 
ensure, through active and appropriate oversight and direction, the 
effective implementation and maintenance of internal controls; demand 
excellence and accountability Department-wide; require ongoing 
evaluation of internal controls and procedures for their effectiveness 
in addressing existing and emerging risks/threats; motivate and empower 
Department management and staff to systematically improve effectiveness 
and efficiency and achieve performance excellence; and whenever 
necessary, ensure that appropriate corrective measures are instituted. 
I intend to work closely with the Department's Office of Inspector 
General and will do all in my power to ensure that the OIG can 
effectively carry out its mission to promote efficiency and 
effectiveness and to detect and prevent waste, fraud, abuse and 
mismanagement in the programs and operations of the Department of 
Commerce.
    Mr. Chairman and members of the Committee, if confirmed as Deputy 
Secretary of Commerce, I will work with you in a collaborative and 
constructive manner to develop practical and necessary solutions to our 
Nation's economic and environmental challenges. My record over 35 years 
demonstrates this approach and my work ethic. Thank you again for this 
opportunity to appear before you today and for your consideration of my 
nomination. I would be pleased to respond to any questions you may 
have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Terry Donato 
Garcia.
    2. Position to which nominated: Deputy Secretary of Commerce.
    3. Date of Nomination: May 16, 2011.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 1145 17th St. NW, Washington, DC 20036.

    5. Date and Place of Birth: March 27, 1953; Jacksonville, Fla.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Mary Talley Garcia, Consultant (Information Services); 
        Children: Alex Donato Garcia--26; Jake Brian Garcia--23.

    7. List all college and graduate degrees. Provide year and school 
attended.

        American University, BA, 1975.
        George Washington University Law School, JD, 1980.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        New Directions, Legislative Representative, 1976-1978.

        International Development Cooperation Agency, Legislative 
        Consultant, 1979-1980.

        Manatt, Phelps, Rothenberg & Tunney, Associate, 1980-1983.

        Fried, Kings Holmes & August, Attorney/Partner, 1983-1991.

        Hughes Hubbard & Reed, Attorney/Partner/Chair, Financial 
        Services Group, 1991-1994.

        Manatt, Phelps & Phillips, Attorney, Partner, 1994.

        National Oceanic and Atmospheric Administration, General 
        Counsel, 1994-1997.

        National Oceanic and Atmospheric Administration, Deputy 
        Administrator/ Department of Commerce, Assistant Secretary of 
        Commerce for Oceans and Atmosphere, 1997-1999.

        National Geographic Society, Executive Vice President, 1999 to 
        present.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    Commissioner, National Commission on the BP Deepwater Horizon Oil 
Spill and Offshore Drilling, 2010-2011.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Institute for Exploration/Mystic Aquarium (Sea Research 
        Foundation), Mystic, Connecticut. Member of Board of Trustees. 
        Term: 2005 to present.

        Amazon Center for Environmental Education and Research (ACEER), 
        West Chester, PA Member of Board of Directors. Term: 2003 to 
        present.

        Harte Research Institute for Gulf of Mexico Studies, Texas A&M 
        University, Corpus Christi, TX. Member Board of Advisors. Term: 
        2004 to present.

        U.S. National Committee for the Census of Marine Life. 
        Committee, Washington, D.C. Member. Term: 2001 to present.

        National Marine Sanctuary Foundation, Silver Spring, MD. 
        Trustee Emeritus. Former Chair and member of Board of Trustees. 
        Term: 2001-2007.

        Ocean Advisory Committee, World Economic Forum. Member. Term: 
        2009 to present.

        Committee on Exploration of the Seas, National Academy of 
        Sciences (National Research Council, Division of Earth and Life 
        Studies, Ocean Studies Board). Member of Committee. November 
        2001-November 2003. Report ``Exploration of the Seas'' 
        published Nov 2003.

        National Academy of Public Administration. Study Panel 
        (examining National Marine Fisheries Service's regulatory, 
        financial and organizational structure and effectiveness), 
        20012002. Report published 2002.

        Saltire Prize Advisory Committee, Scottish Government, 
        Edinburgh, Scotland, UK. Member. Term: 2009 to present.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    In addition to those listed in response to question 11 above, I am 
also a member of:

        Cosmos Club, Washington, D.C., 2003 to present.

        District of Columbia Bar, 1980 to present.

        State Bar of California, 1982 to present.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements: None.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Publications

        Federal Regulation of Banking, Warren Gorham and Lamont, 
        published 1980.

        Protecting the Corporate Whistle Blower, No. 2, Vol.5, Journal 
        of Corporation Law, Winter 1980.

        ``U.S. Regulators Clamp Down in Wake of Scandals,'' American 
        Banker, April 23, 1992.

        U.S. Accession to the Law of the Sea Convention, Issue 3, Vol. 
        VII, Georgetown International Environmental Law Review, Summer, 
        1995.

        National Academy of Public Administration, Study Panel 
        (examining National Marine Fisheries Service's regulatory, 
        financial and organizational structure and effectiveness), 
        2001-2002. Report published 2002.

        Committee on Exploration of the Seas, National Academy of 
        Sciences (National Research Council, Division of Earth and Life 
        Studies, Ocean Studies Board). Member of Committee. November 
        2001-November 2003. Report ``Exploration of the Seas'' 
        published Nov. 2003.

        Op-Ed, ``A legacy to match T.R.'s, in the ocean,'' The 
        Providence Journal, written with Joshua Reichert, September 16, 
        2008.<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ This Op-Ed was originally titled ``The President's Ocean 
Legacy.'' The editor of this publication changed the title.

        Op-Ed, ``Bush's Ocean Protection Plan Needs More Teeth,'' 
        Seattle PI, written with Joshua Reichert, September 10, 
---------------------------------------------------------------------------
        2008.<SUP>*</SUP>

        Op-Ed, ``Oceans: Our finite, fragile and valuable resources,'' 
        Saipan Tribune, written with Joshua Reichert, September 2, 
        2008.<SUP>*</SUP>

        Op-Ed, ``Ensuring an ocean legacy,'' Miami Herald, written with 
        Joshua Reichert, August 29, 2008.<SUP>*</SUP>

        Letter to the Editor, ``The `Daimon,' '' The Chronicle of 
        Higher Education, June 27, 2008.

        Letter to the Editor, ``Saving a Piece of History,'' Los 
        Angeles Times, April 19, 2006.

        Letter to the Editor, ``The Situation with Salmon,'' The 
        Washington Post, April 28, 1999.

        BP Deepwater Horizon Oil Spill Commission Report published 
        January 2011.
Speeches
    As Deputy Administrator and General Counsel of NOAA, I gave 
numerous speeches in my official capacity. I did not retain copies nor 
do I have records of the dates and places of such speeches.
    As Executive Vice President of National Geographic, I frequently 
make remarks at exhibit openings, conferences and other events 
regarding the work of National Geographic. I typically do not use 
written speeches. Below are recent events at which I have delivered 
remarks:

        American Association for the Advancement of Science. Moderator 
        of Panel on Gulf Oil Spill. Washington, D.C. May 5, 2011.

        Montreal Science Center. NGS exhibition opening. Montreal, 
        Canada. April 28, 2011.

        Melbourne Science Museum. Tutankhamun Exhibition Opening. 
        Melbourne, Australia. April 6, 2011.

        Scottish Renewables Conference. Presentation on NGS coverage of 
        renewable energy issues. Glasgow, Scotland. March 23, 2011.

        Economic Club of Florida. Presentation of Findings of National 
        Commission on BP Deepwater Horizon Oil Spill and Offshore 
        Drilling. Tallahassee, Fla. January 14, 2011.

        National Press Club. Presentation of Findings of National 
        Commission on BP Deepwater Horizon Oil Spill and Offshore 
        Drilling. Washington, D.C. January 11, 2011.

        Florence 2010, ``Cultural Landscapes and Heritage.'' 
        Presentation of NGS work in field of cultural resource 
        conservation. Florence, Italy. November 18, 2010.

        Jane Goodall Institute Global Leadership Awards. Remarks in 
        connection with accepting Global Leadership Award on behalf of 
        NGS. Washington, D.C. October 11, 2010.

        NG Channel India Green Conclave. Opening remarks at NG Channel 
        event. New Delhi, India. October 22, 2010.

        World Water Day Conference. Opening remarks. National 
        Geographic, Washington, D.C. March 22, 2010.

        Tallberg Forum. Panel presentation on NGS ocean exploration 
        activities. Tallberg, Sweden, June 24, 2009.

        McKinsey & Company Conference for McKinsey clients regarding 
        climate change issues. Presentation on NGS coverage of climate 
        issues. San Francisco, CA. September 8, 2008.

        UBS Symposium on Global Philanthropy. Panel presentation on NGS 
        activities. Singapore. September 12, 2008

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        House Transportation and Infrastructure Committee, Subcommittee 
        on Coast Guard and Maritime Transportation and Subcommittee on 
        Water Resources and Environment, February 11, 2011, BP Oil 
        Spill Commission recommendations.

        House Committee on Resources, Subcommittee on Fisheries 
        Conservation, Wildlife and Oceans, February 25, 1999, 
        Reauthorization of Coastal Zone Management Act.

        House Committee on Commerce, Subcommittee on Energy and Power, 
        September 25, 1998, Federal Hydroelectric Relicensing Process.

        Senate Committee on Commerce, Science, and Transportation, 
        Subcommittee on Oceans and Fisheries, May 20, 1998, Harmful 
        Algal Blooms.

        Senate Committee on Natural Resources, Subcommittee on Water 
        and Power, October 30, 1997, FERC Hydroelectric Relicensing 
        Procedures.

        House Committee on Transportation and Infrastructure, 
        Subcommittee on Water Resources and Environment, October 29, 
        1997, Superfund Reauthorization and Reform Legislation.

        House Committee on Resources, Subcommittee on Fisheries 
        Conservation, Wildlife and Oceans, October 9, 1997, Oversight 
        Hearing on Pfiesteria and its Impact on Our Fishery Resources.

        Senate Committee on Commerce, Science, and Transportation, 
        October 7, 1997, Nomination to be Assistant Secretary of 
        Commerce for Oceans and Atmosphere.

        House Committee on Government Reform and Oversight, 
        Subcommittee on Human Resources, September 25, 1997, Pfiesteria 
        and Public Health: The State and Federal Response.

        Senate Committee on Environment and Public Works, September 23-
        24, 1997, Endangered Species Recovery Act.

        Senate Committee on Environment and Public Works, September 4. 
        1997, Superfund Reform and Reauthorization.

        House Committee on Resources, Subcommittee on Fisheries 
        Conservation, Wildlife and Oceans, March 13, 1997, African 
        Elephants--Coral Reefs.

        Senate Committee on Environment and Public Works, Subcommittee 
        on Superfund, Waste Control and Risk, March 5, 1997.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I believe my deep and varied private and public sector background, 
my substantial managerial experience and my particular familiarity with 
significant activities of the Department of Commerce affirmatively 
qualify me to be Deputy Secretary. My success as a senior executive at 
National Geographic, as Assistant Secretary of Commerce for Oceans and 
Atmosphere and NOAA General Counsel and, as a partner in two major 
national law firms have prepared me well for the management and policy 
challenges inherent in this position.
    For the last 11 years, I have been a senior executive at National 
Geographic Society (NGS), a well known diversified media organization 
with world-wide operations and a clearly defined scientific and 
educational mission. NGS operates in a rapidly changing and highly 
competitive environment, one that has been impacted in recent years by 
the introduction of rapidly evolving technologies which have proved 
disruptive to NGS's core publishing and television businesses (as is 
the case with all major media companies). As Executive Vice President, 
I have broad management responsibilities and discretion which require 
me to interact with all divisions within NGS and to oversee global 
programs that are critical to maintaining the organization's 
competitive advantage and distinction in the market. In that capacity I 
have acquired extensive experience and relationships with national and 
international organizations, government institutions and leaders. I am 
a member of the executive management committee and have participated in 
all major business and policy decisions over the last 11 years.
    Prior to joining NGS, I was the Assistant Secretary of Commerce for 
Oceans and Atmosphere and Deputy Administrator of NOAA from 1997-1999. 
From 1994 to 1997, I served as NOAA's General Counsel. In these two 
roles I participated in all major policy decisions of the largest 
agency in the Department of Commerce and acquired a sound understanding 
of its programs and budgets. As Deputy Administrator I exercised broad 
and substantial management responsibility.
    Prior to entering government service, I spent 15 years in the 
private sector representing corporate, banking and other business 
interests as a partner in two major national law firms. I represented 
financial institutions in all aspects of their operations, including 
Federal and state regulatory and legislative issues, corporate and 
securities matters, audit and financial management, mergers and 
acquisitions, bank operations, and enforcement and administrative 
proceedings. I frequently dealt with the most senior executives in 
these organizations. In addition, at the law firm of Hughes Hubbard & 
Reed in Los Angeles, I established the firm's west coast banking 
practice and was Chairman of the West Coast Financial Services Group.
    Additionally, I have acquired valuable knowledge, experience and 
insight as a result of my appointment to and service on the National 
Commission on the BP Deepwater Horizon Oil Spill and Offshore Drilling 
and my service as a trustee, director or advisor to a diverse group of 
domestic and international academic and nonprofit organizations.
    First and foremost, I believe service to our country is a worthy 
goal and one of the highest achievements for any of us. I have always 
felt the obligation and responsibility to put forth my best efforts to 
serve broad societal goals. Fortunately, my background has afforded me 
that opportunity and led me twice to leave successful private sector 
careers for government service. I believe that the Department of 
Commerce mission to ensure and enhance economic opportunity for 
Americans by creating jobs and promoting innovation and long-term 
competitiveness, has never been more relevant or central to our 
collective well being.
    19.What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Effective management and accounting controls and procedures are 
critical to the success of any enterprise. This is particularly true 
for an organization as large, diverse and complex as the Department of 
Commerce. If confirmed, I will: communicate through words and actions, 
the critical importance of effective internal controls and procedures; 
ensure, through active and appropriate oversight and direction, the 
effective implementation and maintenance of internal controls; demand 
excellence and accountability Department-wide; require ongoing 
evaluation of internal controls and procedures for their effectiveness 
in addressing existing and emerging risks/threats; motivate and empower 
Department management and staff to systematically improve effectiveness 
and efficiency and achieve performance excellence; and whenever 
necessary, ensure that appropriate corrective measures are instituted.
    I have extensive experience leading and managing large 
organizations with global operations. As noted in my response to 
Question 18, I have been a senior executive at National Geographic for 
11 years and for 5 years prior to this I was Assistant Secretary of 
Commerce for Oceans and Atmosphere and Deputy Administrator of NOAA. 
Prior to entering government service I was a partner in two major 
national law firms representing corporate, banking and other business 
interests. Activities have encompassed negotiation of mergers and 
acquisitions, consulting with and advising audit committees, 
development and execution of strategic plans, trademark and 
intellectual property protection, employee training, advertising, 
marketing and promotion, scientific grant administration, print and 
digital media production and development and launch of new products and 
services. In the course of my career, I have had extensive experience 
in audit and financial management practices.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Because I am not currently employed at the Department, I cannot 
presume to know all of the challenges it currently faces. That being 
said, the overarching priority and challenge, of course, is to 
effectively advance the Department's mission to ensure and enhance 
economic opportunity for Americans by creating jobs and promoting 
innovation and long-term competitiveness. Based on my understanding and 
outside observations, some of the more immediate management challenges 
facing the Department are:

        1. Improving management of major system acquisitions, such as 
        NOAA's environmental satellite program, and contract operations 
        in order to avoid or minimize cost overruns, schedule delays 
        and reduced performance capabilities.

        2. Strengthening the Department's IT security to enable 
        effective defense of its systems and information.

        3. Effective implementation of reforms to improve operations of 
        key bureaus, including PTO operations and delivery of services.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I am invested in the Federal TSP, the National Geographic Society's 
401k and will be entitled to the National Geographic Society's pension 
plan upon retirement.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Commissioner, National Commission on the BP Deepwater Horizon Oil 
Spill and Offshore Drilling. 2010-2011.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    I am not aware of any such complaints.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    In 1997, I was involved in a small claims proceeding in LA 
Municipal Court with the former tenant of my house in Los Angeles. The 
matter involved a dispute over rent in the amount of $1,547.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       Resume of Terry D. Garcia
Professional Experience
    1999 to Present--National Geographic Society--Washington, D.C.

        Executive Vice President--Responsible for management and 
        oversight of the Society's core mission programs, including 
        programs that support and manage more than 400 scientific field 
        research, conservation and exploration projects annually, the 
        Explorers-in-Residence and Emerging Explorers programs, 
        geography and science education programs, geography 
        competitions, development office, exhibitions, live events and 
        the mission media program, which includes the All Roads film 
        and photography program. Also responsible for the Society's 
        major global initiatives including the Genographic Project, an 
        effort to map the history of human migration.
        Manage and direct all scientific field research, exploration 
        and education programs of the Society. Manage and direct 
        Society's SO state education program which seeks to strengthen 
        geography and science education in U.S. grades K-12. Member of 
        the Senior Management Committee, the Senior Editorial Council, 
        the Committee for Research and Exploration and the Conservation 
        Trust. Serve on Board of Governors of the National Geographic 
        Education Foundation.

    1997 to 1999--National Oceanic and Atmospheric Administration--U.S. 
Department of Commerce--Washington, D.C.

        Assistant Secretary of Commerce for Oceans and Atmosphere; 
        Deputy Administrator of National Oceanic and Atmospheric 
        Administration--As Assistant Secretary managed and oversaw 
        NOAA, a 15,000 person agency which directs and coordinates U.S. 
        coastal, ocean and atmospheric programs, including the National 
        Ocean Service, the National Marine Fisheries Service, the 
        Office of Oceanic and Atmospheric Research, the National 
        Weather Service and the National Environmental Satellite, Data 
        and Information Service. Directed all ocean and coastal 
        programs of NOAA, including recovery of endangered species, 
        habitat conservation planning, natural resource damage 
        assessment (CERCLA, Clean Water Act and Oil Pollution Act), 
        clean water act implementation, trade and environment issues, 
        commercial fisheries management, nautical charting and marine 
        transportation, coastal zone management and national marine 
        sanctuaries. Oversaw operations of National Weather Service and 
        NOAA satellite program, including licensing of commercial 
        remote sensing satellite systems. Served as agency 
        representative on Interagency Global Positioning System 
        Executive Board and White House task forces on climate change, 
        trade and the environment, Clean Water Action Plan and the 
        President's NW Forest Plan. Co-chaired Department of Commerce 
        task force on trade and the environment. Served as Chairman of 
        Coastal America, an interagency effort to encourage federal, 
        state and private partnerships to protect and manage coastal 
        resources. Lead negotiator for Department of Commerce in the 
        acquisition of the Headwaters Forest from Pacific Lumber 
        Company.

    1994 to 1997--National Oceanic and Atmospheric Administration--U.S. 
Department of Commerce--Washington, D.C.

        General Counsel--Managed legal staff of 150. As chief legal 
        officer of NOAA, provided legal and policy advice on all major 
        agency programs and initiatives. Oversaw effort to review and 
        streamline NOAA's regulatory programs resulting in elimination 
        or consolidation of approximately one-half of the agency's 
        regulations. Re-engineered Federal Government's approach to the 
        assessment and recovery of damages for injuries to natural 
        resources under the Oil Pollution Act of 1990. Led the 
        development of the natural resource damage assessment 
        regulations under the Oil Pollution Act of 1990 and the 
        implementation of the Exxon Valdez Oil Spill Restoration Plan 
        for Prince William Sound and the Gulf of Alaska. Principal 
        agency official in development of administration policy for 
        commercial remote sensing satellite systems. Led development of 
        secretarial order revising the operating relationship between 
        the Federal Government and Native American tribes in 
        implementing the Endangered Species Act. Successfully 
        negotiated on behalf of management a collective bargaining 
        agreement covering agency's staff attorneys. Developed and 
        implemented contingency plan for operation of critical agency 
        programs during 1995 government shut-down.

    1994 (Jan) to 1994 (Sept)--Manatt, Phelps & Philips--Los Angeles

        Partner--Represented financial institutions in all aspects of 
        their operations, including Federal and state regulatory and 
        legislative issues, corporate and securities matters, mergers 
        and acquisitions, bank operational matters and enforcement and 
        administrative proceedings. . Extensive experience in 
        regulatory and supervisory issues affecting foreign and 
        domestic banks, bank holding companies, savings institutions 
        and non-bank providers of financial services. Advised and 
        counseled corporations, non-profit organizations and political 
        campaigns on state and Federal election and campaign law.

    1991 to 1994--Hughes Hubbard & Reed--Los Angeles

        Chairman, Financial Services Group (West Coast); Partner--
        Established and developed a successful financial institutions 
        department and practice in the Los Angeles office of national 
        law firm. Responsible for development and supervision of the 
        practice as well as recruitment, hiring and training of 
        attorneys. Directed business development activities, including 
        design and presentation of seminars on international and 
        domestic banking issues. Represented financial institutions in 
        all aspects of their operations, including Federal and state 
        regulatory and legislative issues, corporate and securities 
        matters, mergers and acquisitions, bank operational matters and 
        enforcement and administrative proceedings. Advised and 
        counseled clients on Federal and state election and campaign 
        law matters.

    1983 to 1991--Fried, King, Holmes & August--Los Angeles

        Partner--Responsible for general corporate/securities and 
        regulatory representation of foreign and domestic banks, bank 
        holding companies and their affiliates. Directed training and 
        supervision of associate attorneys.

    1980 to 1983--Manatt, Phelps, Rothenberg & Tunney--Washington, D.C. 
and Los Angeles

        Associate--Specialized in general corporate/securities and 
        regulatory representation of commercial banks, bank holding 
        companies and their affiliates.

    1979 to 1980--International Development Cooperation Agency--
Washington, D.C.

        Legislative Consultant--Advised new agency in establishment of 
        Legislative Affairs Office. Served as liaison with other 
        Federal agencies. Agency was responsible for oversight of U.S. 
        foreign economic development assistance programs, including 
        those administered by the Agency for International Development, 
        the Departments of Treasury, State and Agriculture, the Exim 
        Bank and the Overseas Private Investment Corporation.

    1976 to 1978--New Directions--Washington, D.C.

        Legislative Representative--Represented public interest 
        organization in foreign policy matters before Congress and 
        Executive Branch. Developed and implemented organization's 
        legislative initiatives involving U.S. economic development 
        assistance programs and U.S. participation in international 
        financial institutions.
Education
        May 1980--Juris Doctor (With Honors), National Law Center, 
        George Washington University, Washington, D.C. Member, Journal 
        of International Law and Economics.

        May 1975--Bachelor of Arts, International Relations, School of 
        International Service, The American University, Washington, 
        D.C.
Other Activities
        National Commission on BP Deepwater Horizon Oil Spill and 
        Offshore Drilling, Commissioner, 2010-2011.

        Institute for Exploration/Mystic Aquarium (Sea Research 
        Foundation), Mystic, Connecticut. Member of Board of Trustees. 
        Term: 2005 to present.

        Amazonian Center for Environmental Education and Research 
        (ACEER), Member of Board of Directors. Term: 2003 to present.

        Harte Research Institute of Gulf of Mexico Studies, Texas A&M 
        University. Member Board of Advisors. Term: 2004 to present.

        U.S. National Committee for the Census of Marine Life, 
        Committee Member. Term: 2001 to present.

        National Marine Sanctuary Foundation, Trustee Emeritus. Former 
        Chair and Member of Board of Trustees. Term: 2001-2007.

        Ocean Advisory Committee, World Economic Forum, Member. Term: 
        2009 to present.

        Committee on Exploration of the Seas, National Academy of 
        Sciences (National Research Council, Division of Earth and Life 
        Studies, Ocean Studies Board). Member of Committee. November 
        2001-November 2003. Report ``Exploration of the Seas'' 
        published Nov 2003.

        National Academy of Public Administration, Study Panel 
        (examining National Marine Fisheries Service's regulatory, 
        financial and organizational structure and effectiveness), 
        2001-2002. Report published 2002.

        Saltire Prize Advisory Committee, Scottish Government, Member. 
        Term: 2009 to present.
Associations
        The District of Columbia Bar (1980 to present)
        State Bar of California (1982 to present)
Publications
        Federal Regulation of Banking, Warren Gorham and Lamont, 
        published 1980.

        Protecting the Corporate Whistle Blower, No.2, Vol.S, Journal 
        of Corporation Law, Winter 1980.

        U.S. Regulators Clamp Down in Wake of Scandals, American 
        Banker, April 23, 1992.

        U.S. Accession to the Law of the Sea Convention, Issue 3, Vol. 
        VII, Georgetown International Environmental Law Review, Summer, 
        1995.

        National Academy of Public Administration, Study Panel 
        (examining National Marine Fisheries Service's regulatory, 
        financial and organizational structure and effectiveness), 
        2001-2002. Report published 2002.

        Committee on Exploration of the Seas, National Academy of 
        Sciences (National Research Council, Division of Earth and Life 
        Studies, Ocean Studies Board). Member of Committee. November 
        2001-November 2003. Report ``Exploration of the Seas'' 
        published Nov 2003.

        Op-Ed, ``Ensuring an ocean legacy,'' Miami Herald, written with 
        Joshua Reichert, August 29, 2008.<SUP>*</SUP>

        BP Deepwater Horizon Oil Spill Commission Report published 
        January 2011.

    The Chairman. Thank you, Mr. Garcia.
    Mr. Bryson, it may come as a surprise that you get the 
first question.
    It's actually very interesting, because although your 
statement to the Committee didn't represent the force that you 
presented to me when we were having a private meeting, which 
was lengthy and extensive, and I felt in you, and feel in you, 
a tremendous drive for success--I'll be honest with you, I 
don't think we've had a decent Secretary of Commerce since Bill 
Daley. They are very hard to pick out, and they're absolutely 
crucial to the future of our country.
    Now, on the one hand, I think you have tremendous drive; 
you have tremendous executive experience; you can run circles 
around most of us well, maybe not Frank, but virtually 
everybody else on business. You know the deal. You know how to 
put things together. You know how to make things work. You know 
the country. You know the world. You know China. You know every 
place there is. You've been to it, you know it.
    So looking at it from a rational point of view, you're a 
gift to this country, should you be confirmed. And I, for one, 
believe that you will talk with a very strong and a very 
powerful voice in an Administration that needs your voice much 
more than it realizes, which may be why the President asked you 
to do this job.
    Now that's one side. The other side is the so-called 
controversy. We always find controversy, and sometimes it's 
done for purely political purposes, and sometimes it's done for 
policy reasons. That has to be dealt with.
    So the question I'm going to ask you, is that although you 
have bought coal from West Virginia, Wyoming, and many other 
places, which is what we like to see, on the other hand, your 
position with respect to the NRDC and also cap-and-trade, et 
cetera, price on carbon, whatever, is an anathema to the people 
of my state.
    Now, there are many things that are an anathema to the 
people of my state and to the people of other states. Everybody 
has their issues. There are 16 states that produce coal; there 
are, therefore, 34 states that do not. And if you're confirmed, 
you're going to be a national Secretary of Commerce.
    So let me just sort of ask you bluntly, and hopefully this 
will trigger an outpouring of the defense that I thought you 
were going to make. That is, do the people of West Virginia who 
are obsessed with the future of coal, as am I, do they have 
reason to worry about your being Secretary of Commerce?
    Do they feel that, as Secretary of Commerce, you will do 
something which reflects what you did 40 years ago or whatever, 
and is that something that I need to worry about? Or is that 
something which people will talk about and write about and 
write opinions in papers about, but which will not really touch 
on the fundamental work of your secretaryship, should you get 
it?
    Mr. Bryson. Thank you, Senator. I, maybe I cut some things 
out of the prepared remarks. But, let me get right at this.
    The facts of the Grant Town project that we had and we 
built, and that I went so often to West Virginia for, must have 
been 12, 13, 14 years--largest taxpayers, as I understand it, 
in Marion County--I mean, that wasn't an NRDC project. That was 
waste coal in--what, I am a believer in, in energy, is diverse 
sources of fuel, including, particularly, domestic sources of 
fuel. I think energy security requires that. I think a sound 
electric system needs that kind of diversity.
    So, it's true that I was a founder of NRDC. It's even true 
that some things that NRDC did in the energy efficiency area, 
with people I can identify, I thought was very good.
    There's no question that NRDC was not supportive of coal. 
They filed a lawsuit against our project--I mean, we had bought 
all these projects, all the non-nuclear projects that 
Commonwealth Edison had in the Greater Chicago--we bought them 
all. We operated them all. We improved them, frankly, 
environmentally. But--and we still have those projects, and 
we're still proud to have those projects. You know, we have the 
nuclear plants, so we're quite a large owner- operator of 
nuclear plants. We're proud of that. That's not an NRDC 
positive. NRDC filed the lawsuit----
    The Chairman. I understand. I'm not just focused on the 
NRDC.
    Mr. Bryson. Oh, I'm sorry. I thought, that's what I 
understood the question to be. I'm sorry.
    The Chairman. Well, it was part of the question. But, it's 
the general posture of people saying, ``Oh, he's an 
environmentalist, and therefore he can't, he won't be helpful 
to us,'' or, ``He'll fight against coal.'' Now you're going 
into something called the Secretary of Commerce, if you're 
confirmed.
    Mr. Bryson. Yes.
    The Chairman. That's an enormous subject. And I have other 
questions to ask you about it. But, I want to try to put to 
rest, if it is possible, that you being the Secretary of 
Commerce, should that happen, and the interests of the people 
of West Virginia, for the most part who are concerned about the 
future of coal, and natural gas, that they will not have to, 
quote, ``worry about you.'' Now, you understand--I'm not 
phrasing the question properly. But you understand exactly what 
I'm saying, and I'd like a really straight, direct answer.
    Mr. Bryson. Well, I believe they would find me a strong and 
supportive Secretary of Commerce. I believe, for example, that 
the manufacturing base--we talked a little about that--we've 
got to work with those small, medium- size, sometimes small 
town, sometimes totally rural companies, and find ways--we have 
means to do these things--to convey to them the steps they can 
take. But also, to convey to them the reason why they, we would 
want them to develop confidence that making further 
investments--for example, for exports--is in their business 
interest, and serves West Virginia, serves the people they live 
with.
    The Chairman. Mr. Bryson, I'm over my time. I just want you 
to speak directly to--either your environmental past, your 
environmental present, or whatever it is--and say why, if that 
is the case, you do not feel that is a threat to the people of 
West Virginia? I don't want to hear about creation of small 
business, big business. I was glad to hear about Marion County, 
Grantsville, all of that. But, they will be worrying, as we are 
having this hearing. They'll be worrying, ``Is this person 
going to be one of those people who tries to crush our 
existence?'' I want to hear from you.
    Mr. Bryson. Yes, and I don't think they will be worried, 
because my guess is, you know, you know, if, the imperative now 
is enhancing our businesses, building them stronger here in the 
U.S., and thereby creating jobs. And, that is my focus. That's 
what the President asked me to do. That's what I will do.
    The Chairman. He did not ask you that, to expedite the 
demolition of the part of coal which is represented in our 
energy supply?
    Mr. Bryson. Not at all. No. He was clear, and I'm clear. In 
fact, I think you can only do a job like this with 
prioritization. I will be focused. And I'll be focused on 
that--on jobs.
    The Chairman. Thank you, sir.
    Senator Hutchison.
    Senator Hutchinson. Well, first let me say that I am 
pleased that the nominee for Commerce Secretary has had 
business experience, and I think the President needs more 
people around him with business experience, and you fulfill 
that role. And I do hope that what you said in your opening 
statement, which is that you will be a cheerleader and advocate 
for the regulatory reform that we all agree needs to be done, 
but which, frankly, has not been done so far, you will fill 
that role. And I think that's a good thing.
    Now, along the lines of what the Chairman has started, with 
the coal industry, I have concerns about some of the things you 
have said regarding energy regulations. And in a speech where 
you came out for cap-and-trade legislation, you said that it is 
a tax, and that regulations that penalize energy producers for 
producing more energy than needed by the government were the 
best way to reduce energy consumption and greenhouse gases.
    So, the question is, having talked to so many business 
people, and the cost of energy being one of their toughest 
issues and one of their biggest concerns, are you anti-energy? 
Are you for taxing energy--raising the cost, and letting that 
have the effect of hurting our businesses, while gaining the 
purported result of having more investment in other forms of 
energy?
    Mr. Bryson. Absolutely no. The, I think that it draws on 
this cap-and-trade question, if I have it right.
    The reason that we in the electric utility industry--
substantially every company--there were a very, I, maybe I can 
pick out one or two--wanted in the end to have a sensible cap-
and-trade bill, as we saw it at the time. It was that, we 
couldn't make the investments we needed to make in the 
infrastructure of our systems for our customers under the kind 
of massive uncertainty that existed at the time.
    So, we utilities got together--I had been Chairman of the 
Edison Electric Institute. I had been on the executive 
committee for 10 years. I worked with others that were senior 
positions in the industry. I was by far not the only one. We 
worked together, and we presented to the House--as Senator 
Feinstein said, I'd actually worked with others to try to find 
a path that preserved the coal. What we needed was time, and 
with time we felt we could work a low-cost potential transition 
into things like clean coal, into things like natural gas with 
greater utilization in industry. Lots of things that we thought 
we could achieve. But we needed some predictability, and it was 
chaos at that time.
    Now, quite a large number of other businesses across the 
U.S., as I think you know, likewise, made that choice at that 
time. So, Dow Chemical, DuPont, Shell Oil, and many others, we 
all recognized--to my knowledge, no one's raising that now. I 
certainly would not raise that as the Secretary of Commerce.
    Senator Hutchinson. Do you think the corporate tax rate in 
America, being the second highest on the globe, is too high? 
And are you going to advocate for lowering the corporate tax 
rate to make us more competitive, including energy industries?
    Mr. Bryson. Yes, I would, I would strongly believe in that. 
I know, the President has, is working with some group of 
people--honestly, I don't know about that--on a tax proposal. 
But, I agree. I think, what I take from your question, and that 
is, we need to simplify our taxation in this country, and we 
need to put our businesses in a less taxed position.
    And so, just, if I can give one anecdote: When we did this 
privatization investments that we did in 12 or 13 countries 
around the world, we ended up in this phenomenon in which then, 
our investments, and the earnings and the revenues from those 
investments, were parked overseas, and we had to pay a whopper 
of tax to bring them home. So, we had an incentive to invest 
not back in the United States, but overseas. I think those 
things should be changed.
    Senator Hutchinson. Let me just ask one last question. And 
that is, you're obviously a member of the Boeing board.
    Mr. Bryson. Yes.
    Senator Hutchinson. And you made a very good statement 
about regulatory excess. Do you think the stretch that the NLRB 
is making to try to keep Boeing from choosing where it 
manufactures its products is the overreach of regulation?
    Mr. Bryson. I think it's not the right judgment. I mean, I 
wasn't thinking of it so much as regulation. It seemed like an 
unexpected kind of legal proceeding that none of us on the 
board--we thought we were doing the right thing for the 
country, and we looked hard at maintaining the jobs in 
Washington and expanding the jobs elsewhere, to the benefit of 
the country, and never thought, for example, of putting those 
jobs outside of the U.S.
    Senator Hutchinson. Well, that's a very important point 
that you're making. And I hope that, because of your 
experience, not only doing what's right for jobs in America, 
but also unabashedly representing the shareholders, for whom 
you hold a trust, that you will speak out against that kind of 
overreach that is unprecedented, really. I don't think I've 
seen anything like it ever. And I hope when you're confirmed 
that you will take that on as the spokesman for business and 
commerce in our country, that we've got to stop this. And if 
you will be the spokesman that you have said you will be, this 
should be Exhibit A.
    Mr. Bryson. Thank you.
    Senator Hutchinson. Thank you.
    The Chairman. Thank you, Senator Hutchison.
    Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman.
    Mr. Bryson, you made mention of the fact that rules and 
regulation ought to be--I don't know the precise language, but 
the thought was definitely there--that you would be looking at 
this with a degree, as you raised it here, a sort of question.
    Well, I want to say this to you, sir--that it wasn't rule 
or registration that killed the automobile industry when it 
died. They were operating within the same parameters pretty 
much that they're operating now, and they've come back strong 
and very competitive.
    I was just in France at an aviation conference, and Boeing 
was there, and they strutted their stuff, and they showed that 
their product was better than the others, and they weren't 
hampered by rules and regulation. So, I submit to you, sir, 
that if you see a rule and a regulation that you think has no 
cost, no benefit, it's just an obstacle, would you be 
embarrassed to say, ``Well, we're going to have to change 
that?''
    Mr. Bryson. I wouldn't be embarrassed at all.
    Senator Lautenberg. OK.
    Mr. Bryson. I think we have to do that----
    Senator Lautenberg. Well, I just wanted to clear the air, 
Mr. Bryson----
    Mr. Bryson. I wouldn't be embarrassed the in slightest----
    Senator Lautenberg.--because----
    Mr. Bryson. Yes.
    Senator Lautenberg.--the inference that it's rule and 
regulation that are killing business, is baloney, you'll 
forgive me. And it's often a trial balloon that really involves 
other things. We need rules and regulations in a society that 
functions with a degree of order. And the company that you were 
associated with, the Edison Electric, the company I was 
associated with, you're going to have 42,000 employees, I think 
it is, the number in Commerce. The company I started with--two 
guys, four working people, now has 45,000 employees that--we 
worked from scratch, and we built an incredible company, with 
the best record for growth of any company in America--10 
percent or better.
    So, I submit to you--a little more confidence in your 
experience and your ability, and an ability to make decisions. 
And you're, this isn't a popularity contest. When you're here, 
you're sitting before a jury, and you have to present those 
things that you think are going to help grow our commercial 
opportunities at home and abroad. So, I would look to you to be 
able to stir up your belief in things, and get the job done. I 
think you can do it. You've got great experience, and we're 
fortunate enough to have you here. And, if you were to be able 
to get this job, to land this one, then you will have made a 
great contribution to America's well-being. And you can't back 
down, whether you're wearing a uniform or not. If you're a 
member of the group, you've got to stand up for what's right. 
And, I don't mean to lecture you. But I just want to be sure 
that we, you know, we understand one another.
    We know that changes in ocean chemistry caused by carbon 
dioxide will affect our food supply, the health of our oceans. 
Yet, research on ocean acidification is still in its infancy. 
Now, I wrote a provision that became law in 2009 requiring NOAA 
to lead an interagency effort to study the effects of ocean 
acidification. Would you say here that you're going to continue 
the administration's commitment to a better understanding in 
addressing this growing point resulting from a change in 
temperatures--or whatever the causes are--but, to make sure 
that we try to restructure these things so that we don't lose 
the opportunity that comes from an ocean that's pure, that has 
coral alive, that is a place where fish and sea life gets its 
growing strength? So, does that strike you as any kind of a 
problem, to follow on there?
    Mr. Bryson. No. I don't, I mean, you raise a very good 
conversation--the ocean acidification issue.
    Senator Lautenberg. Right.
    Mr. Bryson. It's one that I'm not very familiar with. I 
would like very much to sit down further, after this 
confirmation----
    Senator Lautenberg. OK. I would----
    Mr. Bryson.--and understand it better. Yes. Yes.
    Senator Lautenberg. I would tell you that therein lies an 
enormous environmental problem.
    Mr. Bryson. Yes.
    Senator Lautenberg. Because ocean acidification is killing 
coral all over the place. And, with coral out of existence, the 
fish and the other sea life doesn't have a chance to find a 
place to propagate and develop.
    Mr. Chairman, thanks.
    The Chairman. Thank you very much, Senator Lautenberg.
    Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman.
    Mr. Garcia, I've decided that if I'm ever nominated for 
anything, I want Mr. Bryson to be the other nominee that day.
    [Laughter.]
    Senator Blunt. And now for my questions for Mr. Bryson.
    [Laughter.]
    Mr. Bryson. Thank you, Senator.
    Senator Blunt. And, I certainly respect and appreciate what 
both of you have done--what you've done a National Geographic; 
and what you've done in your career, Mr. Bryson. And it goes 
well beyond energy executive, because of the boards you've 
served on and all the other things you've done.
    I don't think I agree fully with Mr. Lautenberg. I have, 
he's made a lot more business decisions than I have, and I have 
a lot of respect for him. But, I do think these regulations 
matter. For instance, let's talk about the Boeing regulation a 
little bit, the NLRB ruling. You were on that board. How long 
were you on that board? I know you were on it until last week, 
or the last couple of weeks.
    Mr. Bryson. Yes. That's right. And I was the longest-
serving director, and I joined the board----
    Senator Blunt. Well, that's probably all--were you on the--
--
    Mr. Bryson.--1993, maybe.
    Senator Blunt. 1993? Were you, you were on the board when 
they made the decision to locate the new facility in South 
Carolina, then?
    Mr. Bryson. Yes.
    Senator Blunt. And that was a unanimous board decision. And 
I think Mr. Daley, Bill Daley, was also on that board at the 
time. You were part of that decision?
    Mr. Bryson. Yes.
    Senator Blunt. I think this regulation matters a lot. I 
think it, the message to everybody--you know, I'm from 
Missouri, where we have a lot of Boeing employees.
    Mr. Bryson. Yes. Yes.
    Senator Blunt. We're glad to have them. We're not a right-
to-work state. But, I think one of the messages here is, if 
you're in a right-to-work state, or you're coming to the United 
States for the first time, until this is settled, that may be 
one reason not to come to Missouri, because you can't move, you 
can't put your second location somewhere that's not part of 
that first location in a non-right-to-work state. I just think 
this is one of the areas where a Secretary of Commerce--if 
you're not fighting this attitude in any administration, nobody 
is. You have to be the guy that says we've got to have more 
certainty. Whether it's in regulatory efforts, or the taxing 
efforts, or what the utility bill might be, all of those become 
reasons not to take a risk. It's a lot easier to not put your 
money on the table to see if you can lose it, than it is to put 
it on the table and see if you can lose it. And, I think you've 
got to be a real advocate for that.
    And whether it's the EPA or--I agree with Senator 
Hutchison, that the, this NLRB rule is something that, if 
somehow the Congress wanted to enact this as a new national 
standard, that's one thing--and I wouldn't be for it--but, to 
have these rulemaking agencies think they can make these big 
stretches into new areas of law is a real concern. And it 
stands against the number one priority of the government of the 
country today, which should be private sector job creation.
    And, I mean, as a member of that board, do you have 
particular concerns about how that decision by your board, well 
taken and well entered into, has created this new set of 
problems?
    Mr. Bryson. I certainly hope not. I'll just say, the best 
legal analysis I saw--and this was very carefully worked out. 
By the way, it was very carefully worked out, as perhaps you 
know, also with the State of Washington. I mean, this was, the 
analysis I've seen says this legal initiative is not sound. 
It's not based on any significant tradition in the law of 
national labor relations. I am no expert on that, but we gave a 
lot of attention to it. I think the position is sound that 
Boeing took.
    Senator Blunt. Well, I think it's fair to say, you are an 
expert on corporate decisionmaking. You've been involved in a 
lot of it. And you----
    Mr. Bryson. Yes.
    Senator Blunt.--know what it takes for these decisions to 
be made. And you know how a little difference makes the 
difference in whether you make the decision or not. And, in my 
view, the advocacy of the risk-reward philosophy of capitalism 
is a key job of the Secretary of Commerce. If you don't 
understand risk-reward, and don't respect it as a driving 
component of growing the economy, the economy doesn't grow. And 
I think that's a lot of what we're seeing right now, is, this 
lack of certainty creates incredible hesitancy, which means 
nobody takes a chance. If nobody takes a chance, other people 
don't get an opportunity that that chance would have provided 
for them.
    But, your comments, I appreciate your comments on the NLRB 
regulation. I am concerned about a sense that the California 
model is the right utility model for us to follow. And if you 
are confirmed, I hope you and I can talk about that more. 
Because I think looking at these kind of increases in rates--
not only they don't make us competitive, they drive these jobs 
to countries that care a whole lot less about what comes out of 
the smokestack than we do. And so, the overall goal, 
environmental goal, is actually set back, instead of moved 
forward, by policies that drive jobs from our country to other 
countries.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blunt.
    Senator Snowe.
    Senator Snowe. Thank you, Mr. Chairman.
    Let's go back to what I was discussing earlier, because I 
think it is so paramount in focusing on job creation. And in 
fact, yesterday I was trying to describe an initiative that I 
had offered two and a half years ago, to your predecessor, 
which was to have a job creation coordinator because of the 
disparate organizations and structures within the Commerce 
Department, to centralize the focus and bring everybody forward 
in a coordinated, synchronized fashion.
    And the same is true in regulations. When I look at the 
overall picture of what the Commerce mission is, and what the 
reality is of the economy today, they're totally misaligned. 
And I can go through all the numbers.
    And, Senator, you did a great job in putting the mission 
and the chart together.
    If it's promoting job creation, you'll know the jobs 
numbers. In fact, we are at a point where, since January of 
2009 unemployment has fallen below 9 percent for 5 months only. 
I mean, we know what we have to create--285,000 jobs a month in 
the next 5 years to get back to pre-recession levels of 2007.
    Economic growth for the first quarter is projected at 1.8 
percent. Projected for this quarter, 2.3 percent.
    If you look at your mission to strengthen the international 
economic position of the United States, less that 1 percent of 
U.S. businesses engage in exporting. Sixty percent of these 
firms export to just one foreign nation. China will surpass us, 
according to the IMF, in 2016--a mere 5 years from now. The 
overall U.S. trade deficit in March was $45 billion. So, we're 
importing more than we're exporting. And we talked yesterday 
about how few of the manufacturers are exporting.
    If you look at your mission to promote aggressive business 
policies that help America's businesses and entrepreneurs, we 
talk about the cost of regulations for small employers. If they 
have 20 or fewer employees, it costs $10,500 more for small 
businesses to comply.
    A March 2011 report by the Manufacturing Institute on 
education reform said at the height of the recession, 32 
percent of manufacturers reported they had jobs going unfilled. 
We have a huge skills gap.
    Back in 1981, when we first passed the Research and 
Development Tax Credit bill--and I was in the House at that 
time--the United States of America had the most generous tax 
treatment for research among all of the countries in the 
Organization for Economic Cooperation and Development, the 
OECD. Today, regrettably, we offer the 17th most generous 
incentive for the private sector.
    So, that's a picture. And I see a lot more in each of these 
categories vis-a-vis the mission of Commerce. That's why you 
have an opportunity to do something so important for the 
President, and most especially, for the country, and using the 
resources of your Department to bring it forward. I cannot 
impress upon you enough--that's all you've heard here, and 
echoing here today.
    And that's why it gets back to one of the key issues of 
regulatory reform. As Ranking Member of the Small Business 
Committee, I cannot underscore enough the difficulty and the 
barriers that regulations present to small businesses and large 
businesses alike. I have talked to businesses of all sizes, all 
across America and, of course, including my own in Maine. When 
people say it doesn't matter--because I've argued this issue on 
the Floor, and there's a lot of resistance to the notion of 
regulatory reform. Just in this state of California, 
regulations--just on the state level--cost $177 billion a year, 
or $493 billion, if you count the indirect costs. That's the 
equivalent of 3.8 million jobs in the state of California 
alone. So, then you combine state with federal. And think about 
the onerous burden that presents to businesses of all sizes 
across this country.
    That's why I hope you will use your voice and the force of 
the office on the whole issue of regulations, and to the 
President. I know that he's begun that effort most recently. 
But, we also have to do it here. But we have to do it in a big 
way, and it has to be consistent and coordinated. And we have 
to demand accountability from agencies.
    So, there's no one person in the offices of the Commerce 
Department who is tasked with analyzing and assessing the 
impact overall of these regulations on businesses. So, I would 
urge you to consider that, and to make sure that you drive that 
initiative, because it's so critically important.
    And, I hope that you will do everything that you can, Mr. 
Bryson, in that regard. And would that be one of your first 
initiatives that you'll present to the President?
    Mr. Bryson. Yes.
    Senator Snowe. You hope, right?
    Mr. Bryson. Yes. I mean, I've lived adverse regulation. In 
this power crisis in California, if you, if I took even a few 
steps on the respects in which it was driven to this crisis 
through bad regulation, you would be shocked. Excuse me.
    Senator Snowe. Mm-hm. Well, I appreciate that. And I 
applaud you, because I think that is going to be really 
important at a time that that voice needs to be heard here at 
the Federal level, and most especially, from the department 
that you will represent. So, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Snowe.
    Senator Rubio, and then I have one quick comment.
    Senator Rubio. OK. And I'll be brief, because I know a 
vote's been called.
    I just wanted to make a statement, or a comment, about 
something we discussed. And it's, and all my other concerns 
have been outlined here today in the questions and in the 
opening statements.
    But, just briefly, again, I hope something you will focus 
on, both of you will focus on, and that is the issue of our 
broken visa process that we have here in the country.
    Clearly, America needs to have immigration laws. We can't 
be the only country in the world that doesn't have them and 
doesn't enforce them. And, I'm fully supportive of that.
    On the other hand, it's important to note that our broken 
visa process is hurting our economy in multiple ways. 
Certainly, folks in the tourism industry will tell you that our 
market share in tourism is suffering from the inability to get 
folks to come here. I think people in business will tell you 
they're struggling to get buyers into their trade shows or into 
their warehouses and places of interest. Entrepreneurial--and 
we should be looking and actively searching for ways to bring 
entrepreneurs to this country to invest and create countries--
and create jobs. Certainly, folks in your home state, in 
California and in other places, will tell you that in the high-
tech industries they're having workforce issues.
    So, certainly, we have some deficiencies in the visa 
programs that I hope can be addressed from a pro-business 
perspective. And I hope that both of you will make that a 
priority in your time that--we discussed that.
    And, I just wanted to outline that, Mr. Chairman. Thank 
you.
    The Chairman. Thank you, Senator.
    I have to leave for a vote, or a series of votes.
    May I say, Mr. Bryson and Mr. Garcia. Particularly, Mr. 
Garcia--first of all, I apologize. I mean, you're worthy of 
7,412 different questions, and you didn't get one of them.
    Mr. Garcia. I don't take offense, Mr. Chairman.
    [Laughter.]
    The Chairman. Friendly questions. Mr. Bryson, I don't know 
what your schedule is, but I want to talk with you again. I 
want to talk with you one-on-one. Is that a possibility? Are 
you leaving town?
    Mr. Bryson. No. I'll stay in town through Thursday of this 
week, and if it would be helpful, I'll stay beyond that.
    The Chairman. That's great. So, let's work that out.
    Mr. Bryson. Thank you.
    The Chairman. In the meantime, Senator Kerry is back.
    Oh. Senator Klobuchar had a question.
    Senator Kerry, have you voted?
    Senator Kerry. No.
    Senator Klobuchar. I haven't voted either. I can vote and 
come back, though.
    The Chairman. It's going to be hard to vote and come back.
    All right. Which of you is more intense about asking a 
question?
    Senator Klobuchar. I could just do 2 minutes of questions, 
if you'd like me to.
    The Chairman. OK. Go ahead for 2 minutes.
    Then, John, you.
    Senator Klobuchar. OK.
    I actually have a question of you, Mr. Garcia. We have many 
workers that I think could do better if they were focused more 
on retraining in technical colleges and those kinds of things. 
Alexandria Tech in Minnesota has a 96 percent placement rate. 
And I think that our education system needs to adjust to this 
new economy, where it's not just your grandpa's Vo-Tech 
anymore, that, actually, people who are getting 2-year degrees 
are doing incredibly better than some people that are getting 
4-year degrees. And, that our high schools should be working 
better with the technical schools in terms of that focus.
    Could you comment on that, and how the Department of 
Commerce could help workers learn new skills when they get laid 
off, or there are less jobs in the industry that they're in?
    Mr. Garcia. Thank you, Senator.
    There is no question that we need more, but also better, 
jobs and a more skilled work force. The President has advocated 
the STEM program, advocating Science and Technology Education 
in this country. We need to educate the next generation of 
scientists, engineers, and others who are going to occupy these 
jobs that are critical to the advancement of this country's 
economy and sustaining that economy.
    So, there are a number of tools at Commerce that can be 
used. I intend to take advantage of all of those tools. And, 
like Mr. Bryson, my focus is going to be on jobs.
    Senator Klobuchar. Thank you.
    Mr. Bryson, I raised in my opening statement some questions 
about the international tourism issue. And, how committed are 
you to helping with this issue and pushing the State 
Department, and working collaboratively with them, as well as 
helping implement the Travel Promotion Act, over which the 
Commerce Department has jurisdiction?
    Mr. Bryson. I'm strongly, strongly in support of that. I 
mean, I commend you and the others with whom you've worked. 
But, I take it you've played a large role in that act.
    And it seems to me almost somewhat obvious that we've got 
to take that further. The revenues are so extraordinary. And we 
have----
    Senator Klobuchar. You're speaking like a businessman, Mr. 
Bryson.
    Mr. Bryson.--a beautiful country.
    Senator Klobuchar. That's good. Because we think that it is 
pretty obvious.
    Mr. Bryson. Yes.
    Senator Klobuchar. And, for some reason, we seem to be 
running into bureaucratic snags in getting it done.
    Mr. Bryson. I'm pleased that we're going to help out in the 
Commerce Department.
    Senator Klobuchar. OK. Very good. Very good.
    My last question would just be, broadband. The, I have 
found that in certain areas of our state, like northern 
Minnesota--beautiful resort areas--they're at a competitive 
disadvantage, because the resorts in Canada have more Internet 
access. So, of course, people are booking there instead of 
going to Grand Moray, or some of the beautiful communities on 
the north shore.
    And, could you just briefly talk--I know Senator Kerry has 
to get to the vote--about your commitment to the broadband 
expansion in this country?
    Mr. Bryson. A strong, strong commitment. I think it's 
essential. I think if we're going to be a country that gives 
opportunities to everybody, we need to get to the rural 
communities, we need to get to the smallest communities.
    The reality is that broadband already has become a huge 
location of commerce, and it will grow strikingly.
    Senator Klobuchar. Very good.
    Mr. Bryson. And, people in small communities deserve all 
that opportunity.
    Senator Klobuchar. That's correct. If they grew up in a 
small town, they should be able to stay there.
    Thank you very much, Mr. Chairman.
    Mr. Bryson. I know something about that.
    Senator Kerry [presiding]. Gentlemen, thanks a lot.
    Mr. Garcia, it's been a tough afternoon.
    Mr. Garcia. Yes, it's been rough.
    [Laughter.]
    Senator Kerry. I've been watching on the--but I suppose, 
since you're going to be the deputy, you can just say ``ditto'' 
to everything.
    [Laughter.]
    Senator Kerry. That's a good way to get through it.
    I've been listening, actually, back in my office, and I 
heard a number of my colleagues, particularly, secretary--
secretary--Senator Blunt and some others refer to tax rates, 
and to the lack of certainty. And I would say to my friends on 
the other side of the isle--there's nobody here now, obviously, 
and you don't have to answer this--but, it would help a lot to 
provide certainty if we could get a little less ideological 
rigidity, and get an agreement on the budget fast. I can't 
think of anything that would help more. And the idea of turning 
our heads on the experts' predictions that we need to get 
something like $4 trillion of savings--about $3 trillion out of 
policy and $1 trillion out of debt--and that everything they're 
talking about now fall shy of that, the idea that anybody's 
living up to a responsible challenge here, without revenue, is 
simply absurd.
    You don't have to comment on it. This isn't the Committee 
for that. But, I will say, as my colleagues talk about 
certainty--the certainty we could send to the marketplace if we 
got a deal that was reasonable and rational, as we did under 
President Reagan. When President Reagan, for whom Defense cuts 
were an anathema, agreed to have 50 percent of the 
sequestration come out of Defense, and 50 percent came out of 
entitlements and domestic discretionary. That's rational.
    What we're doing here, around here, right now is simply not 
rational, and I wish our colleagues were here, because I 
wouldn't hesitate to say this if they were. You can't do what 
we have to do for the country without revenue. Plain and 
simple. And we need to put it on the table and get it done, 
because your task is going to be 20 times harder if we're 
struggling to get this already fragile economy moving, and 
we're not investing in infrastructure--which hasn't been talked 
about here today. We're not investing in, the sort of the 
basics of our, to break that down, air control system, our 
rail, or transit, all these things that matter in getting 
products to the marketplace.
    So, I hope you're going to focus on those things 
significantly. There's a lot to talk about, and we have the 
votes on. It's tricky.
    The other thing I want to straighten out is, I'm kind of 
tired of hearing about the odorous tax rates that corporations 
are paying in America, when in fact they don't pay those rates. 
The effective tax rate in the United States among OECD 
countries--about 30 nations--is about 14 to 18--midway to less 
than midway. And I think people, you know, I mean, you know, 
John Adams said, ``Facts are stubborn things.'' But, people 
aren't entitled to their own facts. And a lot of folks around 
here in Washington keep making them up, or sticking with their 
own facts. And, it makes it very, very hard to proceed forward.
    Now, as I said earlier, there are a lot of issues that fall 
before this committee, and there are a lot of things--I wear 
the hat as the Chair of the Communications Technology 
Subcommittee, and we are working on privacy, and the whole 
information management issue, and there's a lot to talk to you 
about on that. But, I don't want to do that today. And I trust 
that we're going to do it.
    I do want to focus for a minute, if I can--I informed you I 
would do this. And it's an issue of enormous concern to us. 
Fishing in New England as a whole, from Maine all the way down 
through New York, is an old-time, long-standing way of making a 
living, and it's a huge part of our culture and history, and 
our tourism, and it's a big thing. We have two of the largest 
ports in the Nation for the landing of fish, in Gloucester and 
in New Bedford. And so, but, the relationship--under the Bush 
administration there were some excesses in terms of the 
regulatory process that are still not yet rectified completely.
    I want to give Gary Locke and his team credit, because they 
worked very hard with us. And Jane Lubchenco's worked hard in 
order to try to change this. And they've moved, and made a 
number of different steps to try to build the relationship and 
confidence of our fishermen. But, it is still fair to say we 
have a distance to travel.
    So, number one, I want to ask you, will you commit to 
coming up to our state, spend a day, half a day, whatever you 
can with us, to meet with our fishermen, bring people together, 
and listen to them, and help us work through--I think one of 
the best things we can do--Congressman Frank, Congressman 
Tierney, others, have proposed this also--that we create a task 
force that looks at the way in which regulations have been 
applied, and see if we can't find a better, more simple, more 
understandable, easier way of regulating the fisheries so that 
the fishermen have confidence that the decisions are being 
based on science, and common sense at the same time?
    Mr. Bryson. Yes.
    Senator Kerry. Good.
    Mr. Bryson. Yes.
    Senator Kerry. And we'd like to do that as soon as we can. 
I know you've got a lot of things to, you know, when you get 
sworn in, and, to get going on.
    The second thing is, would you be willing to establish, I 
guess under your own aegis, if you were to undertake to put 
together this task force--not just come and visit, but 
investigate both the economic and regulatory issues. One of the 
problems we've had is, the Governor submitted important data to 
the Secretary, and there are some difficulties in the 
regulatory interpretation. And I respect that. The law is the 
law. Maybe we have to change it. Maybe it doesn't, the law 
doesn't always make sense, as you know from law school and from 
practice. Maybe there are some things we could do, and we could 
work together to tweak it. And, I'd just like to get a 
commitment from you that we can really work to continue the 
process that Secretary Locke put in place, and make progress.
    Mr. Bryson. That sounds entirely sensible to me. Honestly, 
I'm afraid I don't know that process. But I will learn that 
process, and I will follow through.
    Senator Kerry. Believe me, you will.
    Mr. Bryson. I'm sure that's true.
    Senator Kerry. Well, I appreciate that enormously. And I've 
talked to you about a couple of other issues. Because we have 
the vote on, I need to get there and not keep the vote from 
being--the vote clock has expired, so I have to magically get 
there with no time left and cast my vote.
    So, you are, Secretary-designates and Under Secretary- 
designates, you are saved by the votes here in the U.S. Senate. 
And we look forward, and----
    Mr. Bryson. Yes.
    Senator Kerry.--if I had my way, I'd pass you right now all 
by myself. But I'm not allowed to do that. We'll look forward 
to getting you confirmed as rapidly as possible, both of you.
    And, Terry, we really appreciate your service and being 
willing to come onboard.
    Thank you very much, both of you.
    We stand adjourned.
    Mr. Bryson. Thank you.
    [Whereupon, at 4:35 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                             to John Bryson
    Question 1. Mr. Bryson, some have drawn a distinction between your 
record with Edison International and your environmental roots. Can you 
be clear about your position on coal as an American energy source?
    Answer. Coal is an abundant and domestically produced fuel that has 
been and remains an important energy source for the American people. It 
is also one that I invested in heavily as the CEO of Edison 
International; in fact, 40 percent of our energy came from domestic 
coal.

    Question 2. Mr. Bryson, small and rural businesses are the backbone 
of this country's economy and provide jobs for millions of Americans. 
Too often, however, they are overlooked by the agencies set up to 
support them. I believe that the Department of Commerce should focus on 
the businesses that have served Americans well and should help these 
businesses grow into the future. To this end, I am holding a Commerce 
Committee field hearing in West Virginia next week at which the 
Department will testify. What will you do to reach firms that may be 
reluctant to partner with the government or to take the initiative to 
start selling to overseas markets?
    Answer. Ninety-five percent of the world's potential customers are 
abroad, so selling overseas is imperative for many companies' growth. 
The Commerce Department must be clearer about the benefits of overseas 
markets to our small and rural businesses, and follow up with services 
to help them get there. This is about outreach and, if confirmed, I 
plan to impress upon Commerce's Export Assistance Centers nationwide 
the importance of touching all businesses with export potential, 
including the two centers in West Virginia that I understand do good 
work with local businesses there.

    Question 3. I have been impressed with Secretary Locke's 
CommerceConnect initiative to create ``One-Stop'' shops for businesses. 
I believe that this initiative could greatly assist manufacturers, many 
of which don't have the time to navigate a complicated bureaucracy. The 
initiative is just getting off the ground and needs continued support 
to succeed. Do you intend to continue this effort?
    Answer. Yes. I believe the CommerceConnect initiative can play an 
important role in this regard by helping cut through the red tape that 
is an obstacle to too many American businesses. Because they are 
physically in communities as well as available from anywhere in the 
U.S. via the website and hotline, CommerceConnect can be a good gateway 
to building relationships with businesses initially wary of working 
with government and in providing exporting services for rural 
businesses.
    If confirmed, I would hope to continue this valuable initiative 
begun under Secretary Locke, which I understand has helped hundreds of 
American companies already. I believe CommerceConnect has the potential 
to greatly assist small and medium-sized businesses to navigate the 
Federal bureaucracy and access the business solutions they need, as 
well as to connect with other state, local, and non-profit resources. 
We need to continue to assist American businesses, regardless of their 
size or geographic location, to cut through red tape and access 
services and programs that will help enable their businesses to grow.

    Question 4. When the Department of Commerce issued its privacy 
green paper last year, I was concerned that it did not go far enough. 
Most of online consumer data collection falls outside existing privacy 
laws. Consumers have been forced to rely upon promises made by 
companies and terms of service that are often difficult to understand. 
I believe that there should be baseline privacy laws to protect 
consumers. How should the government address the problem of privacy 
invasions online?
    Answer. I fully agree with you that there needs to be basic privacy 
protections in the commercial context for all American consumers. 
Privacy is a key ingredient for sustaining consumer trust, which in 
turn is critical to realize the full potential for innovation and the 
growth of the Internet. If confirmed, I look forward to working with 
Congress on legislation to protect consumers' interests and provide 
businesses clear and consistent rules of the road. I would also work 
with the FTC and FCC to ensure there are authorities granted to enforce 
the privacy obligations established by legislation.

    Question 5. I have introduced S. 913, the Do-Not-Track Online Act. 
It's a bill that allows consumers, with a simple click of the button, 
to tell online companies that they don't want their information 
collected; and obligates companies to honor that request. Do you agree 
with the idea of Do-Not-Track for online consumer privacy?
    Answer. I applaud your leadership to find a clear-cut solution to 
unwanted invasions of consumer online privacy. I believe the Commerce 
Department can play a pivotal role in implementing enforceable codes of 
conduct through a multi-stakeholder process. If confirmed, I intend to 
work with browser developers, Internet companies, standards 
organizations, privacy advocates, and others to provide options for 
greater control over personal information that may be used for online 
tracking.

    Question 6. Mr. Bryson, the Administration has been working on a 
plan, announced during the President's 2011 State of the Union Address, 
to make government not only more affordable, but also more competent 
and efficient. I've heard that this proposal, expected to be announced 
imminently, may involve overhauling the Department of Commerce and 
relocating the National Oceanic and Atmospheric Administration (NOAA).
    My priority as Chairman of the Commerce Committee is to make sure 
that NOAA's day-to-day performance stays on track, and I'm deeply 
concerned that a reorganization would divert attention from sustaining 
the core services it provides that are both strained--from the hard 
cuts it endured during the 2011 Fiscal Year budget debate- and 
critically-needed--made evident most recently during the severe storms 
and natural disasters of this spring. Do you think the White House has 
made sustaining NOAA services, such weather prediction and forecasting 
and the support of working waterfronts, a national priority? If 
confirmed, what will you do to make sure the crucial services NOAA 
provides aren't falling through the cracks?
    Answer. I have not been involved in discussions regarding potential 
government reorganization, and therefore can't speak to details of any 
plans. However, I do agree with the President that we need to reform 
our government to make it better organized and better equipped to 
support American competitiveness. It is my understanding that the 
Administration's first focus is looking at trade and exports to see how 
we can better re-organize these functions to give American companies a 
leg up in the global economy. Again, while I am not familiar with the 
details of the discussions, I am confident that the White House has 
NOAA's best interests in mind and will ensure that it continues to 
deliver important services and programs to the public. If confirmed, I 
look forward to working with NOAA to help them continue to provide 
their excellent services to the American people.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                              John Bryson
    Question 1. You did not much discuss the National Oceanic and 
Atmospheric Administration in your testimony but, as others have noted, 
it makes up approximately 60 percent of the Department of Commerce's 
budget and, given the breadth of its mandates, may occupy a significant 
amount of your time. Among the most important of NOAA's missions is the 
delivery of accurate weather and climate forecasts. This information 
impacts every sector of our economy, our national defense, and all of 
our daily lives. Underpinning this capability is a significant amount 
of observing infrastructure, including a fleet of geostationary and 
polar orbiting weather satellites. It is growth in the costs associated 
with maintaining and developing this satellite infrastructure that has 
largely driven the recent increases in NOAA's, and by extension the 
Department's, budgets. Unfortunately, the current FY11 appropriation 
does not include sufficient funding to support the timely development 
of the next generation of polar satellites, the Joint Polar Satellite 
System (JPSS), with the result that we are likely to face a significant 
degradation of weather forecast capability in 2016 for a period of 
eighteen months. Are you familiar with this issue? As Secretary, what 
steps are you prepared to take to ensure that we do not incur a longer 
gap in adequate satellite coverage than we already face?
    Answer. I am aware of the importance of the Department's role in 
the development and delivery of timely and accurate weather and climate 
forecasts. I am also keenly aware of the importance that these 
forecasts have on every sector of our economy and national defense. 
While I am not familiar with the details of the issues related to the 
NOAA satellite program, if confirmed, I intend to work with NOAA and 
with the Congress to take all necessary steps to ensure that these 
satellite acquisition programs are funded and effectively managed to 
achieve mission success.

    Question 2. Do you have thoughts on how the Department might 
improve its long term major acquisition strategy to mitigate the 
impacts of year to year variations in the political and economic 
environment on important infrastructure such as JPSS?
    Answer. With the role that the Department plays, from ensuring the 
safety of lives and protection of property to monitoring the recovery 
of the economy, an acquisition strategy should be in place to ensure 
that the processes and procedures are providing the public with the 
best service for its tax dollar. I understand Secretary Locke has 
conducted a detailed and thorough review of the Department's existing 
major acquisition strategy. I commit to continuing his work, if 
confirmed, to find the best ways to mitigate any funding fluctuations 
that could lead to instability in the Department's programs and result 
in diminished service to the American people.

    Question 3. I understand that the President intends to release his 
initial proposal for a reorganization of government capabilities this 
summer and that the makeup of the Department of Commerce may be 
significantly altered. I believe that NOAA plays an important role in 
the Department by serving as the Nation's premier operational science 
agency, generating unique products critical to the day to day 
functioning of our government and economy. Do you feel that the 
National Oceanic and Atmospheric Administration should remain a part of 
the Department of Commerce and, if not, do you have an opinion as to 
where it should reside?
    Answer. I believe that NOAA does vital work and look forward to 
helping to continue that legacy, if confirmed. It is my understanding 
that the Administration's first focus is looking at trade and exports 
to see how we can better re-organize these functions to give American 
companies a leg up in the global economy. While I am not familiar with 
the details of the discussions, I am sure that the White House has 
NOAA's best interests in mind and will ensure that it continues to 
deliver important services and programs to the public. If confirmed, I 
look forward to working with NOAA to help them continue to provide 
their excellent services to the American people.
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                              John Bryson
    Question 1. In light of the constrained budget environment 
affecting all agencies, it is important that decisions are made to 
increase cost-effectiveness. Some of the most important decisions that 
NOAA makes are with respect to the homeporting of its many research 
vessels and ensuring that the most cost-effective homeport is chosen. 
Given that temporary homeports can often lead to increased costs, do 
you believe that, when available, permanent, cost-effective solutions 
are the best option?
    Answer. I think that all key decisions, whether in the government 
or private sector, should take into account cost-effectiveness. I 
remember your concern about NOAA vessel homeport issues from our 
meeting; however, I am not yet familiar with the details of NOAA's 
vessel issues. If we are confirmed, I look forward to working with the 
Deputy Secretary nominee, Terry Garcia, to ensure all Department of 
Commerce facilities and assets are managed with a priority put on cost 
effectiveness in meeting NOAA's mission.

    Question 2. As Commerce Secretary, would you support the use of 
definable criteria in making decisions for the homeporting of vessels; 
specifically: feasibility, appropriate use of existing Federal 
facilities, and cost-effectiveness?
    Answer. I am not yet familiar with the process by which homeports 
for NOAA vessels are determined, but cost-effectiveness and the other 
considerations you outline in this question seem to me at least highly 
relevant to making home port decisions.

    Question 3. The United States has made tremendous, unparalleled 
progress in protecting endangered and threatened species. In the case 
of the U.S. pelagic long line, however, our unilateral species 
protection in an international fishery has contributed in part to the 
inability of the U.S. to catch a significant portion of its 
longstanding annual allocation of swordfish from ICCAT. This will 
inevitably result in the reallocation of the U.S. swordfish quota to 
other ICCAT countries whose species protection requirements fall far 
short of those imposed by the U.S. A reallocation to nations with weak, 
or nonexistent, protections for endangered and threatened species has 
significant economic and environmental ramifications. If confirmed, 
will commit to pursuing a more multilateral approach to protected 
species management? Please describe some steps you will take to 
minimize such reallocation at the ICCAT meeting this year.
    Answer. If confirmed, I pledge to work both bilaterally and 
multilaterally to help level the playing field so U.S. fishermen are 
not disadvantaged in the global seafood market. I am not yet familiar 
with the particular issues at hand in ICCAT, but, if confirmed, I look 
forward to working with you, the industry and NOAA to quickly become 
aware of the issues and ensure that NOAA's participation has our 
fishermen's best interests in mind.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              John Bryson
    Question 1. From the beginning, I have been an adamant opponent of 
relocating the Marine Operations Center-Pacific (MOC-P) from the Puget 
Sound to Newport, Oregon. For that reason alone, it has been extremely 
difficult to get information from the Department on the project. As a 
result, I demanded an Inspector General's report of NOAA's MOC-P 
acquisition. Have you read the Inspector General's Report? If not, you 
should carefully read and evaluate the Inspector General's report. It 
will give you insight in to some of the management challenges you will 
be facing at the Department and NOAA in particular. I am well aware of 
internal discussions about the utility of keeping a MOC-P presence in 
Seattle. I would be very supportive this effort. As secretary, will you 
consider maintaining a MOC-P presence in Seattle? I urge you to reach 
out to MOC-P personnel. As Secretary, I want you to hold a closed door 
meeting with NOAA MOC-P employees, without senior management. I want 
you to hear from NOAA employees themselves about the process of the 
move, the necessity of maintaining fleet and collaborative science 
presence in Seattle. Can you commit to meeting with NOAA employees in 
Seattle to discuss this important issue?
    Answer. If confirmed, I look forward to visiting NOAA employees and 
facilities around the country. I am unaware of the specifics issues 
that you raised regarding the Marine Operations Center Pacific; 
however, if confirmed, I will certainly familiarize myself with MOC-P, 
read and evaluate the Inspector General's report, and look into the 
issue further.

    Question 2. Vessel based research is an important component of 
NOAA's mission. Stock assessment surveys, large scale ocean 
acidification research, offshore critical habitat determination and 
global climate change research can only be completed using vessel based 
data collection. Fishing quotas in the North Pacific are based on stock 
assessment survey data: the more robust the data, the more confidence 
we have in the model. Without data, regional fishery management 
councils are forced to catch limits due to stock uncertainty. Cutting 
ship time will decrease stock data, which will decrease catch, net 
profit, and as a result jobs for Washington State fishermen. As 
Secretary of Commerce, how would you direct NOAA to restore ship time 
and protect fishing jobs in my state?
    Answer. If confirmed, I will work to support the requested 
resources for ship time and ensure that future requests put NOAA in the 
best position to support the fishing industry with current, high 
quality data. I will also work to ensure NOAA continues to plan the 
most efficient allocation of available resources to meet NOAA's highest 
priority ship observation needs.

    Question 3. Endangered southern resident orca research funding was 
cut, eliminating offshore vessel based surveys and inhibiting NOAA 
scientists from collecting data critical to the recovery of Orcas. As 
secretary, how will you work to restore ship time funding for critical 
programs such as orca research, stock assessment surveys and ocean 
acidification research?
    Answer. If confirmed, I will be a strong advocate for NOAA to have 
the best science on which to base its decisions. As you note, ship time 
to collect data and information about fisheries, orcas and ocean 
acidification is vital to ensuring NOAA's decisions are scientifically 
sound. If confirmed, I would work with Members of Congress, the 
fisheries community, academia, and others to promote and to 
continuously strengthen the excellence of NOAA's research and science 
efforts.

    Question 4. In addition to ship time funding, one of the roadblocks 
to maintaining vessel based research that much of the NOAA fleet, 
including the Miller Freeman. The Freeman conducts stock assessments in 
the Gulf of Alaska and is in need of critical repair, with no funding 
priority in sight. How will you work to restore the Freeman and 
maintain the NOAA fleet overall?
    Answer. Although I am not yet familiar with the budgetary issues 
regarding this particular vessel at this time, I understand that 
funding for ship time is necessary to facilitate NOAA's research and 
mission, and is very important to you and your constituents. If 
confirmed, I will work with the President and the Congress to support 
funding for essential fleet priorities.

    Question 5. Mr. Bryson, I have heard many scientists argue that we 
are still grappling with the core scientific questions that lie at the 
heart of the conflicts between Steller sea lions and fishermen in the 
North Pacific. After many millions of dollars spent on research, we 
still cannot definitively say to what extent fishing is impacting 
Steller sea lion populations. Under the Endangered Species Act, NMFS is 
required by law to arrive at an answer, but scientifically we still 
lack a fundamental understanding of the answer to that question with 
any certainty.

  <bullet> Please explain why a rigorous attempt at using a large scale 
        adaptive management approach has not been utilized in 
        implementation of the fishery no take zones in the Western 
        Aleutian Islands? NOAA has stated that an approach has been 
        attempted in the past, but scientists agree that the attempt 
        was poorly designed and poorly implemented.

  <bullet> As Secretary, can you commit to working with the North 
        Pacific Fishery Management Council and regional NMFS offices in 
        the Gulf of Alaska and Seattle to seriously consider 
        implementing an adaptive management approach, where the fishery 
        management regime is designed as a series of experimental 
        treatments with the explicit purpose of attempting to answer 
        some of the fundamental Steller sea lion questions?
    Answer. While I am not yet very knowledgeable about the particulars 
of this issue, I believe that NOAA's management of natural resources 
should be as adaptive and based on real-time information as is 
possible. If confirmed, I would encourage an approach whereby NOAA 
would work with scientists, resource users, academia, and other 
interested parties to explore the best and most practical mechanisms 
for gathering real-time data so that managers can change course if 
appropriate.

    Question 6. Mr. Bryson, the most recent Steller sea lion biological 
opinion is currently under a CIE independent review. While the 
reviewers will evaluate the background, introduction, and scientific 
study sections of the biological opinion, the CIE review panel is not 
permitted to review the recommendations for management. To put it 
simply, NMFS will not allow their conclusions to be reviewed.

  <bullet> What is the CIE panel? Where is it housed?

  <bullet> Who are the scientists sitting on this panel?

  <bullet> Who pays the salaries of those on the CIE panel?

  <bullet> Who pays the salaries panelists in their full time positions 
        (when panelists are not sitting on the panel)?

  <bullet> What is the involvement of the NOAA administration in this 
        panel? How much guidance is given to the panel? What specific 
        guidance has been given to the panel to date?

  <bullet> How are panelists selected for the CIE panel?

  <bullet> Do panel members represent the diverse science topics 
        covered in this report (movement ecology, life history, fishery 
        biologist, stock assessment specialists, habitat utilization 
        specialists, specifically GIS experts, orca biologists, baleen 
        whale biologists, predator collapse specialists, climate change 
        specialists)?

  <bullet> Please explain how this panel can represent a nonbiased 
        independent peer review of the complete biological opinion?

  <bullet> As Secretary, will you redirect the CIE panel to evaluate 
        the conclusions and management recommendations of this report? 
        Why or why not? If you will not allow the panel to review the 
        recommendations, please explain how you rationalize this 
        decision based on the Endangered Species Act and NOAA's 
        fundamental policies of scientific ethics.

  <bullet> As Secretary, can you commit to a fair, ethical, 
        independent, scientific peer review of the Steller sea lion 
        biological opinion?
    Answer. Unfortunately, I am not yet familiar with this issue, but 
if confirmed, I look forward to becoming versed in it as quickly as is 
reasonably possible. I have generally supported sound peer review 
processes and feel they can make important strides toward improving 
quality and trust in scientific judgments. If confirmed, I will ensure 
NOAA continues to work with you, other interested Members of Congress 
and their staff, and others on this important issue.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                              John Bryson
    Question 1. For decades, Federal agencies have only been permitted 
to propose regulations whose benefits exceed their costs. Many of your 
former colleagues in the power industry have touted the benefits of 
regulations. In a December 2010 letter to the editor of the Wall Street 
Journal, the CEOs of power companies, including PG&E, Calpine, PSEG, 
Exelon, and Constellation wrote, ``Contrary to the claims that the 
EPA's agenda will have negative economic consequences, our companies' 
experience complying with air quality regulations demonstrates that 
regulations can yield important economic benefits, including job 
creation, while maintaining reliability.'' Do you agree that the vast 
majority of government regulations yield great benefits for our economy 
and society?
    Answer. I believe that we can protect health and safety through 
sensible regulations while promoting job growth and innovation. As a 
former CEO, I know the challenges of complying with state and Federal 
regulatory requirements. Regulations need to be seen in terms of their 
cost, burden, and desired benefit. If confirmed, I look forward to 
taking a close look at all regulations within the Commerce Department--
supporting those that are beneficial to our economy and society, 
eliminating those that are neither, streamlining the regulation to the 
extent possible, and in all cases seeking to find paths to timely 
regulatory decisions for businesses operating under them.

    Question 2. We know that changes in ocean chemistry, caused by 
carbon dioxide, will affect our food supply and the health of our 
oceans. Yet research on ocean acidification is still in its infancy. I 
wrote a provision that became law in 2009 requiring NOAA to lead an 
inter-agency effort to study the effects of ocean acidification. How 
will you continue the Administration's commitment to better 
understanding and addressing this growing problem?
    Answer. If confirmed, I will support NOAA's continued instrumental 
role in understanding the impacts of ocean acidification and changes in 
ocean chemistry, and working to determine impacts on commercial fishery 
species and coral species. It is also important to continue to work 
closely with Federal agency, state government and academic partners to 
ensure that coastal communities have the best data available to make 
decisions.

    Question 3. The Magnuson-Stevens fisheries law sought to ensure 
healthy fish populations and keep the seafood industry sustainable and 
profitable. But there have been complaints about the quality of the 
data used to justify restrictions on fishing and the level of 
involvement of the fishermen who know the local waters best. Will you 
commit to using the highest-quality data to make fisheries management 
decisions and to improving cooperation with local fishermen?
    Answer. Yes. Using the best available science, including looking 
consistently to updates in that science, is essential to NOAA carrying 
out its responsibilities at the highest level. I understand that 
cooperative research offers an important opportunity to involve 
fishermen in NOAA's scientific efforts. If confirmed, I look forward to 
learning more about these efforts and ways to support NOAA's 
engagement.

    Question 4. Over eighteen years as CEO of Edison International, you 
helped that company become an energy efficiency innovation leader. 
Based on your experience, how can innovations that help the environment 
also help American businesses' bottom line?
    Answer. Innovations that help the environment can also help 
American businesses' bottom line and the economy. Investments in 
technology, for example, can both reduce cost over their lifetimes and 
help the environment. For example, Southern California Edison (SCE) 
made significant investments in energy efficiency. Those investments 
were made only if they resulted in lower costs over the lifetime of the 
investments for the customers than the costs which would have been 
incurred by other possible electric system investments to serve our 
customers.

    Question 5. The Patent and Trademark Office recently announced 
plans to open a Detroit office, and I understand it is looking to 
establish additional satellite offices to address the backlog of patent 
applications. In determining the location for these new satellite 
offices, what criteria do you believe the Patent and Trademark Office 
should take into account?
    Answer. I believe that the PTO should take into account the 
availability of a talented work force, proximity to research 
institutions and universities, and a significant level of patenting 
activity. It is my understanding that these criteria are being 
considered by the PTO in its deliberations on satellite offices.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                              John Bryson
    Question 1. As Secretary of Commerce your top priority should be to 
grow the economy and create jobs. What three job creation initiatives 
are at the top of your agenda?
    Answer. Job creation through economic growth will be my priority. 
While there is not a single solution, I believe three areas of vital 
importance are: (1) expanding goods and services exports through the 
National Export Initiative and ensuring a level playing field for 
American firms and workers, (2) fostering the American innovation that 
is a hallmark of our economy, and (3) working to enhance our 
manufacturing sector through initiatives like the Hollings 
Manufacturing Extension Partnership. If confirmed, I also intend to 
bring my own experience in business to reach out and ensure the views 
of the private sector inform policy decisions of the Administration as 
it focuses on its number one priority--job creation.

    Question 2. Many entrepreneurs in rural America want to start their 
own businesses and I am always looking for opportunities to support 
these new business owners. Earlier this year, I introduced the Small 
Business Savings Account bill (S. 364) to allow entrepreneurs to save 
money, tax free, so they can start a business. I have also introduced 
the American Opportunity Act (S. 256) to encourage angel investors and 
venture capital funds to invest in fast growing small businesses. 
Similar bills have been introduced in the House. Do you think tax 
incentives such as the Small Business Savings Account and American 
Opportunity Act can help small businesses succeed?
    Answer. I support enhancing small businesses and taking steps to 
help them grow and succeed. Small businesses need access to capital--be 
it their own or provided by others. I am not familiar with the 
specifics of your legislation to provide tax incentives, but, if 
confirmed, I look forward to discussing it with you further.

    Question 3. The National Broadband Plan concluded that, ``Broadband 
can provide significant benefits to the next generation of American 
entrepreneurs and small businesses-the engines of job creation and 
economic growth for the country.'' Connect Arkansas, Arkansas's 
statewide entity for broadband, has worked with small businesses in 
community outreach and education programs. As Secretary of Commerce, 
what will you do to expand broadband to rural America?
    Answer. Expanding broadband access and adoption in the United 
States will be a top priority for me, if confirmed, and the Department 
of Commerce. Broader Broadband access provides major benefits for the 
American economy and its communities, especially for small businesses 
and entrepreneurs in rural America--including enhancing job creation, 
education, health care, and public safety. The Department is already 
hard at work advancing broadband in America, overseeing more than $4 
billion in grants to expand broadband infrastructure, support public 
computer centers, promote broadband adoption, and support statewide 
broadband mapping and planning. I understand the Department has also 
worked closely with the Department of Agriculture's Rural Utilities 
Service, which likewise has been funding broadband projects in rural 
parts of the country, and is also working with other Federal agencies 
to identify 500 megahertz (MHz) of spectrum that can be repurposed for 
wireless broadband, which is crucial to meeting the needs of rural 
America. Indeed, this spectrum is likely essential to meeting the 
President's goal of providing high-speed wireless broadband to at least 
98 percent of all Americans within 5 years.

    Question 4. A popular belief is that the United States no longer 
needs to manufacture and can thrive exclusively as a center for design 
and innovation. As Secretary of Commerce, what will you do to 
strengthen American manufacturing? Is it realistic to advocate for new 
government spending to assist manufacturers at time of fiscal 
restraint?
    Answer. The ``invent it here, manufacture it there'' economic model 
is neither wise nor sustainable in my view. Maintaining a strong 
manufacturing presence in the U.S. supports our ability to innovate 
successfully for the future. And, our ability to innovate is tied to 
our ability to keep good manufacturing jobs in the United States. The 
manufacturing sector performs over two-thirds of private sector R&D and 
accounts for approximately 90 percent of patents, and 70 percent of 
engineering jobs. If confirmed, supporting the manufacturing sector of 
our economy will be a priority at the Department of Commerce.
    The President has proposed a framework for deficit reduction that 
puts the Nation on a path to live within our means so we can invest in 
our future--by cutting wasteful spending and making tough choices on 
some things we cannot afford, while keeping the investments we need to 
grow the economy and create jobs. Investing in technologies, such as 
information technology, biotechnology, and nanotechnology, will support 
new good jobs in the U.S. by helping manufacturers reduce cost, improve 
quality, and accelerate time to market for U.S. made products.

    Question 5. As part of the American COMPETES Reauthorization Act 
(P.L. 111-358), I had an amendment requiring the National Science and 
Technology Council to coordinate the advanced manufacturing research 
and development programs and activities of the Federal agencies and 
establish goals and priorities for advanced manufacturing research and 
development that will strengthen United States manufacturing. What 
should a national manufacturing strategy include and how should it be 
implemented?
    Answer. A strong domestic manufacturing base is vital to our 
security and economic strength. If confirmed, I would:

  <bullet> Promote innovation by making investments in research and 
        development a priority;

  <bullet> Redouble our efforts to increase exports of manufactured 
        goods through the National Export Initiative which is the 
        Administration's goal of doubling U.S. exports by the end of 
        2014;

  <bullet> Implement pending trade agreements, which would benefit U.S. 
        manufacturers;

  <bullet> Enforce our trade laws to ensure American firms can compete 
        fairly in the global marketplace;

  <bullet> Support the President's efforts to reform our corporate tax 
        code to ensure the United States remains an attractive place to 
        do business; and

  <bullet> Support initiatives like the Hollings Manufacturing 
        Extension Partnership (MEP) which help manufacturers become 
        more efficient and gain access to new markets.

    Question 6. Manufacturing jobs today require significantly more 
training and education than in the past. Both labor leaders and 
businesses recognize the need for a more educated and skilled workforce 
through better science, technology, engineering, and math (STEM) 
education. President Obama recently said colleges and universities need 
to better align student skills with the workforce needs of business. As 
Secretary of Commerce, what is your strategy for fixing the jobs 
mismatch between what skills schools teach and what companies need?
    Answer. As a member of the California Institute of Technology Board 
of Trustees, I understand first-hand how crucial STEM education is to 
America's future. Companies need these skills, and not enough students 
in the United States are mastering them. I believe the Commerce 
Department can play a role in this regard, particularly through bureaus 
like NIST, to inspire students to work toward the goal of contributing 
to scientific development in the public and private sectors. If 
confirmed, I would like to work with Education Secretary Arne Duncan to 
help relay this vital message, and be a voice for helping our students 
get the education today that is essential to our country's economic 
competitiveness in the future.

    Question 7. How might the Federal Government encourage increased 
funding for pre-competitive research by industry?
    Answer. Given the current budget environment, I think the approach 
taken by the President in the recently launched ``Advanced 
Manufacturing Partnership'' (AMP) is the correct one. The AMP is a 
national effort bringing together industry, universities, and the 
Federal Government to invest in the emerging technologies that will 
create high quality manufacturing jobs and enhance our global 
competitiveness. The U.S. Government has had a long history of 
partnership with companies and universities in developing and 
commercializing the new technologies that have been the foundation of 
our economic success-from the telephone, to the microwave, to the jet 
engine, to the Internet. The Commerce Department can play an important 
role in working with leading universities and companies to leverage 
Federal resources to help spur innovation. As I understand it, one of 
the initiatives highlighted in the President's announcement is a 
Commerce Department initiative that is aimed directly at the pre-
competitive research you mention--the development of an advanced 
manufacturing technology consortium to identify public/private 
partnerships to tackle barriers to the development of new products.

    Question 8. Many labor unions and businesses argue that certain 
countries, particularly China, engage in unfair trade practices, 
including currency manipulation. Critics assert that China artificially 
keeps its currency valued low, which has the effect of decreasing the 
price of goods produced in the country. If the United States believes 
that a country is manipulating its currency, what should be our policy 
with respect to getting that country to change its unfair trade 
practices?
    Answer. It is my understanding that the determination of whether a 
country manipulates the rate of its currency exchange is one that would 
be made by the Department of the Treasury. It also my understanding 
that it is a high priority for the Treasury, working through the G-20, 
the IMF and through direct bilateral discussions to encourage policies 
that will produce greater exchange rate flexibility.
    Commerce has the authority to administer the countervailing duty 
laws through a legal process. U.S. statute and established case law 
sets forth specific legal requirements that must be applied by Commerce 
in order to initiate an investigation of a subsidy allegation. If 
confirmed, I will work to ensure the integrity of our trade laws, and 
will uphold U.S. industries' right to relief by following the 
requirements of the U.S. law and our international obligations.

    Answer 9. The National Research Council reported that research, 
science and technology parks are a proven tool to encourage the 
formation of innovative high-technology companies. The America COMPETES 
Reauthorization Act authorized a new Regional Innovation Program to 
provide grants for regional clusters and science park planning and loan 
guarantees for science park construction. What is your view on the role 
science parks and regional clusters play in helping make America more 
competitive and increase domestic manufacturing?
    Answer. Like you, I believe that driving innovation and research is 
critical to driving economic growth in our country. I understand that 
EDA's direct experience with science parks has been very successful, 
especially in the area of small business development and growth. The 
bureau advocates Regional Innovation Clusters, which are a proven way 
to create jobs and grow the economy. They are geographic concentrations 
of firms and industries that do business with each other and have 
common needs for talent, technology, and infrastructure. Science parks 
are frequently an integral part of a regional cluster generating the 
research and innovation that supports the growth of entrepreneurs, 
small business, and job growth.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                              John Bryson
    Question 1. As you know, enforcement of trade law by Federal 
regulators has been sorely inadequate. According to a recent Government 
Accountability Office (GAO) report, the Federal Government has not been 
able to collect over $1 billion in antidumping and countervailing 
duties in the last decade. In Missouri, there have been several cases 
in which companies won their trade cases before the ITA and the ITC, 
only to find that lax enforcement continues to allow foreign companies 
to ship their goods into our country without paying required duties. 
The Senate Committee on Finance, Subcommittee on International Trade, 
Customs, and Global Competitiveness, under the leadership of Senator 
Wyden, recently issued a report that illustrates how easy and common it 
is for foreign suppliers to knowingly break the law and commit duty 
evasion. This is disheartening and harms American industry and workers. 
As Secretary, will you commit to making duty enforcement a top priority 
of the department? What steps will you take to do so?
    Answer. If confirmed, I will be committed to the strong enforcement 
of our trade remedy laws. U.S. companies and workers need a level 
playing field on which to compete. I understand that last August, in 
support of the National Export Initiative, the Commerce Department 
announced the Trade Law Enforcement Initiative to strengthen the 
administration of the antidumping and countervailing duty laws. 
Specifically, the initiative included 14 proposed measures to improve 
the effectiveness of the Commerce Department's enforcement tools 
through administrative and regulatory changes. I support this 
initiative, and hope to see it through to its completion.

    Question 2. Enforcement of trade law is the responsibility of 
Commerce, ICE, CBP, and the Department of Justice. Will you commit to 
aligning resources with these agencies to combat duty evasion and 
customs fraud?
    Answer. I would make enforcement of our trade laws a top priority, 
and will work closely with my counterparts in the Department of 
Homeland Security, including ICE and CBP, to optimize the use of our 
collective resources in order to combat duty evasion and customs fraud 
and hold those who violate our trade rules accountable.
    I have been informed that officials from the Commerce Department 
and Department of Homeland Security meet on a regular basis to discuss 
enforcement matters, both at the staff and senior levels, and that this 
on-going relationship has resulted in the sharing of information 
relevant to a number of antidumping and countervailing duty evasion 
issues. When a matter is referred to the Justice Department for 
potential prosecution, I understand that the Commerce Department 
provides technical information, when needed, to aid in the case.

    Question 3. Commerce is integral in trade promotion activities. How 
will you ensure that duty enforcement will be a part of Commerce's 
trade promotion activities?
    Answer. Efforts to enhance U.S. commercial competitiveness and 
maximize the potential of U.S. exporters can be undermined by unfair 
and illegal trade practices of governments and firms abroad. 
Enforcement is a key piece of the President's National Export 
Initiative, and I would make enforcement of the U.S. trade laws a 
priority if confirmed as Secretary.
    I understand that Commerce provides strong enforcement of the U.S. 
antidumping and countervailing duty laws, which provide U.S. industries 
and workers with a reliable mechanism to seek much needed relief from 
unfair trade practices. I also understand that Commerce is undertaking 
an effort to strengthen the administration of these laws with its Trade 
Law Enforcement Initiative. Additionally, I am aware that Commerce 
regularly advocates on behalf of U.S. companies whose exports become 
subject to foreign trade remedy actions overseas. These enhanced 
efforts to enforce U.S. unfair trade laws and the advocacy on behalf of 
U.S. exporters subject to foreign unfair trade practices directly 
address impediments to the competitiveness of U.S. producers, workers 
and exporters domestically and abroad.
    In short, if confirmed, I will work diligently to achieve that for 
U.S. businesses, workers, farmers and ranchers a level playing field on 
which to compete.

    Question 4. The GAO reported that Commerce was working to speed up 
the delivery of liquidation instructions to customs. Will you assure 
that this issue gets resolved in a timely manner?
    Answer. I am not yet well-versed in this matter, but if confirmed I 
will work to see to it that issues raised by the GAO are addressed and 
resolved in a timely manner, including enabling more accurate 
implementation of Commerce's antidumping and countervailing duty 
actions and quicker processing of liquidation instructions by Customs 
and Border Protection.

    Question 5. The U.S. Commercial Service has officers located in 
American embassies and consulates across the world. Will you commit to 
making Commercial Service resources available to other Federal 
agencies, such as ICE and CBP, to better coordinate enforcement of 
trade laws?
    Answer. The Commerce Department's International Trade 
Administration has an overseas network in U.S. Embassies and Consulates 
in over 75 countries. If confirmed, I will look into how we can best 
ensure that Commerce's overseas presence remains a vital component of 
the inter-agency effort to enforce our trade laws.

    Question 6. I am cosponsor of S. 1133, the Enforcing Orders and 
Reducing Customs Evasion Act, which authorizes information sharing 
among government agencies and speeds up the timeline to process 
allegations of duty evasion. Do you support this legislation? Why or 
why not?
    Answer. I am not yet familiar with this legislation. If confirmed, 
I will review it to better understand the details.

    Question 7. In the 111th Congress, I co-sponsored S. 1606, which 
required that foreign companies to establish a registered agent in the 
U.S. as a requirement to importing to U.S. markets. The registered 
agent would be held accountable under U.S. law. Do you support this 
approach? Why or why not?
    Answer. I am not familiar with this legislation. However, strong 
enforcement of the trade laws is a priority for me. If confirmed, I 
would consider recommendations from Congress and other interested 
stakeholders on additional steps we can take to improve enforcement of 
our trade laws.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              John Bryson
    Question 1. The Department of Commerce includes a diverse 
collection of agencies that work on everything from predicting the 
weather to issuing patents. The Department's over-arching mission, 
however, is to promote job creation and economic growth. That mission 
is more important than ever. As Secretary, how will you provide 
leadership to ensure that the Department of Commerce's diverse 
collection of agencies are all working to meet the needs of the people 
they serve?
    Answer. As you note, while the Department of Commerce contains many 
diverse agencies, the central mission of the Department is to support 
American business by promoting innovation, providing information, 
supporting economic development, and maintaining key infrastructure. 
All of these efforts are in support of economic growth and job 
creation. While each bureau in Commerce has its own unique mission, it 
is important that the Department find ways to create efficiencies 
across their operations. In my time at Edison International, I worked 
to break down silos and ensure that the different departments under my 
management worked together seamlessly. If confirmed, I will bring this 
experience to the Department of Commerce and work to make sure that all 
bureaus work together to support American business, particularly in 
areas where their missions overlap. I plan to meet regularly with 
Commerce bureau heads and promote effective working relationships 
across the Department. Our work must be directed toward providing 
services that help businesses grow, providing jobs and economic 
prosperity for all Americans.

    Question 2. Mr. Bryson, what have been the Department's most 
successful recent efforts to help job creation and economic growth? 
What are some of your thoughts for building on and improving on these 
efforts?
    Answer. I am reviewing the Department's current efforts. If 
confirmed, I pledge to build on the work begun by Secretary Locke to 
help more U.S. businesses, small, medium and large, break into new 
markets, as well as hold our trading partners accountable so they are 
giving American companies' products the same access in their markets as 
we give theirs. Our success will mean more jobs and more business 
investment.
    If America is to take advantage of the extraordinary talent of its 
people, we have to empower our entrepreneurs and innovators. Our 
innovative capacity is embodied in our people, whether working in 
Federal or university labs, companies, creative communities, or 
neighborhood garages. The better able we are to speed ideas from the 
drawing board to the market the more likely it is that America will be 
home to the well-paying jobs of the future.
    I want to build upon the efforts of the Commerce Department and 
this Administration as a whole to meet the needs of American 
businesses. Small- and medium-sized businesses account for the majority 
of American jobs. We need to make our services more accessible and 
easier to understand and use, and approach problem solving from a 
client's perspective. We must simplify and prioritize at a time of 
scarce resources. Promoting exports and capital formation, as well as 
being a voice for American businesses on the Administration's ongoing 
efforts to on regulatory and tax reform will be key areas on which I 
will focus if confirmed.
    There is important work the Commerce Department is doing to lay the 
foundation for job creating growth in areas vital to the U.S. economy, 
from fostering regional innovation clusters to extending high speed 
Internet to underserved areas, to working with industry to develop 
standards that will accelerate smart grid deployment, to developing and 
promoting trust, privacy and security practices necessary for current 
and future Internet-based business to thrive.
    Finally, improving the employment picture will also mean focusing 
on the vital work NOAA does in America's coastal communities.

    Question 3. Mr. Bryson, some Members of Congress believe you hold 
views related to global warming that make you unqualified to lead a 
Department with the primary mission of promoting job creation and 
economic growth. Do you believe that the need to address challenges 
such as global warming and energy independence can create opportunities 
for job creation and economic growth?
    Answer. I do. Edison International supplied energy to foster job 
creation and economic growth. At the same time, the company was working 
to reduce climate change risks and to enhance energy independence.

    Question 4. With your background in the energy sector and 
experience as CEO of the one of the Nation's largest utility companies, 
do you have experience creating clean energy jobs that are good for 
both our economy and our environment?
    Answer. If confirmed as Commerce Secretary, my top priority will be 
creating jobs by working with businesses to spur economic growth. That 
would include those businesses which are investing and innovating in 
ways that will both enhance the environment and provide clean energy 
jobs.
    As CEO of Edison International, in our California utility 
business--pursuant to mandates from the State--we became a national 
leader in purchasing power in competitive auctions from renewable 
energy companies. As a result of those auctions, the costs of those 
forms of energy--wind, solar, geothermal, biomass--came down and jobs 
were created. Further, in our Edison International competitive power 
generation business, we built in other locations around the U.S. wind 
power plants providing both jobs and diversifying our energy mix as a 
company. These clean energy developments and purchases were part of a 
highly diverse mix of power generation within the company.

    Question 5. When we talk about national unemployment levels 
hovering around 10 percent, we speak in terms of a jobs crisis. 
Unfortunately, there are parts of the United States where unemployment 
is much higher. Ten percent unemployment would actually be a good 
statistic compared to the levels of joblessness on many Indian 
reservations, where unemployment can rise to 50 percent. I am deeply 
concerned about the lack of economic opportunity for many Native 
Americans. Last year, the Department of Commerce did award several 
Recovery Act broadband grants to provide telecommunications 
infrastructure on Tribal lands that can serve as a platform for 
economic growth. Could you share some of your thoughts on the 
importance of addressing the unemployment crisis affecting many living 
on Tribal lands? How can the Department of Commerce better help promote 
job growth in economically distressed communities?
    Answer. We must pay as much attention to unemployment in Tribal 
lands as we do in other distressed communities. I am aware that 
Commerce's Economic Development Administration in particular focuses on 
promoting growth in economically distressed communities, and if 
confirmed I expect to be an ear for and advocate of businesses in every 
part of our country. If confirmed, I will ensure the EDA continues that 
focus--particularly with its work establishing Regional Innovation 
Clusters, through which geographic concentrations of firms and 
industries are bringing a new framework to economic development.

    Question 6. The work of Department of Commerce initiatives led by 
EDA, MEP and TAA for Firms is especially important to small businesses 
across the country. I would like to ask about how these efforts within 
the Department of Commerce can continue to serve the needs of 
entrepreneurs and small business owners. The Manufacturing Extension 
Partnership (MEP) program has local MEP centers in every state to help 
small manufacturers. This Committee passed American COMPETES 
legislation last year to reauthorize the MEP program. This year, we 
have also had hearings on the need to ensure a vibrant American 
manufacturing sector. MEP Centers, such as the one in my state, face 
challenges with cost share requirements that limit their ability to 
help some of the small firms that most need assistance. The MEP system 
has requested their cost share requirement be reduced to a 50/50 ratio 
consistent with all other Department of Commerce financial assistance 
programs. If confirmed, could you look into the issue of the MEP 
program's cost share requirements?
    Answer. If confirmed, I will look into the issue of the MEP 
program's cost share requirements and I look forward to discussing this 
issue with you further. I understand that the MEP program has been very 
successful, and I am committed to exploring ways to make it even more 
effective.

    Question 7. As you know, job creation is a top priority. The Senate 
is currently considering reauthorization of the Economic Development 
Administration (EDA). The EDA is an important agency to our immediate 
economic recovery and has always helped local governments plan for 
smart regional growth. In New Mexico, EDA projects have created 
approximately 4,200 jobs in the last 4 years. In the past 6 years, the 
EDA has funded 75 projects totaling over $37 million.
    And yet, as successful as the EDA has been, it has to evolve. 
That's why I was pleased to see the growth of programs like the i6 
Green Challenge that promote innovative ideas to drive technology 
commercialization and entrepreneurship in support of a green innovation 
economy. What outcomes for the i6 Green Challenge would you consider a 
success? Are there other green technology initiatives that you are 
developing?
    Answer. I am not prepared at this time to provide fully formulated 
views on the i6 Challenge, but I believe grant programs like the i6 
Challenge are important to help promote innovative ideas, economic 
growth and a green economy. Additionally, EDA administers the Global 
Climate Change Mitigation Incentive Fund, which promotes the concept 
that green versions of its traditional investments help advance the 
national green economy, which in turn contributes, to economic growth. 
If confirmed, I look forward to working with you and the Congress on 
these important issues.

    Question 8. The Department of Commerce administers the Trade 
Adjustment Assistance for Firms program, which helps American 
manufacturers that are directly impacted by imports and foreign 
competition. As Congress considers passage of new free trade 
agreements, I want to be sure that TAA for Workers and TAA for Firms 
are also reauthorized. Some of the type of assistance includes help 
implementing lean manufacturing, better marketing, and quality 
assurance. TAA for Firms has helped New Mexico manufacturers and a food 
company that specializes in products such as green chile. This type of 
assistance can help some of small manufactures not only adjust to 
competition but also take advantage of new business opportunities. As 
Secretary of Commerce, will you support TAA for Firms and other efforts 
to aid American small businesses?
    Answer. I believe we must provide for open markets abroad through 
Free Trade Agreements, while we maintain an open market in the United 
States. However, I do recognize that while trade creates jobs and 
economic growth, it may also result in dislocation. I think our goal 
should be providing help in the most flexible way possible to allow 
individuals, firms, and communities to transition to a better future. 
The Economic Development Administration also administers a grant 
program which is similar to the TAA program called the Economic 
Adjustment Assistance (EAA) program. EAA is flexible and provides a 
wide range of technical, planning, and public works and infrastructure 
assistance in regions that experience adverse economic changes that may 
occur suddenly or over time. The EAA program in particular, is 
authorized to provide assistance to communities injured by 
international trade and loss of manufacturing jobs. If confirmed, I 
look forward to working with you on this important issue.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                              John Bryson
    Question 1. Mr. Bryson, since Federal spectrum use is managed by 
the Department of Commerce through the National Telecommunications and 
Information Administration, you have an important role to play in 
meeting these goals. As you may know, the Commercial Spectrum 
Enhancement Act of 2004 established a process for relocating Federal 
agencies from spectrum and it provided for reimbursement for relocation 
costs. Last summer, Senator Wicker and I introduced bipartisan 
legislation to reform this process. Our bill makes the relocation 
process more predictable and transparent for both Federal agencies and 
potential bidders. The bill passed the Commerce Committee without 
objection last year. However, the Administration has raised concerns 
about the legislation, but has not provided alternative proposals or 
information regarding several outstanding issues.
    Will you commit to working through these concerns in a timely 
fashion so that this legislation can be considered as part of any 
spectrum package that provides additional funding to Federal agencies? 
I am concerned that without some level of process improvements, 
allowing Federal agencies to access planning funds in advance of a 
transition is not sufficient to ensure a workable process between the 
private sector and the government.
    Answer. I understand that we must optimize the efficient use of 
spectrum, including freeing up portions of the radio spectrum band that 
are currently used by Federal agencies, without jeopardizing the 
ability of Federal agencies to develop plans for and execute 
effectively their mission. If confirmed, one of my priorities will be 
to work to ensure that the National Telecommunications and Information 
Administration (NTIA), in conjunction with the Federal Communications 
Commission, meets the President's goal of identifying 500 MHz of 
commercial and Federal spectrum that can be reallocated for wireless 
broadband use over the next 10 years. I also believe that Federal 
agencies need the tools to rapidly relocate in the most responsible 
manner possible, including funding for upfront planning costs. I regret 
that I am not yet fully familiar with the specifics of your proposed 
legislation. If confirmed, I look forward to working with Congress and 
the Administration to implement process improvements which would ensure 
that Federal users can rapidly and responsibly relocate in order to 
achieve the President's goal of freeing spectrum for wireless broadband 
use.

    Question 2. Below are the specific concerns we have heard about:

    Question 2a. The bill would require Federal users to complete their 
relocation within 1 year after they start receiving their relocation 
funds. The Office of Management and Budget (OMB) is also provided with 
the authority to waive the deadline, if justified, on an annual basis 
without limitation. We are told the Administration believes that this 
deadline sets unreasonable expectations. However, I think we need to 
set some expectations--both for incoming commercial users and for the 
Federal users who must vacate the spectrum in a reasonable amount of 
time. Certainty regarding relocation timelines is important because it 
encourages commercial entities to bid on the spectrum in the first 
place and it holds Federal agencies accountable for the planning 
decisions they make relative to a scarce resource. I also note that 
since the Senate Commerce Committee recently approved legislation which 
provides Federal agencies access to the Spectrum Relocation Fund in the 
U.S. Treasury, to assist in making transition and spectrum sharing 
planning decisions, it is difficult to understand why taxpayers should 
not expect agencies to adhere to reasonable planning timelines. Do you 
believe Federal agencies should have to meet reasonable timelines for 
relocation? If not, why not?
    Answer. I believe that we must do everything we can to facilitate 
the rapid and responsible relocation of Federal users, including 
instituting reasonable timelines that properly account for the specific 
agency operations and missions upon which taxpayers rely. If confirmed, 
I am committed to working with NTIA and other Federal agencies to 
ensure that we move as aggressively as possible to achieve the 
President's goal of freeing up spectrum for wireless broadband use.

    Question 2b. The process in S. 522 provides for OMB to issue 
waivers, if justified, on an annual basis. Why does the Administration 
believe this process does not provide adequate flexibility for Federal 
agencies? Please be specific about agency or system concerns which have 
been raised with the National Telecommunications and Information 
Administration (NTIA), which is supposed to be managing all Federal 
spectrum users. If you believe an annual review process is too 
difficult for Federal agencies and for NTIA, please provide an 
alternative proposal for ensuring agencies will adhere to reasonable 
timelines in their relocation plans.
    Answer. This is certainly an important matter concerning Federal 
spectrum management. However, I am not yet sufficiently informed to 
provide a full answer to this question. As described above, I am 
committed to rapidly and responsibly relocating Federal users to free 
up additional spectrum for wireless broadband use.

    Question 2c. Another critical element of S. 522 is to encourage 
greater transparency in the relocation plans of Federal users who are 
vacating spectrum. The Warner-Wicker bill directs NTIA, in consultation 
with OMB and the Department of Defense, to adopt regulations within 180 
days of the bill's enactment to ensure publicly released information 
contains no sensitive or classified information. Both Senator Wicker 
and I are sensitive to concerns about appropriate protection of 
classified information, but we also believe the public should have 
reasonable knowledge of spectrum transition plans. What is the 
Administration's concern with this approach? Please be specific about 
any other recommendations for an alternative proposal regarding the 
scope of information the public can expect to receive.
    Answer. I believe that the public should have reasonable 
information regarding the agencies' intended transition plans while 
protecting information that is classified or otherwise legally excluded 
from public release. If confirmed, I will work closely with the NTIA 
and the Congress to ensure that we maximize the amount of information 
to the public while providing every appropriate protection for 
sensitive or classified information.

    Question 2d. The Administration has raised concerns about the 
bill's dispute resolution process, which would rely on a three-member 
dispute resolution board comprised of OMB (the chair), NTIA, and the 
FCC. I believe that establishing such a process is necessary to avoid 
the kind of years-long delay that in some instances accompanied prior 
reallocations. In the absence of such an entity, disputes are subject 
to often protracted negotiations with the affected agency rather than 
the review of impartial government experts. I am told the 
Administration does not believe the FCC should be part of the review 
process. As the entity responsible for oversight of commercial 
licensees, do you believe the FCC should be included in the dispute 
resolution process in order to avoid protracted disputes between 
licensees and current users? If not, why not?
    Answer. Again, I am not yet sufficiently well-informed to provide a 
direct answer to this question. If confirmed, I commit to developing 
that deeper understanding and I will work with Congress, the NTIA and 
the appropriate Federal agencies on the issue of dispute resolution to 
ensure that we can maintain and build on the strengths of the existing 
system while at the same time being open to adopting improvements.

    Question 2e. The bill also requires that a Federal entity's 
relocation plan must provide for sharing and coordination of eligible 
frequencies with commercial licensees during the transition period. 
Each plan must include a presumption that commercial licensees shall be 
able to use eligible frequencies during the transition period in 
geographic areas where the Federal entity does not utilize those 
frequencies. Many Federal users utilize spectrum only in discrete 
geographic areas of the country. I am concerned that leaving sharing 
wholly to the discretion of the Federal user is apt to result in no 
sharing during the process. Does the Administration oppose spectrum 
sharing during the relocation transition process in areas where it is 
possible to share spectrum without creating interference to the Federal 
user during this transition?
    Answer. If confirmed, the Department of Commerce under my 
leadership will continue to support efforts by commercial providers to 
use spectrum as soon as possible. I am committed to taking all 
appropriate steps to expedite the efficient and responsible relocation 
of Federal users to fulfill President Obama's goal of freeing 500 MHz 
of spectrum for wireless broadband use.

    Question 2f. The Administration has expressed concern that the 
Warner-Wicker bill does not permit Federal users to use money from the 
Spectrum Relocation Fund for upfront (pre-auction) planning and R&D. I 
would note that S. 911 which was recently favorably considered by the 
Committee expands the definition of costs eligible for reimbursement to 
include planning for potential or planned auction; and the costs of 
acquiring ``state-of-the-art'' replacement systems that may include 
``incidental increases in functionality,'' including those necessary to 
achieve security, reliability and resiliency. Do these provisions 
address this concern?
    Answer. I am not privy yet to the views of the Administration on 
this legislation. However, if confirmed, I will look into this matter 
and work with NTIA on matters which affect Federal users of spectrum.

    Question 2g. Does the Administration have any reason to believe the 
combination of access to forward-planning funding and process 
improvements for spectrum relocation will harm taxpayers or Federal 
agencies?
    Answer. I am not yet privy to the views or deliberations of the 
Administration or of the Department of Commerce on the specific 
spectrum relocation and am not yet sufficiently knowledgeable to 
provide a firm answer to this question. If confirmed, I pledge to work 
with the Congress to ensure that updates to spectrum laws and policy 
include consideration of funding for upfront planning costs and process 
improvement.

    Question 3. Nearly one year ago today, President Obama signed a 
Presidential memorandum that committed the Federal Government to a 
sustained effort aimed at making available 500 MHz of Federal and 
commercial spectrum over the next 10 years. It is clear that any 
realistic strategy targeted at meeting the broadband deployment 
objectives outlined by the Administration, Congress and the FCC must 
include additional licensed spectrum allocations below 3 GHz for 
commercial use. Unfortunately, to date NTIA has recommended that only 
15 MHz of spectrum below 3 GHz be reallocated for commercial use. This 
is clearly not enough to get the job done. If the Administration truly 
is serious about promoting commercial broadband deployment and 
stimulating the economy, then the FCC and NTIA have to focus on 
internationally-harmonized spectrum allocations of sufficient size for 
mobile broadband use.
    Among the government bands most often identified as ideal for 
reallocation is 1755-1850 MHz, particularly the portion of the band 
between 1755-1780 MHz. This spectrum is immediately adjacent to 
spectrum already used for commercial advanced wireless services and is 
allocated globally for this purpose. In the 2010 National Broadband 
Plan, the FCC called on NTIA to complete its evaluation of the 
prospects for reallocating this spectrum by October 2010, but NTIA is 
still conducting its evaluation. When can we expect that evaluation to 
be complete? What are the prospects for reallocating this spectrum by 
January 2014? If not, why not?
    Answer. It is my understanding that the Department, particularly 
the NTIA, has been hard at work implementing the President's goal of 
freeing up 500 MHz of spectrum for wireless broadband use. If 
confirmed, I will be committed to fulfilling the President's spectrum 
relocation goals as quickly and responsibly as possible.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                              John Bryson
    Question 1. Some lawmakers and the fishing industry in general have 
raised concerns with the nominee's past work with the Natural Resources 
Defense Council and actions taken by the Council since then. How does 
Mr. Bryson respond to these concerns?
    Answer. In my last year of law school, 1968-69, a small group of my 
classmates and I were drawn to try to use our developing skills to 
contribute to making our country cleaner and healthier, founding the 
Natural Resources Defense Council (NRDC). I have not been involved with 
the Natural Resources Defense Council's policymaking or decisions for 
37 years. A lot has happened in the decades since I helped found this 
organization. I practiced law and headed two independent state 
agencies: California's Water Resources Control Board and its utilities 
commission. In 1984, I joined Southern California Edison (SCE). Six 
years later, I was made SCE's and its parent company's, Edison 
International, Chairman and CEO. In nearly two decades as CEO, I did 
what was right for our customers and shareholders, not the NRDC. If 
confirmed as Commerce Secretary, I'll do what's right for a new set of 
shareholders--the American people.

    Question 2. In Alaska, our fishing fleets understand that to remain 
a viable industry in the long-term, we have to manage the resource with 
an eye to the future. While catching more fish today can bring short-
term jobs and profits, there can also be a long-term economic cost. How 
do you plan to balance the need for jobs today with the desire for our 
fishing industries to be a viable, sustainable provider of jobs over 
the long-haul?
    Answer. NOAA and the fishing industry share a goal of ensuring 
there is a healthy and sustainable fishing industry in the future. To 
ensure such an industry exists, we must work together to ensure that 
the resources on which the fishing industry depends are healthy and 
used sustainably. Constant improvements to fisheries science are needed 
to ensure that fishing communities get the greatest fishing opportunity 
possible within sustainable levels. If confirmed, I will work 
diligently with NOAA to ensure that NMFS' actions are based on the best 
available science so that we keep and create as many jobs as possible 
in the industry.

    Question 3. When fishermen ask to consider the ``economic impacts'' 
of NOAA's regulatory actions and fishing restrictions, what economic 
time-frame do you think is most important? The short-term or the long-
term?
    Answer. Fishermen need to be able to fish now to sustain the needs 
of their families and they need to know that they can invest in and 
rely upon a secure fishing future as well, so both time frames must be 
taken carefully into account in making NOAA's important judgments.

    Question 4. The Magnuson-Stevens Act reauthorization in 2006 
included several important provisions which were intended to eliminate 
overfishing and improve overall fisheries management. While much 
progress has been made, NOAA has struggled to meet these requirements 
in some areas. Recreational interests complain this has resulted in 
considerable hardship for their businesses. What can be done to address 
these issues to allow the agency to fulfill its obligations as 
envisioned by Congress without unnecessarily taking the public off the 
water?
    Answer. It is important that NOAA carry out its Magnuson-Stevens 
Act responsibilities based on sound science and sound exercise of 
judgment to sustain healthy fish stocks and a healthy and profitable 
fishing industry. If confirmed, I will ensure NOAA invests its 
resources in a manner that fulfills its obligations and sustains our 
Nation's commercial and recreational fishing businesses.

    Question 5. How will the Commerce Department improve relationships 
in rural areas when some may feel overlooked in these constrained 
budget times?
    Answer. A healthy American economy depends on a prosperous rural 
America. Rural America is the main source of our food and water, and 
plays an increasingly important role in moving toward greater energy 
independence for our country by supporting a growing clean energy 
industry. But today, too many rural areas suffer from lower incomes and 
higher poverty rates than the rest of the country. To win the future 
for our nation, we need to help strengthen economies in rural America.
    If confirmed, I will participate in the President's efforts to 
address rural challenges. I understand that the President recently 
issued an Executive Order creating a White House Rural Council. If 
confirmed, I will participate with an eye toward job creation and 
ensuring Federal investments in rural communities create maximum 
benefit for Americans in rural communities.

    Question 6. How will the Commerce Department work with Tribal 
Nations to improve economic stability and trade with foreign nations?
    Answer. Sovereign Indian nations have an important ability to 
attract and facilitate trade and tourism with foreign nations. If 
confirmed, I will work to ensure the Department of Commerce continues 
to utilize the regional resources of the International Trade 
Administration to expose Native producers to foreign markets, leverage 
foreign trade zones, and create introductions between foreign trade 
opportunities and Native businesses with events both here in the U.S. 
and in foreign countries. The Minority Business Development Agency 
Minority Enterprise Centers and Native American Business Enterprise 
Center offices help these Native businesses scale to capacities and 
access to capital. The export of Native American cultural arts and 
crafts can be directly correlated to tourism, in turn drawing 
international tourists to Native American Indian Reservations for 
cultural, entertainment and hospitality, and experiencing all that 
these reservations have to offer. Bringing these ``outside'' dollars 
into Indian Country is key to growing and stabilizing their local 
economies.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                              John Bryson
    Question 1. The American manufacturing sector, like the rest of the 
American economy, was hit hard by the latest recession. But as a result 
of a confluence of events, U.S. manufacturers have been on an uneven 
playing field when it comes to competing with the rest of the world 
since before the recent economic downturn. Specifically, rising health 
care and energy costs, compliance with myriad regulations, and high 
tort litigation costs are placing American manufacturers at a strong 
disadvantage. As an anecdote, the U.S. corporate tax rate remains by 
and large unchanged over the past two decades, while major competitors 
have lowered theirs. These so called external costs, according to the 
National Association of Manufacturers (NAM), have resulted in a nearly 
18 percent disadvantage for U.S. manufacturing firms when compared with 
similar costs for nine of America's major trading partners. It is no 
wonder, then, that manufacturing in May grew at the slowest pace in 20 
months, and it has lost over six million jobs--or roughly one-third of 
its employment--over the past decade.
    Despite these challenges, there can be no doubt that manufacturing 
is essential to our Nation's future. In 2008, U.S. manufacturing 
generated $1.64 trillion worth of goods, meaning that if it were a 
country, it would be the eighth largest economy in the world. 
Furthermore, the United States is the world's largest manufacturing 
economy, as it produces 21 percent of all global manufactured products. 
American manufacturing is responsible for 12 million American jobs 
directly, and another 6.6 million indirectly, for a total of one in six 
private sector jobs. And U.S. manufacturing employees have notably 
higher annual earnings and are recognized as the most productive 
workers in the world. According to the Manufacturers Association of 
Maine, workers in my home state's manufacturing sector earn almost 
$1,000 per month more than their counterparts in other sectors, and 
they have increased output per employee by 66 percent over the past 8 
years--from $60,000 in 2001 to $89,000 in 2009.
    If confirmed, what specific steps will you take as Secretary of 
Commerce to strengthen the position of American manufacturers in the 
global economy, so that they can create jobs and opportunity here at 
home?
    Answer. Without a doubt, domestic manufacturing production is 
vitally important to the United States and our economy. The 
manufacturing sector continues to be a key driver of economic 
productivity--generating 11 percent of total U.S. GDP, contributing 86 
percent of all U.S. merchandise exports, and employing over 11 million 
American workers at wages that are 22 percent higher than average 
compensation. If confirmed, I will pursue several initiatives as 
Secretary to enable domestic manufacturers to grow and be more 
competitive.
    First, I will focus on expanding exports of U.S. goods and services 
through the National Export Initiative with a goal of doubling our 
exports by the end of 2014. To accomplish this goal, we must enforce 
our trade laws to provide a fair and level playing field for U.S. firms 
and workers, as well as maximize opportunities to expand market access 
abroad for U.S. manufacturers through direct advocacy and removing 
barriers to trade. Further, we must implement the pending trade 
agreements with Panama, Colombia and South Korea, which will benefit 
U.S. manufacturers and workers. Under the leadership of President Obama 
and Secretary Locke, the Commerce Department has achieved progress on 
these efforts and, if confirmed, I will continue to make exports a high 
priority of the Department.
    Second, I believe the Commerce Department must prioritize key 
investments in programs that enable manufacturers to be more innovative 
at home and competitive abroad. The President believes in making 
investments that we need to grow the economy and create jobs, such as 
investments in advanced technologies that will provide U.S. 
manufacturers with the cutting edge tools they need to compete against 
countries like China. These technologies can both revitalize existing 
manufacturing industries and support the development of new products in 
emerging industries. For example, I understand that the Department's 
FY2012 budget proposes new investments for research and development at 
NIST to help create industries and jobs of the future in areas such as 
clean energy, advanced manufacturing and nanotechnology. Further, the 
budget request calls for an increase in funding for the Hollings' 
Manufacturing Extension Partnership which helps firms make their 
manufacturing process more efficient and gain access in new markets. If 
confirmed, I will place a priority on programs in the Commerce 
Department that benefit American manufacturers and work with Congress 
to approve needed funding.
    Finally, if confirmed, I will advocate for President Obama's 
initiatives to reform our corporate tax code and eliminate or modernize 
outdated Federal regulations, both of which will benefit U.S. 
manufacturers. I believe President Obama's call to achieve corporate 
tax reform that lowers the corporate tax rate without increasing the 
deficit by closing special interest loopholes and his proposal to 
expand and make permanent the Research and Experimentation Tax Credit 
will provide a boost to our economy. Further, I believe we should 
review existing Federal regulations to eliminate unneeded and 
unnecessary burdens on businesses which will enable U.S. firms to be 
more competitive in the global marketplace.
    I am optimistic about the future of manufacturing in the United 
States. I believe the marketplace provides many opportunities for U.S. 
manufacturing firms both today and in the future. The Commerce 
Department is an important partner in helping domestic manufacturers 
achieve success. If confirmed, I would look forward to working closely 
with you and your colleagues in Congress to implement policies and 
reforms that help U.S. manufacturers to compete and succeed.

    Question 2. Additionally, the Manufacturing Extension Partnership 
(MEP) is a successful public-private partnership housed at the 
Department of Commerce that assists small- and medium-sized 
manufacturers with technical assistance projects, training, and long-
term strategic support. However, because of the current cost-share 
structure, MEP centers face a two-thirds match requirement after the 
third year of operation. That means that for every dollar a state MEP 
center receives, it must match that dollar with an additional two 
dollars.
    While it has always been a difficult burden in the past for MEP 
centers to satisfy the high cost share requirements, it is even more 
difficult now in this trying economy. This leaves MEP centers spending 
an increasing amount of time fundraising and less time focused on 
providing services to America's small manufacturers. That is why I 
introduced legislation last Congress to reduce the requirement to 50 
percent, a much-needed step that will provide relief to these centers 
that have a significant impact in aiding thousands of small and medium 
sized manufacturers nationwide. While this legislation did not pass, 
the America COMPETES Reauthorization Act contains a provision I helped 
craft requiring the Government Accountability Office (GAO) to report on 
changes to the cost-share requirement within 90 days of the bill's 
passage, given the timeliness of the issue.
    In the MEP's July 2010 report titled ``Renewing the U.S. Commitment 
to a Strong Manufacturing Base,'' one of the ways listed to ``leverage 
and maximize the Federal investment'' in the program is reducing the 
cost-share requirement. Additionally, the aforementioned GAO report 
offered ``factors for consideration'' for the Secretary of Commerce to 
employ when making this statutorily required change. Will you, if 
confirmed as Secretary of Commerce, commit to working with me and my 
colleagues to reduce the MEP's cost-share requirement?
    Answer. If confirmed, I will put a priority on looking into the 
issue of the Manufacturing Extension Partnership program's cost share 
requirements. I do not know enough about this issue, at this time, to 
commit now to reducing those cost-share requirements. However, if 
confirmed, I do commit to getting back to you and others on the 
Committee with what I find and believe to be practically possible with 
respect to this issue.

    Question 3. Manufacturers and workers in trade-sensitive 
industries--such as paper production in Maine--feel that the Yuan is 
significantly undervalued, making Chinese imports artificially cheaper 
vis-a-vis competing U.S. goods. As a result, according to the 
independent Economic Policy Institute, since China joined the WTO in 
2001, 2.4 million jobs have been lost or displaced in the U.S.--
including nearly 10,000 in my home state, which has been absolutely 
devastating. For years I have been concerned that the Treasury and 
Commerce Departments have refused to investigate the undervaluation of 
foreign currency.
    In 2006 and again in 2007, Federal Reserve Chairman Ben Bernanke 
took the position that China's currency manipulation provides ``an 
effective subsidy for Chinese exporters.'' Do you generally agree with 
this statement? Do you think it's worth having our government at least 
look into this question and determine whether or not cases of currency 
undervaluation violate WTO rules?
    Answer. It is my understanding that the Department of the Treasury 
considers on a semiannual basis whether a country should be deemed a 
currency manipulator. It also my understanding that it is a high 
priority for the Treasury, working through the G-20, the IMF and 
through direct bilateral discussions to encourage policies that will 
produce greater exchange rate flexibility.
    The Commerce Department must evaluate all subsidy allegations 
separately according to the evidence presented as part of its quasi-
judicial process. If confirmed, I will promote the strong enforcement 
of our trade laws, including the U.S. antidumping and countervailing 
duty laws.

    Question 4. To date the Commerce Department--which regularly 
investigates and imposes tariffs on imported products that benefit from 
foreign government subsidies in violation of our trade rules--has 
refused to even initiate an investigation into whether China's currency 
practices constitute an illegal export subsidy. In February, I 
introduced S. 328, the ``Currency Reform for Fair Trade Act'' to 
require Commerce to at least initiate an investigation--on a case by 
case basis--into whether currency undervaluation constitutes a 
prohibited export subsidy. My bill mirrors legislation (H.R. 2378) that 
passed the House last September by broad, bipartisan margins. Do you 
support this approach?
    Answer. I regret that I am not yet familiar with your legislation. 
However, strong enforcement of the trade laws is a priority for me, and 
if confirmed, I would look forward to the opportunity to discuss this 
issue with you and learn more about it.

    Question 5. The U.S. has run an advanced technology deficit every 
month since June 2002, meaning we consistently import more advanced 
technology than we export. For 2010, our advanced technology deficit 
totaled an astounding $80.8 billion. And one of the most significant 
technology gaps related to this deficit is with information and 
communications technologies (ICT)--for the month of April 2011 alone, 
we imported over $9 billion more in ICT products and services than we 
exported.
    This deficit weakens the Nation's 21st Century high-tech job 
market, the long term health of our economy, and our ability to remain 
competitive globally. For example, the Bureau of Labor Statistics 
estimates that employment in Computer and Electronic Product sector is 
expected to decline 19 percent over the 2008-2018 period.
    Also, the National Science Board's 2010 Digest on Key Science and 
Engineering Indicators noted that while the ``United States holds a 
preeminent position in science and engineering . . . Many other nations 
have increased their R&D and education spending. This trend will 
challenge the world leadership role of the United States.'' As 
evidence, while our country's investment in R&D has grown at an annual 
rate of about 6 percent between 1996 and 2007, China's R&D investment 
grew by over 20 percent annually during the same time. But most 
critical is the fact that investment in basic research has notably 
declined over the past decade--Federal Reserve Chairman Ben Bernanke 
recently voiced his concern about the downward trend and its impact on 
economic growth.
    Given that part of the Commerce Department's mission is to foster 
innovation and spur research and development (R&D) investment to create 
jobs and enhance economic development, what specific efforts would you 
implement as Commerce Secretary to reverse these trends? This is 
critical, because addressing these deficits would mean, in the long-
term, more high-tech jobs and a more stable economy, which is vital to 
maintaining our competitiveness in this global economy.
    Answer. Given the current budget environment, I think the approach 
taken by the President in the recently launched ``Advanced 
Manufacturing Partnership'' (AMP) is the correct one. The AMP is a 
national effort bringing together industry, universities, and the 
Federal Government to invest in the emerging technologies that will 
create high quality manufacturing jobs and enhance our global 
competitiveness. The U.S. Government has had a long history of 
partnership with companies and universities in developing and 
commercializing the new technologies that have been the foundation of 
our economic success--from the telephone, to the microwave, to the jet 
engine, to the Internet. The Commerce Department can play an important 
role in working with leading universities and companies to leverage 
Federal resources to help spur innovation. As I understand it, one of 
the initiatives highlighted in the President's announcement is a 
Commerce Department initiative that is aimed directly at research and 
development--the development of an advanced manufacturing technology 
consortium to identify public/private partnerships to tackle barriers 
to the development of new products.

    Question 6. As you know, I am the Ranking Member of the 
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard. 
Commercial fishing interests are committed participants in Maine's 
marine resource management, and critical to my state's economic 
success.
    Leading fisheries scientists agree that U.S. fishermen, subject to 
the Magnuson-Stevens Act, are among the most heavily regulated in the 
world. As a result, depleted resources are rebuilding, but not without 
economic costs in the interim. In Maine alone, 23 percent of the crew 
positions in the groundfish fishery have been lost. NOAA reports that 
revenues are up, but clearly our work is not yet complete.
    Recently, NOAA issued an independent report reviewing the New 
England Management Process, which concluded that ``many industry 
members feel that NMFS no longer has any focus on economic growth of 
the industry.'' The Department of Commerce's mission is to promote 
economic growth, while a key mission of its largest agency, the 
National Oceanic and Atmospheric Administration, is the conservation 
and management of marine resources.
    How would you address the concerns of the fishing industry, who 
believe that the Department of Commerce has worked against them rather 
than worked to support them? How do you propose to reconcile these 
distinct and potentially conflicting missions in order to create jobs 
in the seafood supply chain?
    Answer. In the meetings I have had with you and with other Senators 
from New England, I have learned that there is great concern about 
conflicts between maintaining the traditional commercial fishing base 
and heritage in the region and what NOAA, based on its considerable 
scientific research, believes is necessary to sustaining the fishery 
base there in the years and decades ahead. Despite this conflict, as I 
understand it, both NOAA and the fishing industry share a goal of 
ensuring there is a healthy and sustainable fishing industry both in 
the near term and in the decades ahead. If confirmed, I will work with 
NOAA to support the seafood industry and supply chain. I would look 
forward to working with you, the Committee, and NOAA to explore options 
to promote U.S. seafood through activities such as aquaculture 
development, U.S. seafood trade promotion, cooperative research for 
fisheries management, and fighting seafood fraud.

    Question 7. Mr. Bryson, the iconic groundfish fleet in Maine has 
had a difficult transition this year to a catch share program--the 
sector management system--where groups of fishermen have been allocated 
a certain amount of fish to harvest as a group. While there have been 
some positive signs from the first year of this dramatic regime shift, 
there is still a great deal of work to be done in order to make this 
system more efficient and cost-effective.
    Of particular concern to the sectors based in Maine is the high 
cost of at-sea monitoring. Monitoring is critical for accurate 
assessment and enforcement, but as the program is currently 
administered by the National Marine Fisheries Service, it is also very 
expensive. Fishermen in the New England Sector program may have to pay 
as much as double the cost for at-sea monitoring on the west coast due 
to differences in the way the fisheries are prosecuted. In 2012, the 
New England fleet will have to absorb this expense if Federal resources 
are unavailable and vessel owners are concerned that this cost will be 
too much to bear.
    In this difficult fiscal climate, I hope that, if you are 
confirmed, your leadership of the Department of Commerce will include 
finding creative solutions to reduce costs imposed on the private 
sector by our regulatory system so that businesses can thrive. The 
fishermen in Maine are thinking ahead, and are participating in the 
development of electronic monitoring tools to eliminate the need for 
human observers.
    Given the high costs that are often associated with meeting 
regulatory requirements, how would you foster and support this type of 
innovative, cost-saving technology, in heavily-regulated industries 
such as the fishing industry?
    Answer. Throughout my business career, I have supported searching 
out innovative, cost saving technology and adopting the most effective 
delivery practices to bring the excellent service and products to 
customers and the public. If confirmed, I look forward to working with 
NOAA to see where they can successfully bring those concepts to the 
struggling fishing industry. I also would look forward to working with 
the fishing industry, you, and the Committee to hear ideas in this 
area.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim DeMint to 
                              John Bryson
    Question 1. Mr. Bryson, in your prepared statement, you write, 
``The American people expect their government to do more with less.'' 
The President's 2012 budget request for the Commerce Department--
excluding the Census Bureau and Patent and Trademark Office (PTO)--is 
more than 20 percent higher than 2009 enacted levels. If confirmed, 
will you commit to delivering a budget request to this committee next 
year that reduces FY13 Department of Commerce spending, not including 
the Census Bureau and PTO, to FY09 levels? What specific cuts will you 
make?
    Answer. As you know, work has already begun on the FY13 budget. I 
look forward to being confirmed as soon as possible so I can 
immediately engage in that process. I am very committed to reducing 
expenditures; however, I would like to be able to take a deep look at 
the budget before I provide specific examples on where cuts should be 
made. I will be happy to discuss Commerce's budget with you further if 
I am confirmed.

    Question 2. In your prepared statement, you write, ``I'm committed 
to helping simplify regulations that are difficult to understand, 
eliminate regulations that are ineffective and speed up regulatory 
decisions so American businesses can have the certainty they need.'' Do 
you have any specific examples of regulations within the Department of 
Commerce's jurisdiction that you will eliminate? If not, will you 
commit to providing such examples to this committee within 90 days, if 
you are confirmed?
    Answer. Yes, if confirmed, I will provide the Committee examples 
within 90 days. As a former utility company executive, I am familiar 
with the complexities and challenges of complying with a myriad of 
state and Federal regulatory requirements. I agree with the President 
that Federal agencies need to review existing regulations and modernize 
or eliminate regulations which are outdated. I believe we can fulfill 
our responsibility to protect health and safety while promoting job 
growth and innovation. If confirmed, I will work to ensure the Commerce 
Department lives up to this directive. Moreover, I will be a voice in 
the Administration for simplifying regulations that are difficult to 
understand and eliminating regulations that are unnecessary.
    As you know, regulations promulgated by the Commerce Department are 
largely on export control items within the Bureau of Industry and 
Security and fishery regulations issued by NOAA and written, in 
accordance with the Magnuson-Stevens Act, in conjunction with the 
regional fishery management councils. I understand that these 
regulations are under review and I was pleased to learn that the 
Commerce Department's Bureau of Industry and Security (BIS) is working 
to streamline their regulatory processes in order to strengthen our 
national security and make American companies more competitive abroad. 
If confirmed, I will work to ensure all bureaus in the Department of 
Commerce are taking steps to minimize their regulatory burden without 
undermining their responsibility to safeguard the health and safety of 
the American people.

    Question 3. You mention President Obama's goal of doubling U.S. 
exports by the end of 2014. There is much talk about the benefits 
awaiting our economy and citizens upon passage or extension of Free 
Trade Agreements and Preferences, including those with Korea, Panama, 
and Colombia. In fact, the President himself says these agreements will 
create jobs in America. Unfortunately, his administration is holding 
these deals and their economic benefits hostage in order to further 
expand the welfare state, in this case through a massively expanded 
Trade Adjustment Assistance program. Do you believe more trade 
necessitates more welfare?
    Answer. I support the pending trade agreements with South Korea, 
Colombia, and Panama, because they will open doors to American goods 
and services in those countries. We have the most open market in the 
world. We need trade agreements to give American companies access to 
overseas markets. I know the inclusion of Trade Adjustment Assistance 
is something the Administration and the Congress are discussing, but, 
as I am not confirmed, I am not part of those discussions. I believe 
these trade agreements are beneficial and should be enacted as quickly 
as possible, and I hope an agreement can be arrived at soon.

    Question 4. You spent some time and made a great deal of money in 
the highly regulated energy industry. Do you believe it is important 
for America's economic expansion to have access to reliable and 
inexpensive domestic energy?
    Answer. I do. If confirmed, I look forward to working with Energy 
Secretary Chu to achieve this goal.

    Question 5. If confirmed, will you support any type of carbon tax 
or cap-and-trade scheme?
    Answer. I believe most decisions on issues related to this type of 
energy policy would be made at the Department of Energy. However, if 
aspects of it come to my desk, I assure you that, if confirmed, I will 
always take into consideration the concerns and viewpoints of the 
business community. I will look forward to further engaging you on this 
important issue.

    Question 6. Will you ensure that NOAA is not a hindrance to the 
development of domestic oil and gas supplies?
    Answer. The President has pledged that by 2025, we will reduce our 
net oil imports by one-third. If confirmed, I would ensure the Commerce 
Department is helping to achieve that goal. The Commerce Department's 
role in domestic oil production is largely limited to consulting on the 
permits the Interior Department issues for drilling, as well as NOAA 
permits regarding the impacts on marine life as required by the Marine 
Mammal Protection Act and the Endangered Species Act. If confirmed, I 
will work to ensure the Commerce Department is responsive in evaluating 
requests for permits or consultations on behalf of domestic oil 
production.

    Question 7. Mr. Bryson, you sat on Boeing's Board for more than a 
decade. As you are aware, the National Labor Relations Board (NLRB) has 
sued Boeing on the claim that building a production line in a right-to-
work state, South Carolina, was retaliation against a union that 
repeatedly went on strike at their facilities in Washington. Do you 
believe this action by the NLRB will ultimately create more jobs in 
America, or increase American exports, or create a climate that 
encourages domestic business expansion?
    Answer. As a member of Boeing's Board of Directors, I voted to 
locate the Boeing production facility in South Carolina because I 
believed that was the right decision for the company. If confirmed I 
would be recused from participating in matters in which Boeing is a 
party before the Federal Government for at least two years.

    Question 8. As you know, consumer privacy and data security will 
continue to be closely examined by this committee. The rapid growth and 
dynamic nature of online commerce make our policy considerations 
especially complex and impactful. Do you believe that using personally 
identifiable information for the targeted marketing of products and 
services to those who have demonstrated a possible interest should be 
outlawed unless an advance affirmative consent is obtained?
    Answer. The Internet economy has sparked tremendous innovation, and 
the Internet is an essential platform for economic growth, domestically 
and globally. New technologies have enabled large-scale collection, 
analysis, and storage of personal information that is becoming vital to 
this economy, but also creates risks to individual privacy. Privacy is 
a key ingredient for sustaining consumer trust, which in turn is 
critical to realize the full potential for innovation and the growth of 
the Internet. I have not yet engaged in the very specific question you 
raise about targeted marketing, but I understand that the Department of 
Commerce has been hard at work engaging stakeholders to identify ways 
to strengthen consumer privacy while also promoting innovation. If 
confirmed, I will continue the work of the Department's Internet Policy 
Task Force and work with regulatory and enforcement agencies such as 
the FTC to develop a mutually acceptable solution.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                              John Bryson
    Question 1. You have been a strong proponent of cap-and-trade and 
other renewable energy initiatives. The Natural Resources Defense 
Council, which you helped found, has called for additional 
environmental restrictions prior to the resumption of drilling 
following the BP oil spill. The use of alternative and renewable energy 
is an important component of diversifying our future energy supply. 
However, we must also fully utilize the oil and gas resources that are 
domestically available in order to reduce our dependence on foreign 
oil, create jobs, and contribute to the national economy. How will you 
foster the development of domestic oil production in order to reduce 
our dependence on foreign oil?
    Answer. As a former CEO of a major utility company, I am familiar 
with the challenges of meeting the growing demand for energy in the 
modern world. Without a doubt, we must safely and efficiently utilize 
our existing domestic energy resources, such as coal and petroleum, to 
meet the demand for energy and fuel today and reduce our dependence on 
foreign oil.
    If confirmed, I will work to ensure the Commerce Department is 
responsive in evaluating requests for permits or consultations on 
behalf of domestic oil production. If confirmed I will also work to 
focus the resources of the Commerce Department on tapping the full 
economic potential of the clean energy sector to help meet our energy 
needs in the future and create good paying jobs here at home.

    Question 2. American jobs and economic growth are influenced by our 
ability to enter into trade agreements with foreign countries. These 
trade agreements ensure that U.S. products efficiently enter foreign 
markets and can enjoy a competitive advantage over other countries. We 
also need to ensure that domestic products remain competitive in the 
U.S. against foreign imports. What are your plans to foster economic 
development and job growth in the area of foreign trade?
    Answer. I agree that American jobs and economic growth are strongly 
influenced by the health of U.S. exports. If confirmed as Secretary of 
Commerce, I will make doubling U.S. exports by the end of 2014 as laid 
out in the President's National Export Initiative a top priority. I 
support the pending trade agreements with South Korea, Colombia, and 
Panama, because they will open doors to American goods and services in 
those countries.
    If confirmed, I would also seek to expand the breadth and depth of 
the U.S. exporter base. Today, only 1 percent of U.S. companies export 
and, of that 1 percent, 58 percent export to only one market. I would 
work to strengthen our efforts to educate U.S. companies about 
exporting opportunities, connect them directly to foreign buyers, and 
address trade barriers they encounter overseas.
    In addition, if confirmed, I would prioritize the role that the 
Department of Commerce plays in supporting the implementation and 
monitoring of trade agreements to ensure U.S. businesses and workers 
reap the benefits, and in enforcing our existing trade laws to ensure a 
level playing field for American companies and workers. Additionally, 
if confirmed, I would continue to make certain that Commerce provides 
quality economic and statistical information about trade agreements and 
their impacts on the U.S. economy.

    Question 3. How will you improve the competitiveness of domestic 
products in both international and national markets?
    Answer. The Department of Commerce has the expertise to help U.S. 
manufacturing and service industries sustain and maintain their 
competitiveness internationally, as well as encourage the development 
of innovative products and services. If confirmed, I will ensure that 
the Department acts strategically to increase trade and investment in 
the United States, as well as encourages the development of innovative 
products and services.
    I understand that the Department must leverage opportunities where 
U.S. industries are currently competitive, focus sharply on where we 
can significantly increase the volume and value of our exports that 
support U.S. jobs, and measure what we achieve. This strategic approach 
must be data-driven and based on the astute development and 
implementation of domestic and international policies in coordination 
with relevant U.S. agencies and input from U.S. industry and other 
stakeholders.
    If confirmed, I will advocate for U.S. industries in the global 
market place, work to remove trade barriers and enforce trade rules 
strenuously, and reduce unnecessary regulatory burdens on U.S. 
companies. I would also actively promote exports of U.S. goods and 
services that support U.S. jobs. Finally, I think there could be value 
in working with U.S. companies to assist them in adapting their 
operations in meet the demands, not only of the U.S. market, but 
potentially attractive markets outside the U.S.

    Question 4. An investigation of the National Marine Fisheries 
Service (NMFS) last year discovered that fishermen in the Northeast 
were subject to excessive fines and other inconsistencies. Last month, 
current Commerce Secretary Locke returned $650,000 to the fishermen of 
that region as compensation for unfair penalties and an acknowledgment 
of wrong-doing toward the industry. How would you continue Secretary 
Locke's work to ensure consistency within the National Marine Fisheries 
Service?
    Answer. Fishermen--commercial and recreational--are the lifeblood 
of many of our coastal communities. America's fishermen, many of them 
small businessmen, support vital jobs in our coastal communities. I 
have heard from people at the Commerce Department and read in the news 
of these unfortunate circumstances. An effective enforcement program 
ultimately protects the business interests of fishermen as well as the 
marine environment but it must be carried out with well understood 
disciplines, as is true in all forms of public enforcement work. I 
understand NMFS has implemented significant reforms to its enforcement 
program and, if confirmed, I pledge to provide continued leadership on 
this issue.

    Question 5. While inconsistencies were identified in the Northeast 
region, the Gulf of Mexico fisheries management council has worked hard 
to develop policies that have broad support. How will you ensure that 
effective management practices are maintained?
    Answer. I understand that NOAA implemented significant reforms to 
its enforcement program in order to increase transparency and 
strengthen public trust. If confirmed, I will work with NOAA to provide 
the leadership and oversight necessary to ensure enforcement reforms 
are maintained.

    Question 6. On May 31, four conservation groups issued a 60 day 
notice of intent to sue Federal agencies regarding the unusually high 
number of sea turtle strandings in the Gulf of Mexico this year. The 
lawsuit claims that sea turtles are dying in shrimp nets due to a lack 
of NMFS enforcement for turtle excluder devices in shrimp trawler nets. 
The lawsuit recommends an emergency closure of the Gulf shrimp trawl 
fishery. This could have a devastating impact on fishermen who are 
struggling to recover from the Mississippi River flooding. What steps 
would you take to prevent the shrimp trawl fishery from closing due to 
these concerns?
    Answer. If confirmed, I look forward to working with you, NOAA and 
the industry to quickly become versed in this issue and assist NOAA in 
balancing the protection of sea turtles and the health of the Gulf 
fishing industry.

    Question 7. What is your record of financial contributions to the 
NRDC?
    Answer. As I have shared previously, I helped found the NRDC out of 
law school and worked there for a little over four years. Since leaving 
NRDC in 1974, I have not had any ongoing functional role or association 
with them. At times, I have found that I disagree with some of NRDC's 
positions and found myself on the other side of the table when they 
opposed some of Edison's business initiatives.
    Over the years, my wife and I have given money extensively to 
various charitable causes. We have donated to the NRDC periodically 
during the almost thirty-seven years since I last worked there. But the 
amounts that we have given to NRDC do not approach the amounts given to 
the most significant recipients of our charitable giving, which include 
the California Institute of Technology, Stanford Business School, 
Stanford School of Education, the Polytechnic School, and a variety of 
Los Angeles area non-profits.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                              John Bryson
    Question 1. Mr. Bryson, the widening of the Panama Canal is almost 
completed, the global fleet of post-Panamax size vessels are entering 
service, and U.S. ports do not have the infrastructure in place to 
support these vessels. As we discussed in my office the Savannah Harbor 
Expansion Project is underway with the ultimate goal of deepening 
Savannah Harbor to 48 feet in order to accommodate these vessels, and 
because of the unique nature of the authorization the Secretaries of 
the Army Corps of Engineers, Interior, Commerce, and the EPA 
Administrator have to sign off on the project.
    Studies on SHEP have been going on for 10 years. As we also 
discussed in my office a sub-agency of Commerce, NOAA, is holding up 
the final approval because of their insistence that a dam that lies 
187.3 miles upriver from Savannah and that provides water retention for 
the communities of Augusta, Georgia and Aiken, South Carolina be 
removed, against the wishes of the community I might add. This is in 
order to accommodate the passage of the blunt-nose sturgeon. I would 
also add that the other agencies have instead suggested that a fish 
ladder be put in place, but NOAA's recalcitrance on this matter is 
holding up the approval of the project. On April 15th I sent a letter 
to NOAA Administrator Dr. Lubchenco in which I made suggestions on 
possible alternatives to blowing up the dam, and asking for a speedy 
reconciliation on this matter. On June 17 I received the attached 
response, which really was a ``non-response,'' which says they will 
continue to work toward a solution. It clear from her response, that a 
decision will only be made when directed to by the Secretary of 
Commerce. It is time for NOAA to stop filibustering, and time for them 
to go ahead and take a rather simple step or two to finalize a plan 
rather than continuing to ``seek a solution.''
    Meanwhile, the longer we wait, the more our national port 
infrastructure will not be ready, and the more our exports and economy 
will suffer.
    In your role as Commerce Secretary, you have the responsibility to 
balance environmental stewardship with economic development and promote 
exports and commerce. In your view, at what point is it appropriate for 
the Commerce Secretary to step in and direct NOAA to make a decision? 
If confirmed, what timeline can you give me for action on this issue?
    Answer. I appreciated the conversation we had about this issue. I 
believe in timely action and responses on vital issues like this and 
clear communication with stakeholders if there are necessary delays. I 
have not been privy to intra-departmental information on this issue so 
it would be difficult to provide a timeline at this point. If 
confirmed, I will put a priority on this and will take a close look at 
NOAA's conclusions and why they have reached them and will get back to 
you as soon as I reasonably can.

    Question 2. As a former member of the Board of Directors at Boeing, 
do you think Boeing is an ethical company who treats their employees 
well?
    Answer. I strongly believe Boeing is an ethical company that treats 
its employees well.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Patrick J. Toomey to 
                              John Bryson
    Question 1. Do you support government imposed limits on carbon 
dioxide emissions? Please explain the impact you believe such a policy 
would have on energy prices, jobs, and the economy generally.
    Answer. I share the President's commitment to look for sensible 
means to address our Nation's energy challenges that support job 
creation and economic growth. As CEO of Edison International, I had the 
responsibility to ensure the long-term viability of the company to its 
shareholders and customers. Within the first year following my 
retirement, the company joined most other U.S. investor owner utilities 
in supporting the final House bill on carbon emissions. Businesses 
greatly value reasonable regulatory consistency and predictability. 
Many American companies--including Ford, Alcoa, DuPont, and Dow 
Chemical--all had the same position: that a market-driven approach to 
reducing carbon emissions made sense and offered valued predictability 
for the future. Companies like those make investments to serve their 
customers' needs and which their customers value. I think it is highly 
probable that each of those companies, at that time, had concluded that 
it was in the best interest of their respective businesses and the 
customers they served to have the draft legislation proposed (with 
whatever possible changes they thought might be possible prior to any 
final adoption) than the uncertainties that they saw then without 
support of the bill. Businesses need certainty, in terms of regulatory 
consistency and predictability. This kind of business certainty was 
important for an energy company like Edison to make the kind of 
investments required to grow and stay competitive, particularly the 
long term capital investments that create construction and other 
related jobs.

    Question 2. Do you believe that the Federal Government should 
subsidize and/or mandate the use of renewable energy?
    Answer. If confirmed as Commerce Secretary, I do not believe this 
type of energy policy would be within my purview at the Department of 
Commerce.

    Question 3. What policies do you plan to implement to promote job 
creation, economic growth, and drive U.S. competitiveness in the global 
marketplace?
    Answer. The President has said the recovery is not complete until 
every American who wants a job has one. If confirmed, my top priority 
will be to drive job creation by spurring economic growth. There is no 
single solution or silver bullet, but I believe we should focus on the 
following, each of which will play a distinct yet interrelated role in 
promoting job creation, expanding economic growth, and fostering 
American companies' competitiveness in the global economy:

  <bullet> Expanding exports of U.S. goods and services through the 
        National Export Initiative;

  <bullet> Implementing pending trade agreements, which open markets 
        for American businesses;

  <bullet> Enforcing our trade laws to enable American firms to compete 
        on a level playing field;

  <bullet> Modernizing our government by eliminating needless 
        regulatory burdens;

  <bullet> Reforming our corporate tax code to ensure the United States 
        remains an attractive place to do business;

  <bullet> Promoting innovation that translates into business and job 
        creation through strategic investments in research and 
        development, speeding commercialization, and ensuring a strong, 
        fast and sound patent system; and

  <bullet> Strengthening manufacturing through partnerships between 
        government, industry and academia.

    Question 4. Do you believe the pending free trade agreements with 
Korea, Colombia, and Panama will create jobs and grow the economy in 
the United States?
    Answer. Yes, I believe the pending trade agreements with South 
Korea, Colombia, and Panama are an important part of a comprehensive 
trade agenda that will spur economic growth, increase exports, and 
create jobs in the United States. We have the most open market in the 
world. We need trade agreements to give American companies access to 
overseas markets.

    Question 5. What impact will FCC mandated open Internet rules 
(``net neutrality'') on broadband service providers have on job 
creation and investment in the communications sector?
    Answer. An open Internet is an integral component of our effort to 
advance American innovation, increase investment in the communications 
sector, and promote greater economic growth, and job creation. 
President Obama has pledged to preserve the free and open nature of the 
Internet while encouraging innovation, protecting consumer choice, and 
defending free speech. And he has committed that his Administration 
will remain vigilant and see to it that innovation is allowed to 
flourish, that consumers are protected from abuse, and that the 
democratic spirit of the Internet remains intact. I share his 
commitment and, if confirmed, look forward to working to ensure that 
the Internet remains an engine of economic growth and opportunity for 
the American people.

    Question 6. There is currently a significant backlog of 
applications at the Patent and Trademark Office. It can take nearly 3 
years for a patent to issue. What plans do you have to address this 
backlog?
    Answer. It is my understanding that the PTO has developed a bold 
strategic plan to effectively address currently unacceptable levels of 
patent backlog and pendency. If confirmed, I will work with the PTO and 
the Congress to ensure that appropriate progress is being made in 
achieving the stated goals. An essential component of success is 
assurance that the PTO has access to all its fee collections to fund 
its operations.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                              John Bryson
    Question 1. Fisheries are a vitally important industry to the State 
of Florida. The fishing industry in Florida brings in $12.8 billion 
annually. More than half of this ($7.6 billion) is brought in by 
recreational fishing, supporting 131,000 jobs throughout the state. 
What is your vision for fisheries management in the United States?
    Answer. I grew up in Oregon, where my family and I enjoyed 
recreational fishing off the coast and came to know something about the 
important commercial fishermen's businesses there. Moreover, I've heard 
from many friends of the wonderful fisheries off the Florida 
coastlines. As I understand their respective roles, NOAA and the 
fishing industry share a common goal--a future in which there are 
healthy fish stocks that support vibrant recreational and commercial 
fishing industries. To ensure that happens, NOAA's science must be 
sound and, for trust, it must also be transparent. Also, fair and 
transparent enforcement practices, including the recent reforms put in 
place must be consistently executed. If confirmed, I look forward to 
working with Congress, NOAA, the fishing industry and the fishery 
management councils to ensure that the public fishery management 
process continues to support that very important common goal.

    Question 2. I understand that you supported a cap-and-trade program 
as it moved through Congress in 2009. There is a similar program in 
fisheries management called catch shares. What are your views on catch 
share programs? What role do you see for them in fishery management 
going forward?
    Answer. As I understand it, catch share programs are one of many 
management tools at the disposal of fishery managers to sustainably 
manage fisheries. They show great success in some places, but are not 
the right tool for every situation. NOAA does not require their use, 
and I will not require their use, if confirmed.

    Question 3. In the FY 2011 budget, the Administration transferred 
$6 million from the cooperative research program to the national catch 
share program and an additional $11.4 million from the fisheries 
research and management program to the national catch share program. Do 
you support this budget initiative?
    Answer. I am not yet knowledgeable about the details of NOAA's 
budget and changes made in it in the past year. If confirmed I look 
forward to working with you with NOAA and other affected interests to 
understand the effects of these and other important budget changes.

    Question 4. It is my view that more adequate data collection is 
necessary to improve fishery management programs, particularly in the 
Gulf of Mexico and South Atlantic. Are you willing to commit to work 
with my office and this Committee to make necessary improvements in 
data collection and stock assessments going forward?
    Answer. Yes. I commit to work with your office and this Committee 
on this important subject, if confirmed. It is important that NOAA's 
science is robust and transparent to credibly and effectively sustain 
healthy fish stocks and fishing industries.

    Question 5. As you know, Mr. Bryson, we are still waiting to 
receive the Colombia, Panama, and Korea free trade agreements from the 
Administration. In your view, how important is it to get these trade 
agreements enacted as quickly as possible?
    Answer. The trade agreements with Colombia, Panama, and South Korea 
are an important element of a comprehensive trade agenda that will spur 
economic growth, increase exports, and create jobs in the United 
States. They will create significant new opportunities for American 
workers by opening the Colombian, Panamanian, and South Korean markets 
and reducing trade barriers. The sooner these agreements enter into 
force, the sooner these benefits can begin accruing to American 
workers, farmers, and businesses.

    Question 6. The NTIA and Dept. of Commerce are responsible for 
overseeing the Federal Government's use of spectrum. There have been 
some questions about how Federal agencies are utilizing their 
spectrum--whether they are using it effectively and efficiently, 
whether they have too much spectrum, etc. If we are going to meet the 
President's wireless broadband goals, we must ensure that Federal 
licensees are using their spectrum effectively, and if they are not, 
the NTIA should look at other uses for that spectrum, including making 
it available for commercial providers. Do you agree that ensuring that 
spectrum is being used effectively should be a priority of the NTIA and 
Dept. of Commerce?
    Answer. Given the positive impact of communications technologies on 
U.S. economic growth and job creation, we must optimize the efficient 
use of spectrum for the communications sector, including freeing up 
certain portions of the radio spectrum band that are currently used by 
Federal agencies.

    Question 7. If federally licensed spectrum is not being used 
efficiently, will you work with the NTIA to look at alternative uses 
for the spectrum?
    Answer. If confirmed, I will give high priority to implementing the 
President's plan to free up 500 MHz of spectrum--including spectrum 
currently used by Federal agencies. I also expect to work not only with 
NTIA, but also the FCC and other Federal agencies to the end of making 
additional spectrum available to commercial users who can make 
efficient use of it to advance our country's economy.

    Question 8. Will you work with the NTIA to make the underutilized 
spectrum available for commercial providers?
    Answer. If confirmed, I will work closely with NTIA to ensure that 
spectrum found to be underutilized by either commercial or Federal 
users is put to its best use, without jeopardizing the ability of 
Federal agencies to execute their missions and while ensuring Federal 
agencies have the resources they need to plan and carry out these 
tasks.

    Question 9. Do you believe that underutilized spectrum should be 
made available to commercial providers to meet the goals of the 
National Broadband Plan?
    Answer. The President's wireless initiative, which would nearly 
double the amount of spectrum currently available for commercial 
wireless broadband, is critical to delivering the benefits of 
broadband--including increased innovation, economic growth and job 
creation--to all of the country. As discussed above, if confirmed, I 
will work closely with NTIA to ensure that spectrum found to be 
underutilized by either commercial or Federal users is put to its best 
use. Broadband is key for opening up opportunities and markets for 
businesses and the job creation that comes with it.

    Question 10. The wireless industry is facing a spectrum crunch due 
to exploding demand for devices like smart phones and tablets. 
Therefore, the wireless industry is asking to purchase spectrum for 
billions of dollars from the Federal Government and in return they will 
continue to invest in infrastructure, develop new and cool products and 
services and create jobs. This will also result in much needed funds 
for deficit reduction. The President's National Broadband Plan 
recommends that an additional 500 MHz of spectrum should be made 
available for commercial broadband over the next 10 years. Mr. Bryson, 
can you tell us how you will work with Federal Government users of 
spectrum to meet these National Broadband Plan recommendations?
    Answer. I agree that the exponential growth of spectrum-dependent 
technologies and wireless devices, such as smartphones and iPads, is 
increasing faster than the amount of airwaves that are currently 
available to commercial wireless broadband providers. Moreover, given 
the positive impact of communications technologies on U.S. economic 
growth and job creation, we must optimize the efficient use of 
spectrum, including freeing up portions of the radio spectrum band that 
are currently used by Federal agencies. If confirmed, I will give high 
priority to working to ensure that the National Telecommunications and 
Information Administration (NTIA), in conjunction with the Federal 
Communications Commission, meets the President's goal of identifying 
500 MHz of commercial and Federal spectrum that can be reallocated for 
commercial wireless broadband use over the next 10 years.

    Question 11. If confirmed, you will play a vital role--through the 
U.S. Patent and Trademark Office--in the protection of intellectual 
property. Ideas, inventions, and creative expressions are being stolen 
every day, including everything from trade secrets and patents to 
movies, music, and software. And the threat is growing because of the 
rise of digital technologies and Internet file sharing.
    Adding to this problem is the fact that much of the theft takes 
place overseas, where our ability to seek justice is limited. All told, 
intellectual property theft costs U.S. businesses billions of dollars a 
year, and robs the Nation of jobs and lost tax revenues, and undermines 
our competitiveness. If confirmed, will you make the protection of 
American intellectual property a priority as Secretary?
    Answer. Should I be confirmed, I will ensure that the domestic and 
international protection and enforcement of intellectual property 
rights will continue to be a high priority at the Department of 
Commerce.

    Question 12. What are your views on protecting intellectual 
property?
    Answer. The effective protection and enforcement of intellectual 
property in the U.S. and abroad is critical to promoting innovation, 
economic growth and the creation of jobs. Accordingly, I believe that 
it must remain a high priority at the Department.

    Question 13. With more than 95 percent of the world's customers 
living outside of the United States, I believe it is essential to 
America's continued competitiveness and export growth that the 
administration advance the conclusion and implementation of robust 
trade agreements that include strong intellectual property provisions 
that protect America's creations and innovations. Can you assure me 
that, if confirmed, you will make it a top priority to work with USTR 
and other agencies and departments to ensure the Trans-Pacific 
Partnership Agreement (TPP) includes modern IP provisions that are at 
least as ambitious as those contained in the recently finalized U.S.-
Korea Free Trade Agreement (KORUS) agreement?
    Answer. The Department of Commerce, through its Patent and 
Trademark Office and the International Trade Administration, works 
closely with the USTR and other agencies on the necessary inclusion of 
robust intellectual property provisions in international trade 
agreements. If confirmed, I assure the Committee that the Department's 
role in seeking modern IP provisions in international trade agreements 
will continue.

    Question 14. As you know, intellectual property theft is costing 
U.S. businesses billions of dollars per year. In recent years, much of 
this illegal activity has moved to the Internet where rogue websites 
currently profit by offering illegal copies and streams of copyrighted 
content and selling counterfeit products. Not only do these rogue 
websites threaten Florida businesses in the innovative and creative 
sectors, but my state's large senior population is also particularly 
vulnerable to being tricked by Internet crooks who often sell 
counterfeit products--including potentially dangerous, fake 
medications. There is no reason the United States should continue to 
endure the theft of its most creative and innovative products, which is 
why I recently became a cosponsor of bipartisan legislation that would 
help cut off these websites from revenue streams and support services 
they rely upon in the U.S. marketplace. Will you commit that under your 
leadership the Department will take a close look at this problem and 
work with Congress on legislative solutions?
    Answer. I am certainly aware of the extreme harm caused by illicit 
websites that peddle counterfeit and pirated products. This theft of IP 
stifles innovation and creativity, threatens U.S. businesses and jobs, 
and poses health and safety risks to our consumers. If confirmed, I 
look forward to working with the Congress to develop effective 
legislative solutions to this serious problem.

    Question 15. Last year the $759 billion travel industry generated a 
total of $1.8 trillion in total economic output. Analysis shows that if 
the U.S. recaptured its historic share of worldwide overseas--or long-
haul--travel by 2015 and maintained that share through 2020, it would 
add nearly $100 billion to the economy over the next decade and create 
nearly 700,000 more U.S. jobs. Increasing America's share of worldwide 
long-haul travel is a no-brainer and, with the right policies, should 
be relatively easy to do. And obviously tourism is an important 
economic engine in Florida. Last year, domestic and international 
travelers spent over $70 billion in Florida--that's 10 percent of how 
much was spent in the U.S. last year. And, tourism accounts for over 
750,000 jobs in my state.
    In an op-ed in The Wall Street Journal on June 13, 2011, the Co-
Chairs of the President's Jobs Council highlighted travel and tourism 
as a key economic sector of our economy that can deliver hundreds of 
thousands of jobs if actions are quickly taken to allow the U.S. to 
regain market share in the global travel market. One solution they 
highlighted was to make it more efficient to enter the U.S. through 
improved visa processes. While the Commerce Department does not have 
sole responsibility for ensuring the competitiveness of the U.S. travel 
and tourism industry, please give us your thoughts on what role you can 
play to identify and remove the barriers that have allowed our share of 
the overseas travel market to drop from 17 percent to 12 percent over 
the last 10 years.
    Answer. From my time on the Board of Directors of the Walt Disney 
Company, I have focused on tourism in the Los Angeles metropolitan area 
and understand just how vital the industry tourism is to our economy. 
If confirmed, I will provide leadership to ensure the Tourism Policy 
Council is identifying the barriers that have allowed America's share 
of the overseas travel market to drop and see to it that a credible and 
sufficiently specific plan for reversing that trend is put in place and 
executed. I strongly believe in the importance of regaining our 
strength in tourism and the jobs that come with it.

    Question 16. In order to ensure that the United States' national 
interest in travel and tourism was fully considered in Federal 
decisionmaking, Congress established the Tourism Policy Council. The 
Council, composed of the leaders of nine Federal agencies, is chaired 
by the Secretary of Commerce. By statute, the Council is required to 
submit an annual report to Congress on its activities and efforts to 
coordinate the policies and programs of member's agencies that have a 
significant effect on international travel and tourism yet such a 
report has not been consistently presented to Congress for review. If 
confirmed, will you commit to submitting this annual report as 
prescribed by statute?
    Answer. If confirmed, I will make sure that the report is submitted 
to Congress before the end of this Fiscal Year to keep you apprised of 
the work of the Tourism Policy Council.

    Question 17. Furthermore, engagement with the private sector and 
the general public is critical to the Tourism Policy Council's success. 
While the Tourism Policy Council is allowed to close a meeting to 
prevent the public disclosure of nonpublic information, it is not the 
intent of Congress to close all meetings off to the public. If 
confirmed, would you allow for open meetings of the Tourism Policy 
Council in order to ensure transparency and public engagement?
    Answer. It is my understanding that the Tourism Policy Council 
currently conducts two principals meetings per year, led by the 
Secretary of Commerce. If confirmed, I will look into this issue 
further to better understand current practices and examine ways to open 
the meetings to the public as much as practicable. In addition, 
consideration should be given to engaging the travel and tourism 
industry's stakeholders in the Tourism Policy Council's working group 
meetings as appropriate.

    Question 18. Some members of the Commerce Committee have expressed 
a need to improve the visa process in order to make the U.S. more 
competitive in the world travel market. We hear reports of companies 
losing business deals because they cannot get buyers into trade shows 
or into their office to purchase products as a result of delays in visa 
processing.
    It seems that we should conduct an assessment of the impact the 
existing visa process is having on American businesses ability to grow 
exports. We should also seek to determine how many leisure and business 
travelers want to come to the United States but never bother to apply 
for a U.S. visa because they are deterred by delays in the process. If 
confirmed, would you seek to conduct this type of assessment and 
deliver a report to the President and Congress on the issue?
    Answer. If confirmed, I would follow up promptly on this concern.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                              John Bryson
    Question 1. New Hampshire epitomizes a small business state, and 
free trade is so important to our local economy. In fact, in 2010 
alone, $4.2 billion of merchandise was exported from New Hampshire, 
$1.8 billion of which was to FTA partners. 14,489 jobs were directly 
supported by exports and we proudly have 104 exporting companies. There 
has been much debate and political posturing lately over Free Trade 
Agreements. Do you unconditionally support FTAs with Colombia, Panama 
and South Korea to get our economy back on its feet? Specifically, 
would you support FTAs without the inclusion of Trade Adjustment 
Assistance?
    Answer. I support the pending trade agreements with South Korea, 
Colombia, and Panama, because they will open doors to American goods 
and services in those countries. We have the most open market in the 
world. We need trade agreements to give American companies access to 
overseas markets.
    I know the inclusion of Trade Adjustment Assistance is something 
the Administration and the Congress are discussing, but, as I am not 
confirmed I am not part of those discussions. I believe these trade 
agreements are beneficial and should be enacted as quickly as possible, 
and hope an agreement can be reached soon.

    Question 2. You have publicly supported cap-and-trade legislation, 
claiming that H.R. 2454 in the 110th Congress was a ``moderate, but 
acceptable'' bill. You have also stated that you believe cap-and-trade 
legislation is a tax, and that regulations which penalize energy 
producers for producing more energy than needed are the best way to 
reduce energy consumption and greenhouse gases. Do you stand by these 
statements, and if so, what is your expectation of how cap-and-trade 
legislation or similarly structured Federal regulations would affect 
jobs in this country?
    Answer. I believe, overall, that a predictable regulatory 
environment is good for American companies and increases their ability 
to create jobs in the United States. As such, I share the President's 
commitment to look for sensible means to address our Nation's energy 
challenges that support job creation and economic growth. As CEO of 
Edison International, I had the responsibility to ensure the long-term 
viability of the company to its shareholders and customers. Within a 
year of the date of my retirement, the company joined the great 
majority of U.S. investor-owned electric companies in supporting the 
then proposed House bill on reducing carbon emissions. The judgment 
then was that the bill as proposed offered a more predictable path 
forward for the capital investments we had made and needed 
prospectively to make on behalf of our customers and businesses than 
the alternative of continued uncertainty. Many American companies--like 
Ford, Alcoa, DuPont, Dow Chemical--all had the same position: that a 
market-driven approach to reducing carbon emissions made sense and 
offered valued predictability for the future. Predictability in turn 
made possible greater confidence in making long-term capital 
investments. Businesses need certainty, in terms of regulatory 
consistency and predictability. This kind of business certainty was 
important for an energy company like Edison to make the kind of 
investments required to grow and stay competitive, particularly the 
long-term capital investments that create construction and other 
related jobs.

    Question 3. Over-regulation of the fishing industry and arbitrary 
fines imposed on fishermen continue to cause significant harm to our 
fishing communities in New Hampshire and throughout the northeast. 
During recent Economic Development Administration (EDA) hearings in New 
England, fishermen testified that catch shares are systematically 
driving small, independent fishermen out of business and creating an 
economic disaster for fishing communities. As Secretary of Commerce, 
can you assure us that you will repair the damage that has been done 
and get our fishermen back to work? What steps will you take to do 
this?
    Answer. Fishermen and the fishing industry are vital elements of 
our coastal communities and the U.S. economy. If confirmed, I will work 
with NOAA to continue efforts to strengthen public trust in NOAA's 
ability to soundly, fairly and effectively carry out its 
responsibilities under the Magnuson-Stevens Act, as reauthorized in 
2006. It is important that NOAA's science is at all times sound and 
transparent in carrying out its mandate to sustain healthy fish stocks 
and fishing industries. In the past when new science became available, 
I understand that Secretary Locke raised catch limits. If confirmed, I 
commit to you that if there is new science that shows catch limits can 
be raised, I will work with NOAA to raise them as expeditiously as 
possible. If confirmed, I also promise to continue the reforms that 
Secretary Locke put in place to ensure NOAA has a fair and effective 
enforcement program, which strengthens compliance assistance and 
creates a level playing field for fishermen.

    Question 4. At the start of your career you were co-founder and 
attorney for the Natural Resources Defense Council (NRDC), which has 
been active in court cases opposing fishing industry interests and a 
lead litigator in securing reduced quota for fisheries. According to a 
2008 report, the commercial and recreational fishing industries in the 
United States are worth $163 billion and responsible for 1.9 million 
jobs. As Secretary of Commerce, can you assure us that you will work to 
strengthen the fishing industry, and that your previous involvement 
with the NRDC will not improperly influence your oversight of NOAA 
Fisheries?
    Answer. I grew up in Oregon where I learned to fish as a young boy. 
I spent time along the working waterfronts and with fishermen and 
appreciate and value their unique way of life. The commercial and 
recreational fishing industry is a vital component of our Coastal 
communities and the U.S. economy. If confirmed, I will work to ensure 
NOAA's science is accurate and transparent to sustain healthy fish 
stocks and fishing industries now and in the future.

    Question 5. One of the regulatory agencies responsible for issuing 
permits needed for offshore oil and gas exploration is the National 
Marine Fisheries Service (NMFS) which falls under NOAA. It is my 
understanding that in the past these permits have not always been 
issued in a timely manner, which has a significant cost and stalls job 
growth. Can you assure us that NMFS and NOAA will work with oil and gas 
developers to issue needed permits to allow for exploration?
    Answer. It is important that NMFS do all that it reasonably can, 
consistent with its responsibilities under Federal law, to issue 
permits on a timely basis. There are considerable costs to businesses 
due to unnecessarily slow responses. Finally, if confirmed, I will 
encourage strong relationships for working together and early sharing 
of information and early expression of concerns in order to make the 
permit process as productive and timely as possible.

    Question 6. The National Association of Broadcasters recently 
stated that there is ``no spectrum crunch.'' However, the FCC has 
stated that it believes there is a spectrum crunch and we need to free 
up in excess of 300 Megahertz in the next 5-10 years to meet growing 
demand for broadband. Do you agree with the Broadcasters or the FCC on 
the issue of a spectrum crunch? In general, what are your thoughts on 
spectrum policy and what is your plan to navigate NTIA, the Department 
of Commerce, and the Obama Administration through this issue?
    Answer. I am concerned that the exponential growth of spectrum-
dependent technologies and wireless devices, such as smartphones and 
iPads, is outpacing the efforts of commercial wireless providers 
seeking to devote spectrum to those uses. Given the positive impact of 
communications technologies on U.S. economic growth and job creation, 
we must optimize the efficient use of spectrum and identify portions of 
the radio spectrum band that can be used for commercial wireless 
broadband use. If confirmed, one of my priorities will be to work to 
ensure that the National Telecommunications and Information 
Administration (NTIA), in conjunction with the Federal Communications 
Commission, meets the President's goal of identifying 500 MHz of 
commercial and Federal spectrum that can be reallocated for wireless 
broadband use over the next 10 years. In particular, with respect to 
identifying bands currently used by Federal agencies, I believe it is 
critical to preserve agencies' ability to effectively execute their 
specific missions. Additionally, I support providing agencies with 
sufficient resources to plan and carry out these important tasks.

    Question 7. As you know, the Department of Commerce is pivotal in 
coordinating the United States government's policies in protecting 
Intellectual Property. It is estimated that IP generates approximately 
$8 trillion annually in gross output and nearly 20 million jobs in the 
United States. However, nearly 2.5 million jobs are lost due to 
counterfeiting or piracy. Online sales of counterfeit goods are 
estimated to be $135 billion globally and the cost of global digital 
piracy exceeds $75 billion. Do you have any unique ideas to crack down 
on this? What can the government do better to create deterrents to 
infringement? What assurances can you give us that IP protection and 
enforcement will remain a top priority at the Commerce Department?
    Answer. Should I be confirmed, I will ensure that the domestic and 
international protection and enforcement of intellectual property 
rights will continue to be a high priority at the Department of 
Commerce. I will engage appropriate officials within the Administration 
with intellectual property responsibilities to, review, explore, 
develop and implement those policies designed to most effectively deter 
infringing activity here and abroad. As an example of a promising 
initiative, it is my understanding that the USPTO is developing a 
comprehensive strategy to address infringement of patent rights owned 
by U.S. businesses in China.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                            to Terry Garcia
    Question 1. Mr. Garcia, in your previous positions as Assistant 
Secretary of Commerce for Oceans and Atmosphere and Deputy 
Administrator of the National Oceanic and Atmospheric Administration 
(NOAA), you have managed and overseen the line office responsible for 
managing our Nation's fisheries, the National Marine Fisheries Service. 
What further actions would you recommend the Fisheries Service take to 
achieve economically and ecologically sustainable domestic fisheries? 
While our domestic fisheries have are turning the corner, and are 
finally on the path to sustainability as overfishing is reduced in our 
waters, the rest of the world is a different story. How do you think 
the Fisheries Service and NOAA can promote sustainability in the 
foreign fisheries that supply over 80 percent of the seafood Americans 
consume?
    Answer. I think that the National Marine Fisheries Service is 
currently employing a variety of tools and programs to help the Nation 
achieve economically and ecologically sustainable domestic fisheries. 
NOAA shares a common goal with the fishing industry--a future that sees 
sustainable fish stocks that support a vibrant fishing industry. NOAA 
has been actively working to find innovative ways to work with the 
industry. If confirmed, I look forward to working with you, other 
Members of Congress and the industry to ensure NOAA remains transparent 
and innovative in pursuit of that goal. The National Marine Fisheries 
Service already works in the international arena through a variety of 
venues to promote sustainable, honest practices in other countries that 
create a level playing field for U.S. fishermen. If confirmed, I look 
forward to working with NOAA to ensure that the seafood on American 
tables is sustainable and supported by a strong domestic industry.

    Question 2. Mr. Garcia, you served on President Obama's Oil Spill 
Commission and much earlier led NOAA's restoration plan implementation 
following the Exxon Valdez disaster. Drawing from your experience, how 
likely do you feel it is that we will encounter another oil spill, and 
what steps would you take as Assistant Secretary to prevent that 
likelihood?
    Answer. The Department of Commerce, through the National Oceanic 
and Atmospheric Administration, has a wealth of scientific expertise 
including spill trajectories, weather forecasts, seafood sampling, 
damage assessment, oil clean up, and many other valuable services to 
combat oil spills of all sizes. While I hope that another spill the 
size of last year's does not occur again, if confirmed, I will ensure 
that NOAA's services and expertise remain state-of-the-art and well-
resourced to respond to all oil spills regardless of size.

    Question 3. As the backbone of our Nation's ability to observe and 
predict weather, NOAA's polar orbiting satellites help save lives and 
minimize property damage. However, we find ourselves likely to face a 
complete loss of this satellite functionality in a few years as a 
result of a funding shortfall in 2011. As the Deputy Secretary of 
Commerce, how will you work in the next 4-6 months to get the 
Administration's management of the Joint Polar Orbiting System back on 
track?
    Answer. I believe that this Administration has gotten the polar-
orbiting satellite program back on track from a management perspective. 
As I understand it, the remaining challenges to ensuring its success 
are fiscal in nature and, if confirmed, I look forward to working with 
Congress, NOAA, and the rest of the Administration to ensure that the 
program has the funding it needs to provide the life and property 
saving information it currently produces.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                              Terry Garcia
    Question. From the beginning, I have been an adamant opponent of 
relocating the Marine Operations Center-Pacific (MOC-P) from the Puget 
Sound to Newport, Oregon. For that reason alone, it has been extremely 
difficult to get information from the Department on the project. As a 
result, I demanded an Inspector General's report of NOAA's MOC-P 
acquisition. Have you read the Inspector General's Report? If not, you 
should carefully read and evaluate the Inspector General's report and 
compare it with your experience at NOAA. At a minimum, I believe you 
will be very disappointed with NOAA's process.
    I urge you to reach out to MOC-P personnel. As Deputy Secretary, I 
want you to hold a closed door meeting with NOAA MOC-P employees, 
without senior management. I want you to hear from NOAA employees 
themselves about the process of the move, the necessity of maintaining 
fleet and collaborative science presence in Seattle. Can you commit to 
meeting with NOAA employees in Seattle to discuss this important issue?
    Answer. If confirmed, one of my principle responsibilities will be 
to oversee the day-to-day operations and management of the Department. 
I understand that the Department instituted a number of reforms to its 
acquisition process based on lessons learned from the MOC-P. If 
confirmed, I look forward to visiting with Department employees and to 
hearing how the Department can improve management and operations.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                              Terry Garcia
    Question. The Department of Commerce includes a diverse collection 
of agencies that work on everything from predicting the weather to 
issuing patents. The Department's over-arching mission, however, is to 
promote job creation and economic growth. That mission is more 
important than ever. As Deputy Secretary, how will you provide 
leadership to ensure that the Department of Commerce's diverse 
collection of agencies are all working to meet the needs of the people 
they serve?
    Answer. As a former Assistant Secretary at Commerce, I am well 
aware of the Department's diversity. If confirmed, I will use this 
experience to focus all of Commerce's bureaus on the singular goal of 
increasing job creation and economic growth. I will do this by meeting 
with the bureau heads regularly to discuss in-depth what they are 
specifically doing to achieve these goals. I will also work to ensure 
that proper management of Commerce resources at all levels allows the 
Department to concentrate on the big picture of what's best for the 
American people.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                              Terry Garcia
    Question 1. As you know, I am the ranking member of the 
subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard. 
Commercial fishing interests are committed participants in Maine's 
marine resource management, and critical to my state's economic 
success. Leading fisheries scientists agree that U.S. fishermen, 
subject to the Magnuson-Stevens Act, are among the most heavily 
regulated in the world. As a result, depleted resources are rebuilding, 
but not without economic costs in the interim. In Maine alone, 23 
percent of the crew positions in the groundfish fishery have been lost. 
NOAA reports that revenues are up, but clearly our work is not yet 
complete.
    Recently, NOAA issued an independent report reviewing the New 
England Management Process, which concluded that ``many industry 
members feel that NMFS no longer has any focus on economic growth of 
the industry.'' The Department of Commerce's mission is to promote 
economic growth, while a key mission of its largest agency, the 
National Oceanic and Atmospheric Administration, is the conservation 
and management of marine resources. How would you address the concerns 
of the fishing industry, who believe that the Department of Commerce 
has worked against them rather than worked to support them? How do you 
propose to reconcile these distinct and potentially conflicting 
missions in order to create jobs in the seafood supply chain?
    Answer. I know from my work with the agency previously and since I 
left, that the National Oceanic and Atmospheric Administration's (NOAA) 
National Marine Fisheries Service (NMFS) shares a goal with the fishing 
industry of ensuring there is a healthy and sustainable fishing 
industry in the future. To ensure such an industry exists, we must work 
together to ensure that the resources on which the fishing industry 
depends are healthy and used sustainably. Constant improvements to 
fisheries science are needed to ensure that fishing communities get the 
greatest fishing opportunity possible within sustainable levels. If 
confirmed, I will work diligently with NOAA to ensure that NMFS' 
actions are based on the best available science so that we keep and 
create as many jobs as possible in the industry.

    Question 2. Mr. Garcia, the iconic groundfish fleet in Maine has 
had a difficult transition this year to a catch share program--the 
sector management system--where groups of fishermen have been allocated 
a certain amount of fish to harvest as a group. While there have been 
some positive signs from the first year of this dramatic regime shift, 
there is still a great deal of work to be done in order to make this 
system more efficient and cost-effective.
    Of particular concern to the sectors based in Maine is the high 
cost of at-sea monitoring. Monitoring is critical for accurate 
assessment and enforcement, but as the program is currently 
administered by the National Marine Fisheries Service, it is also very 
expensive. Fishermen in the New England Sector program may have to pay 
as much as double the cost for at-sea monitoring on the west coast due 
to differences in the way the fisheries are prosecuted. In 2012, the 
New England fleet will have to absorb this expense if Federal resources 
are unavailable and vessel owners are concerned that this cost will be 
too much to bear.
    In this difficult fiscal climate, I hope that, if you are 
confirmed, your leadership of the Department of Commerce will include 
finding creative solutions to reduce costs imposed on the private 
sector by our regulatory system so that businesses can thrive. The 
fishermen in Maine are thinking ahead, and are participating in the 
development of electronic monitoring tools to eliminate the need for 
human observers. Given the high costs that are often associated with 
meeting regulatory requirements, how would you foster and support this 
type of innovative, cost-saving technology, in heavily-regulated 
industries such as the fishing industry?
    Answer. I believe innovation and creativity can create huge cost 
savings in industry, and is important in the highly regulated fishing 
industry. For example, cooperative research funding has already helped 
develop more selective fishing gear which allows fishermen to more 
efficiently target healthy stocks while avoiding weak stocks. This can 
make fishing businesses more efficient and profitable. This same type 
of innovation needs to occur to bring down the cost of at-sea 
monitoring. If confirmed, I will seek solutions to help reduce the cost 
of at-sea monitoring through innovative technology.

    Question 3. Mr. Garcia, as the ranking member of the subcommittee 
on Oceans, Atmosphere, Fisheries, and Coast Guard, the concerns of 
Maine's fishermen are my concerns. I am sure you are aware of the 
challenges facing New England fishermen, given your role as General 
Counsel following the Amendment 13 lawsuit and your tenure at NOAA in 
the years that followed.
    Unfortunately, the fishing industry's interactions with the 
National Marine Fisheries Service's Northeast regional office and 
science center have been getting steadily worse over the last several 
years, culminating in Inspector General reports that highlight 
substantive problems with NOAA leadership in my region. A 2009 
investigation recommended that NOAA take specific steps to improve 
communication of its research results and to strengthen its 
relationship with New England commercial fishermen. In 2011, troubling 
news emerged about what the IG called ``systemic'' issues in the 
regional Office of Law Enforcement. The most telling indication of this 
problem was the workforce imbalance in the office, where 90 percent of 
the staff were criminal investigators.
    In response to my request at the NOAA budget hearing this spring, a 
workforce analysis is being conducted and I expect we will find that 
reducing the complexity of excessive fisheries regulations would help 
our fishermen comply with regulations more effectively than would the 
addition of uniformed enforcement agents walking the docks with guns.
    Mr. Garcia, given your experience as General Counsel of NOAA and 
your familiarity with the fishing industry, what have you learned from 
your experience at NOAA, and what insights will you bring now that you 
have worked outside the agency for the last twelve years that will 
ensure that NOAA leadership improves its relationship with the fishing 
industry, and that we will finally begin to move in a more positive 
direction? What steps will you take to ensure that the Commerce 
Department abandons its adversarial approach to the enforcement of 
fishing regulations?
    Answer. We must redouble our efforts to improve the relationship 
between NOAA and the fishing industry in New England. My experience 
working outside the agency will be useful in this endeavor. I 
understand that NOAA is implementing significant reforms to its 
enforcement program. Critical to these reforms is ensuring the agency 
works better with stakeholders to ensure everyone understands how to 
comply with the regulations. An effective enforcement program 
ultimately protects the business interests of fishermen as well as the 
marine environment. If confirmed, I pledge to provide leadership on 
this issue to make sure the reforms underway in NOAA's enforcement 
program continue.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                              Terry Garcia
    Question 1. Last month, the Bureau of Ocean Energy Management, 
Regulation, and Enforcement (BOEMRE) and National Oceanic and 
Atmospheric Administration (NOAA) signed a Memorandum of Understanding 
(MOU) to increase their coordination when reviewing Outer Continental 
Shelf (OCS) oil permits. This MOU, which was a recommendation in the 
Oil Spill Commission Report, expands NOAA's role in the oil permit 
approval process. How do you envision NOAA fulfilling the MOU 
requirements in a timely manner to ensure they do not delay the issuing 
of oil and gas permits?
    Answer. It is my understanding that this MOU would improve how 
BOEMRE and NOAA coordinate and collaborate to ensure energy resources 
are developed in an environmentally sound manner that protects marine 
life and ecosystems under our respective authorities. This enhanced 
coordination will assist in the timely issuance of permits that are 
consistent with MOU requirements. If confirmed, I look forward to 
continuing to enhance this important partnership.

    Question 2. Environmental Impact Statements are currently required 
at several different stages of oil and gas exploration, drilling, and 
production, during which the Department of Commerce has the opportunity 
to comment. What measures will you take to reduce redundancies?
    Answer. I understand that the MOU recently signed between the 
Bureau of Ocean Energy Management, Regulation, and Enforcement (BOEMRE) 
and the National Oceanic and Atmospheric Administration (NOAA) will 
allow the two agencies to align their regulatory and decisionmaking 
processes and engage early in their respective processes in order to 
improve coordination, thereby reducing redundancies in oversight and 
regulation. This is an important area and, if confirmed, I look forward 
to fostering the ongoing collaboration between NOAA and BOEMRE.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                              Terry Garcia
    Question 1. What role do you feel marine protected areas serve as a 
fisheries management tool?
    Answer. Marine Protected Areas (MPA) is one of many tools available 
to managers to manage fisheries. Like all available tools, they are not 
suited to every circumstance. I understand that many MPAs are 
established and managed with the explicit purpose of supporting the 
continued extraction of renewable living resources, including fish that 
either live within the MPA or depend on the protected area's habitat 
for essential aspects of their ecology. Through protection of feeding, 
spawning, mating, or nursery areas, MPAs can assist in the recovery of 
overfished stocks and in the continued production of those stocks not 
depleted.
    Question 2. Under what scenario would you deny recreational or 
commercial fishermen access to marine areas?
    Answer. Access to marine areas is vitally important to 
understanding and appreciating them. Therefore, restricting access to, 
and use of, marine areas should be done in a manner that is targeted to 
clearly defined and measurable goals (for example, to promote increased 
fisheries production or to conserve biodiversity) while minimizing 
impacts to users. Any decisions to restrict access must have the 
benefit of both the best available science and meaningful and rigorous 
community involvement and participation.

                                  <all>

</pre></body></html>
